“To care for him who shall
have borne the battle and for
his widow and his orphan.”
       Abraham Lincoln




                                Office of Inspector General
                                Department of Veterans Affairs
                                  Semiannual Report to Congress
                                 April 1, 2004 - September 30, 2004

                                                 FOREWORD




I am pleased to submit the semiannual report on the activities of the Department of
Veterans Affairs (VA), Office of Inspector General (OIG), for the period ended
September 30, 2004. This report is issued in accordance with the provisions of the
Inspector General Act of 1978, as amended. The OIG is dedicated to helping ensure that
veterans and their families receive the care, support, and recognition they have earned
through service to our country.

A total of 105 reports on VA programs and operations resulted in systemic improvements
and increased efficiencies in areas of medical care, benefits administration, procurement,
financial management, information technology, and facilities management. Audits,
investigations, and other reviews identified over $1.17 billion in monetary benefits, for an
OIG return of $37 for every dollar invested.

Our criminal investigators closed 468 investigations involving a wide variety of criminal
activity directed at VA personnel, patients, programs, or operations. Special agents
conducted investigations that led to 779 arrests, indictments, convictions, and pretrial
diversions. They also produced nearly $302 million in monetary benefits to VA .
Additionally, the efforts of our agents led to the apprehension of 181 fugitive felons
nationwide.

One of our more significant investigations involved a multi-agency task force that was
formed to investigate allegations of the sale and distribution of illegal narcotics in and
around a VA medical center (VAMC). A confidential informant developed by the OIG was
placed inside the facility and spent almost 1 year gathering information regarding illegal
activities. This informant made over 70 monitored purchases of illegal drugs that resulted
in the arrest of over 50 individuals. To date, nearly half of that number have already been
convicted.

In addition to the sale of illegal narcotics, pharmaceuticals were being diverted from the
VAMC pharmacy. These included expensive blood pressure medications and sexual
impotence drugs. Investigation into this matter resulted in the arrest of two VAMC
pharmacy employees, a Disabled American Veterans service officer, and a former VA
employee on charges of violation of state pharmaceutical statutes.
Audit oversight focused on determining how to improve VA services to veterans and their
families. Our follow-up audit of the Workers’ Compensation Program (WCP) found
previous OIG audit recommendations to: (i) enhance VA’s case management and fraud
detection efforts, and (ii) avoid inappropriate dual benefit payments, were not fully
implemented. As a result, we found opportunities to reduce WCP costs by $696.2 million
over the projected lifetime of claimants on the rolls. Preaward and postaward contract
reviews identified monetary benefits of over $122.6 million resulting from actual or
potential contractor overcharges to VA. This amount included contract review recoveries
of $1.1 million deposited into VA’s revolving supply fund.

Our health care inspectors focused on quality of care issues in VA. Inspectors visited a
number of facilities to respond to Congressional and other special requests concerning
health care related matters. We also completed four summary evaluation reports that
should assist Veterans Health Administration’s managers: (i) improve the quality of care
and safety of patients in community residential care programs; (ii) identify violent patients
and minimize the risk to employees, patients, and others visiting VA facilities from
threatening and violent patient behaviors; (iii) strengthen quality management; and
(iv) improve the management of nursing resources, facilitate nursing recruitment and retention
efforts, and enhance nurses’ job satisfaction. Our nurse staffing review identified areas where
$42.4 million in costs could be better used.

We conducted an evaluation of selected patient care and administrative issues and the
attempted deployment of the Core Financial and Logistics System (CoreFLS) at VAMC
Bay Pines. We confirmed reports of substandard patient care and services at the VAMC
and found that many of the conditions existed prior to the deployment of CoreFLS. We
concluded that the contracting and monitoring of the CoreFLS project were not adequate
and the deployment of CoreFLS encountered multiple problems. Even though VA had
obligated $249 million of the $472 million budgeted for CoreFLS, it had not been
successfully deployed at a VAMC. VA’s management of the CoreFLS project did not
protect the interest of the Government. We made a number of recommendations to
improve contracting procedures, and clinical and administrative controls.

I look forward to continued partnership with the Secretary and the Congress in pursuit of
world-class service for our Nation’s veterans.




RICHARD J. GRIFFIN

Inspector General

                                           TABLE OF CONTENTS


                                                                                                                           Page

HIGHLIGHTS OF OIG OPERATIONS .........................................................................                        i

VA AND OIG MISSION, ORGANIZATION, AND RESOURCES ..................................                                           1

COMBINED ASSESSMENT PROGRAM ................................................................................                 7


OFFICE OF INVESTIGATIONS
    Mission Statement ..............................................................................................        17

    Resources       ....................................................................................................    17

    Criminal Investigations Division ..........................................................................             17

          Veterans Health Administration ................................................................                   18

          Veterans Benefits Administration .............................................................                    21

          Fugitive Felon Program ............................................................................               26

          OIG Questioned Document Forensic Laboratory ......................................                                28

          OIG Computer Crimes Forensic Laboratory .............................................                             28

    Administrative Investigations Division .................................................................                29

          Veterans Health Administration ................................................................                   30

    Analysis and Oversight Division ..........................................................................              30


OFFICE OF AUDIT
    Mission Statement .............................................................................................         33

    Resources .........................................................................................................     33

    Overall Performance ..........................................................................................          33

           Veterans Health Administration ...............................................................                   34

           Office of Management .............................................................................               35

           Multiple Office Action ...............................................................................           36

           Joint Review ...........................................................................................         38

OFFICE OF HEALTHCARE INSPECTIONS
    Mission Statement .............................................................................................         39

    Resources .........................................................................................................     39

    Overall Performance ..........................................................................................          39

           Veterans Health Administration ...............................................................                   40

OFFICE OF MANAGEMENT AND ADMINISTRATION
    Mission Statement .............................................................................................         47

    Resources .........................................................................................................     47

    Hotline Division ..................................................................................................     48

           Veterans Health Administration ...............................................................                   49

           Veterans Benefits Administration ............................................................                    51

           VA Central Office ....................................................................................           51

    Operational Support Division .............................................................................              52

    Information Technology and Data Analysis Division ............................................                          53

    Financial and Administrative Support Division ...................................................                       56

    Human Resources Management Division ..........................................................                          56


OTHER SIGNIFICANT OIG ACTIVITIES
    President’s Council on Integrity and Efficiency ...................................................                     59

    OIG Management Presentations ........................................................................                   59

    Awards and Special Thanks ...............................................................................               61

    OIG Congressional Testimony ............................................................................                62

                                                                                                                             Page


APPENDIX A-REVIEWS BY OIG STAFF ................................................................................ 63

APPENDIX B-STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR 73

     Veterans Benefits Administration ..................................................................... 74

     Veterans Health Administration ....................................................................... 75

APPENDIX C-INSPECTOR GENERAL ACT REPORTING REQUIREMENTS .......... 81

APPENDIX D-VA OIG PERFORMANCE REPORT FY 2005 ............................................. 85


APPENDIX E-OIG OPERATIONS PHONE LIST ................................................................... 101


APPENDIX F-GLOSSARY ........................................................................................................... 103

                   HIGHLIGHTS OF OIG OPERATIONS

This semiannual report highlights the activities and accomplishments of the Department of Veterans Affairs
(VA), Office of Inspector General (OIG), for the 6-month period ended September 30, 2004. The following
statistical data also highlights OIG activities and accomplishments during the entire fiscal year (FY).

                                                                                         Current 6 Months           FY 2004
                                                                                          4/1/04 - 9/30/04     10/1/03 - 9/30/04
DOLLAR IMPACT                                                                                        Dollars in Millions
     Funds Put to Better Use ..................................................................      $888.7        $2,828.7
     Dollar Recoveries ............................................................................    $4.3           $24.0
     Fines, Penalties, Restitutions, and Civil Judgments ..........................                  $250.2          $258.0
     Overpayments and Cost Avoidance Associated with Fugitive Felon                                   $29.3          $117.1

RETURN ON INVESTMENT
           Dollar Impact ($1,172.5) / Cost of OIG Operations ($32.1) ............                                      37:1
           Dollar Impact ($3,227.8) / Cost of OIG Operations ($66.4) ............                                               49:1

OTHER IMPACT
           Arrests ...............................................................................................     356      642
           Indictments ........................................................................................        236      397
           Convictions ........................................................................................        174      332
           Pretrial Diversions .............................................................................            13       24
           Apprehensions ...................................................................................           181      330
           Administrative Sanctions ...................................................................                262      522

ACTIVITIES
    Reports Issued
        Combined Assessment Program (CAP) Reviews ...........................                                           29       55
        Joint Review .....................................................................................               1        2
        Audits ...............................................................................................          12       24
        Contract Reviews ............................................................................                   49      105
        Healthcare Inspections .....................................................................                    10       26
        Administrative Investigations ............................................................                       4       11
    Investigative Cases
        Open .................................................................................................         483      981
        Closed ..............................................................................................          468      970
     Healthcare Inspections Activities
            Clinical Consultations .................................................................                     9       17
    Hotline Activities
       Contacts ............................................................................................         10,529   24,505
       Cases Opened ...................................................................................                 671    1,217
       Cases Closed .....................................................................................               610    1,123




                                                                                  i
OFFICE OF INVESTIGATIONS

Overall Focus

The Criminal Investigations Division focuses its resources on investigations that have the highest impact on
the programs and operations of the Department. While continuing to target traditional "white collar" criminal
activity associated with the operations of VA, personnel of the Criminal Investigations Division also
frequently find themselves involved in the investigation of violent criminal activity such as murder, armed
robbery, narcotic and pharmaceutical trafficking, terrorist or other threats – all of which are occurring on VA
property and/or directed at VA personnel, patients, programs, or operations.

The Administrative Investigations Division concentrates its resources on investigating allegations against
high-ranking VA officials relating to misconduct and other matters of interest to Congress and the
Department.

The Analysis and Oversight Division provides guidance and support for the Office of Investigations by
conducting routine office inspections and by directing efforts to identify and develop new initiatives designed
to enhance the abilities of investigators to accomplish the core mission in a more effective and efficient
manner.

During this semiannual period, the Criminal Investigations Division closed 468 investigations resulting in 423
judicial actions (indictments, convictions, and pretrial diversions) and nearly $302 million recovered or
saved. Investigative activities resulted in the arrest of 356 individuals who had committed crimes directed at
VA programs and operations or crimes that were committed on VA property. Information developed by
our fugitive felon match and provided to other law enforcement agencies resulted in 181 additional arrests of
fugitive felons. Criminal investigations also resulted in 216 administrative sanctions. The Administrative
Investigations Division closed 12 cases, issuing 4 reports and assisting in a joint Hotline with OIG Offices of
Audit and Healthcare Inspections, and 4 advisory memoranda. These investigations resulted in management
agreeing to take 14 administrative sanctions, including personnel actions against 10 officials, and corrective
actions in 4 situations that will improve VA operations. The Analysis and Oversight Division completed a
President’s Council on Integrity and Efficiency (PCIE) qualitative assessment review of the investigative
operation of another OIG.

Veterans Health Administration (VHA)

A funeral director was charged with two counts of fraudulent transactions with access devices. The
investigation revealed the subject had fraudulently obtained $361,500 by charging VA credit cards for
indigent veterans’ burial services that had been provided by other mortuary companies.

In a 1996 qui tam investigation initiated by the VA OIG, a major pharmaceutical company pled guilty to a
two-count criminal information charging the company with a violation of the Food and Drug Administration’s
(FDA) Food, Drug and Cosmetic Act. The company misbranded Neurontin by: (i) failing to provide




                                                       ii
adequate directions for its use, and (ii) introducing an unapproved drug into interstate commerce. This
investigation involved the Federal Bureau of Investigation (FBI), the FDA Office of Criminal Investigations,
and the Department of Health and Human Services OIG. The vice president of the company appeared in
U.S. District Court on behalf of the company and formally entered two guilty pleas. The company was
sentenced to pay a $240 million dollar criminal fine and over $190 million dollars in civil liabilities. This
sentence is the largest sentence ever imposed in a health care fraud prosecution and the criminal fine is the
second largest criminal fine ever imposed in a health care fraud investigation.

                               Department of Justice News Release
                                          May 13, 2004




Veterans Benefits Administration (VBA)

Two individuals pled guilty to charges of conspiracy, mail fraud, and false statements following a joint
investigation conducted by the VA OIG, Department of Housing and Urban Development (HUD) OIG, U.S.
Postal Inspection Service, and the Internal Revenue Service (IRS). The individuals operated home
remodeling businesses and assisted homeowners in obtaining financing for the projects. They submitted
false information to banks and lending institutions that qualified homeowners for loans they were otherwise
ineligible to receive. The homeowners then failed to make installment loan payments causing several HUD
loans and two VA home improvements and structural alterations grants to default. The total loss to the
banks, lending institutions, and Government agencies was more than $1.7 million. Both subjects are
pending sentencing.

A paralegal, employed by an attorney who was a conservator for ten veterans, pled guilty in Federal court
to one count of embezzlement for converting $103,534 of veterans’ funds. The subject began embezzling




                                                      iii
The Middletown Press, Middletown, Conn                                                   September 8, 2004




the money in 2002 by writing checks from veterans’ accounts, and in many cases forging veterans’
signatures, cashing the checks, and taking the money for his personal use. The case was investigated jointly
by the VA OIG and Social Security Administration (SSA) OIG.

Fugitive Felon Program

To date, approximately 3.5 million felony warrant files have been received from participating law
enforcement agencies. These warrant files were matched to more than 11 million records contained in VA
benefit system files, resulting in the identification of more than 38,000 matched records. The records match
has resulted in over 12,000 referrals of information from VA files regarding fugitive felons to various law
enforcement agencies throughout the country. The information provided to the agencies has directly led to
the apprehension of 505 fugitive felons; 294 of these arrests made with the direct assistance of VA OIG
agents. Over 9,200 fugitive felons identified in these matches have been referred to the Veterans Benefits
Administration (VBA) for benefit suspension resulting in the identification of $57.1 million in overpayments
and a cost avoidance of over $119 million.

During this reporting period, there were 181 fugitives apprehended as a result of VA OIG agents directly
assisting law enforcement or by sharing our information with law enforcement. There were also 2,671
referrals to VBA for benefit suspension with an identification of overpayments of $10.3 million and an
estimated cost avoidance of $19 million.




                                                     iv
OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $827 Million

Audits and evaluations were focused on operations and performance results to improve service to veterans.
Contract preaward and postaward reviews were conducted to assist contracting officers in price
negotiations and to ensure reasonableness of contract prices. During this reporting period, 91 audits,
evaluations, CAP reviews, and contract preaward and postaward reviews were conducted including one
joint Hotline with OIG Offices of Investigations and Healthcare Inspections.

A follow-up audit of the Department’s WCP found that previous OIG audit recommendations were not fully
implemented to enhance the Department’s case management and fraud detection efforts and to avoid
inappropriate dual benefit payments. As a result, we found opportunities to reduce WCP costs by $696.2
million over the projected lifetime of claimants on the rolls. Also, preaward and postaward contract reviews
identified monetary benefits of about $122.6 million resulting from actual or potential contractor overcharges
to VA. In addition, CAP reviews identified monetary benefits of $8.2 million.

Veterans Health Administration

The Secretary of Veterans Affairs requested that we determine why the Transitional Pharmacy Benefit
program costs and veteran participation were substantially below original estimates. We concluded the
program achieved its primary goal of improving access to VA supplied prescription drugs for many veterans
who were on lengthy waiting lists for their first primary care appointment. However, the number of veterans
eligible for participation and associated costs were significantly less than projected due to changing policies,
advanced appointment dates, and stricter eligibility rules.

Office of Management

We issued eight management letters addressing financial reporting and control issues as part of the annual
consolidated financial statements audit. The management letters provided Department management
additional automated data processing security observations and advice that will enable the Department to
improve accounting operations and internal controls. None of the conditions noted had a material effect on
the FY 2003 consolidated financial statements, but correction of the conditions was considered necessary
for ensuring effective operations.

Multiple Office Action

Our evaluation of VA’s Government purchase card program found that improved controls continue to be
needed to detect fraud and improper uses of purchase cards.




                                                        v
OFFICE OF HEALTHCARE INSPECTIONS

The Office of Healthcare Inspections (OHI) participated with the Offices of Audit and Investigations on 22
CAP reviews of VA medical facilities and reported on specific clinical issues warranting the attention of VA
managers. The OHI inspectors reviewed health care issues and made 81 recommendations and 23
suggestions to improve operations, activities, and the care and services provided to patients.

In responding to Congressional and other special requests and reviewing patient allegations pertaining to
quality of care issues received by the OIG Hotline, OHI completed 10 Hotline cases, reviewed 54 issues,
and made 40 recommendations. These recommendations resulted in managers issuing new and revised
procedures, improving services, improving quality of patient care, and making environmental and safety
improvements. The OHI assisted the Office of Investigations on nine criminal cases that required extensive
review of medical records and quality assurance documents, and monitored the work of VHA’s Office of
the Medical Inspector.

Nurse Staffing

Inspection of nurse staffing in VHA facilities found managers frequently had to use undesirable practices to
provide safe patient care. These practices could have been avoided had VHA developed and
implemented procedures to ensure efficient management of nurse staffing resources through the use of
consistent staffing methodologies, standards, and data systems; monitored the potential impact of nurse
staffing issues on patient care; used effective recruitment and retention strategies; and responded
appropriately to issues that influence registered nurse job satisfaction. We made recommendations to
improve the management of nursing resources, promote high quality patient care, facilitate nursing
recruitment and retention efforts, and enhance nurses’ job satisfaction. We also identified $42.4 million in
costs that could be better used.

Management of Violent Patients

Inspection of VHA’s management of violent patients was conducted to determine the effectiveness of
VHA’s program to identify violent patients and to minimize the risk to employees, patients, and others
visiting VA facilities from threatening and violent patient behaviors. To improve the management of violent
patients, VHA needed to establish interdisciplinary response teams trained in violence management in each
facility, develop a consistent method of identifying and reporting violent incidents, establish interdisciplinary
committees to review and track violent incidents, and implement guidelines for the appropriate use of
automated warning flags and ensure that they are applied consistently throughout the system.

Community Residential Care Program

Inspection of the community residential care program found officials needed to review existing policies and
ensure all aspects of the guidelines are current, ensure home inspections occur as mandated, provide
annual caregiver training, establish a method for monitoring whether VA employees own or operate VA




                                                        vi
approved homes, and issue new guidelines requiring caregiver background clearances and statements of
agreement whenever patients are referred to assisted living facilities not approved by VA.

Quality Management

Our inspection of VHA facility quality management programs found facility managers needed to strengthen
programs through increased attention to the disclosure of adverse events, utilization management, patient
complaints program, and medical record documentation reviews. Facility managers needed to strengthen
designated employees’ data analysis skills and clearly state their expectations to all managers, program
coordinators, and committee chairpersons responsible for monitors that corrective actions must be
evaluated until resolution is achieved.

OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline

Our Hotline provides an opportunity for employees, veterans, and other concerned citizens to report
criminal activity, waste, abuse, and mismanagement. During the reporting period, the Hotline received
10,529 contacts and opened 671 cases. Analysts closed 610 cases, of which 207 (34 percent) contained
substantiated allegations. The monetary impact resulting from these cases totaled almost $1.1 million. The
Hotline staff wrote 102 responses to inquiries received from members of the Senate and House of
Representatives. The closed cases led to 32 administrative sanctions against employees and 118 corrective
actions taken by management to improve VA operations and activities. Examples of some of the issues
addressed by the Hotline include: quality of care, benefits, ethical improprieties, employee misconduct, and
Privacy Act and Health Insurance Portability and Accountability Act issues.

Follow-Up on OIG Reports

The Operational Support Division continually tracks VA staff actions to implement recommendations made
in OIG audits, inspections, and reviews. As of September 30, 2004, there were 54 open OIG reports
containing 366 unimplemented recommendations with over $1.98 billion of actual or potential monetary
benefits. During this reporting period, we closed 131 reports and 648 recommendations, with a monetary
benefit of $915 million, after obtaining information that VA officials had fully implemented corrective actions.

Status of OIG Reports Unimplemented for Over 1 Year

The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management decisions and
implementation of OIG recommendations. It states a Federal agency shall complete final action on each
recommendation in an OIG report within 12 months after the report is finalized. If the agency fails to
complete final action within this period, the OIG will identify the matter in their semiannual report to
Congress. There are five OIG reports issued over 1 year ago (September 30, 2003, and earlier) with




                                                      vii
unimplemented recommendations. Four of these are VHA reports; and one is a VBA report. The OIG is
particularly concerned with one report on VBA operations (issued in July 2000) and one report on VHA
operations (issued March 2002) with recommendations that still remain open. Details about these reports
can be found in Appendix B.




                                                   viii
                                                     VA and OIG Mission, Organization and Resources


VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES

The Department of
Veterans Affairs
Background

In one form or another, American governments
have provided veterans benefits since before the
Revolutionary War. VA’s historic predecessor
agencies demonstrate our Nation’s long
commitment to veterans. The Veterans
Administration was founded in 1930, when Public
Law 71-536 consolidated the Veterans’ Bureau,                              VA Central Office
the Bureau of Pensions, and the National Home                  810 Vermont Avenue, NW, Washington, DC
for Disabled Volunteer Soldiers. The Department
of Veterans Affairs was established on March 15,           Organization
1989, by Public Law 100-527, which elevated
the Veterans Administration, an independent                VA has three Under Secretaries to head the
agency, to Cabinet-level status.                           administrations that serve veterans:
                                                           z Veterans Health Administration (VHA)

Mission                                                       provides health care,
                                                           z Veterans Benefits Administration (VBA)

VA’s motto comes from Abraham Lincoln’s                       provides income and readjustment
second inaugural address, given March 4, 1865,                benefits, and
                                                           z National Cemetery Administration (NCA)
“to care for him who shall have borne the battle
and for his widow and his orphan.” These words                provides interment and memorial services.
are inscribed on large plaques on the front of the
VA Central Office building on Vermont Avenue in            To support these services and benefits, there are

Washington, DC.                                            six Assistant Secretaries:

                                                           z Management (Budget, Finance, and


The Department’s mission is to serve America’s                 Acquisition and Materiel Management),
                                                           z Office of Information and Technology,
veterans and their families with dignity and
                                                           z Policy, Planning, and Emergency
compassion and to be their principal advocate in
ensuring that they receive the care, support, and              Preparedness (Policy, Planning, and
recognition earned in service to our Nation.                   Security and Law Enforcement),




                                                       1
VA and OIG Mission, Organization and Resources

z   Human Resources and Administration                     outpatient clinics (including hospital clinics). In
    (Diversity Management and Equal                        addition, VHA received over $900 million for
    Employment Opportunity, Human                          capital projects and the state extended care grant
    Resources Management, Administration,                  program.
    and Resolution Management),
z   Public and Intergovernmental Affairs, and              Veterans benefits were funded at $32.3 billion in
z   Congressional and Legislative Affairs.                 FY 2004, about 52 percent of VA’s budget.
                                                           Approximately 13,000 VBA employees at 57 VA
In addition to VA’s OIG, other staff offices               regional offices (VAROs) provided benefits to
providing support to the Secretary include the             veterans and their families. Over 2.8 million
Board of Contract Appeals, the Board of                    veterans and their beneficiaries receive
Veterans’Appeals, the Office of General Counsel,           compensation benefits valued at $26.3 billion.
the Office of Small and Disadvantaged Business             Also, $3.3 billion in pension benefits are provided
Utilization, the Center for Minority Veterans, the         to approximately 560,000 veterans and survivors.
Center for Women Veterans, the Office of                   VA life insurance programs insure 7.7 million
Employment Discrimination Complaint                        individuals for a total of almost $757 billion.
Adjudication, and the Office of Regulation Policy          Approximately 350,000 home loans were
and Management.                                            guaranteed in FY 2004, with a value of
                                                           approximately $47 billion.
Resources
                                                           The NCA operates and maintains 120 cemeteries
While most Americans recognize VA as a                     and employed about 1,500 staff in FY 2004.
Government agency, few realize that it is the              Operations of NCA and all of VA’s burial benefits
second largest Federal employer. For FY 2004,              account for approximately $430 million of VA’s
VA had approximately 218,500 employees and a               budget. Interments in VA cemeteries continue to
$62.3 billion budget. There are an estimated               increase each year, with 93,000 burials
25.2 million living veterans. To serve our                 conducted in FY 2004. Approximately 350,000
Nation’s veterans, VA maintains facilities in every        headstones and markers were provided
state, the District of Columbia, the                       worldwide for placement in VA and other Federal
Commonwealth of Puerto Rico, Guam, and the                 cemeteries, state veterans’ cemeteries, and
Philippines.                                               private cemeteries. NCA also administers the
                                                           Presidential Memorial Certificate Program and
Approximately 200,000 of VA’s employees work               the State Cemetery Grants Program.
in VHA. Health care was funded at over
$28.5 billion in FY 2004, approximately 46                 VA Office of Inspector
percent of VA’s budget. VHA provided care to an
average of 56,000 inpatients daily. During FY              General (OIG)
2004, there were almost 54 million episodes of
care for outpatients. VHA operates 158 health              Background
care systems and medical centers, 133 nursing
home units, 206 veterans centers, 42 VA                    VA’s OIG was administratively established on
residential rehabilitation treatment programs              January 1, 1978, to consolidate audits and
(formerly called “domiciliaries”), and 854



                                                      2

                                                      VA and OIG Mission, Organization and Resources

investigations into a cohesive, independent
organization. In October 1978, the Inspector                                                 ALLOCATED
                                                                       OFFICE
General Act (Public Law 95-452) was enacted,                                                    FTE
establishing a statutory Inspector General (IG) in
                                                             Inspector General                         4
VA.
                                                             Counselor                                 4
Role and Authority
                                                             Investigations                         140
The Inspector General Act of 1978 states that the
IG is responsible for: (i) conducting and                    Audit                                  177
supervising audits and investigations;
(ii) recommending policies designed to promote               Management and
                                                                                                      59
economy and efficiency in the administration of,             Administration
and to prevent and detect criminal activity, waste,
                                                             Healthcare Inspections                   48
abuse, and mismanagement in VA programs and
operations; and (iii) keeping the Secretary and
                                                                       TOTAL                        432
the Congress fully informed about problems and
deficiencies in VA programs and operations, and
the need for corrective action.
                                                             In addition, 25 FTE are reimbursed for a
The Inspector General Act Amendments of 1988                 Department contract review function.
provided the IG with a separate appropriation
account and revised and expanded procedures                  The FY 2004 cost of OIG operations was $66.4
for reporting semiannual workload to Congress.               million. Approximately 73 percent of the total
The IG has authority to inquire into all VA                  funding covered salaries and benefits, 4 percent
programs and activities as well as the related               for official travel, and the remaining 23 percent for
activities of persons or parties performing under            all other operating expenses such as contractual
grants, contracts, or other agreements. The                  services, rent, supplies, and equipment.
inquiries may be in the form of audits,
investigations, inspections, or other special                OIG resource allocation, by VA organizational
reviews.                                                     element, during this reporting period, is shown as
                                                             follows.
Organization

OIG has allocated full-time equivalent (FTE)
employees from appropriations as follows.




                                                        3

VA and OIG Mission, Organization and Resources

                    Inf ormat i on                          Proactive work is self-initiated, focusing on areas
                    Technol ogy                             where the OIG staff determines there are
                         3%                                 significant issues.

                                              VBA           OIG Mission Statement
                                              30%
       VHA                                                      The OIG is dedicated to helping VA
       51%                                                      ensure that veterans and their families
                                                                receive the care, support, and recognition
                                     A&MM                       they have earned through service to their
                                      12%                       country. The OIG strives to help VA
                  Management
                                                                achieve its vision of becoming the best-
                      4%
                                                                managed service delivery organization in
                                                                Government. The OIG continues to be
OIG resource allocation applied to mandated,                    responsive to the needs of its customers
reactive, and proactive work is shown below.                    by working with the VA management
                                                                team to identify and address issues that
                                                                are important to them and the veterans
             Mandated
                                          served.
               6%

                                                            In performing its mandated oversight function, the
                                     Reactive
                                                            OIG conducts investigations, audits, and health
                                      41%
                                                            care inspections to promote economy, efficiency,
      Proactive
                                                            and effectiveness in VA activities, and to detect
        53%                                                 and deter criminal activity, waste, abuse, and
                                                            mismanagement. Inherent in every OIG effort are
                                                            the principles of quality management and a desire
                                                            to improve the way VA operates by helping it
                                                            become more customer driven and results
Mandated work is required by statute or                     oriented.
regulation. Examples include our audits of VA’s
consolidated financial statements, oversight of             The OIG will keep the Secretary and the
VHA’s quality management programs and Office                Congress fully and currently informed about
of the Medical Inspector, follow-up activities on           issues affecting VA programs and the
OIG reports, and releases of Freedom of                     opportunities for improvement. In doing so, the
Information Act (FOIA) information.                         staff of the OIG will strive to be leaders and
                                                            innovators, and to perform their duties fairly,
Reactive work is generated in response to                   honestly, and with the highest professional
requests for assistance received from external              integrity.
sources concerning allegations of criminal activity,
waste, abuse, and mismanagement. Most of the
Office of Investigations’ work is reactive.




                                                       4

                                                          Department of Veterans Affairs
                                                           Office of Inspector General


                                                                     Inspector General
                             Executive Assistant                   ---------------------------                    Counselor to the
                                                                                                                 Inspector General
                                                                            Deputy


     Assistant Inspector General           Assistant Inspector General                 Assistant Inspector General              Assistant Inspector General
    Management and Administration                 Investigations                                    Audit                         Healthcare Inspections
           --------------------                  ---------------------                       --------------------                     --------------------
                Deputy                                 Deputy                                     Deputy                                   Deputy


                                                                                      Contract                               Medical Advisor        Program
      Hotline         Operational       Administrative            Criminal            Review                     Audit             to             Administration
                       Support          Investigations         Investigations           and                    Planning        Inspector           and Special
                                                                                     Evaluation                                 General              Projects

      Human            Financial
     Resources            and           Analysis and                                Operational                Financial               Regional Offices




5
    Management       Administrative      Oversight                 Benefits          Support                     Audit                      Atlanta
                       Support                                      Fraud                                                                   Bedford
                                                                                                                                            Chicago
    Information                        Field Offices                                                           Veterans                      Dallas
    Technology                            Chicago                 Computer               IT                     Health                    Los Angeles
     and Data                              Dallas                  Crimes               Audit                    and                      Washington
      Analysis                          Los Angeles                  and                                       Benefits
                                         New York                 Forensics
                                       St. Petersburg
    Field Office                                                                           Operations Divisions
       Austin
                                     Resident Agencies                                   Atlanta       Bedford
                              Atlanta
                                                                  Healthcare
                                               Bedford                                   Chicago       Dallas
                              Cleveland        Columbia             Fraud
                                                                                         Kansas City   Los Angeles
                              Denver           Houston                                   Seattle       Washington
                              Kansas City      Nashville
                              New Orleans      Newark              Fugitive
                              Phoenix          Pittsburgh                                         Sub-Office
                                                                    Felon                           Austin
                              San Diego        San Francisco
                              Seattle          Washington
                                                                   Program
                              West Palm Beach

                                                                   Forensic
                                                                  Document
                                                                  Laboratory
                                                                                                                                                                   VA and OIG Mission, Organization and Resources
VA and OIG Mission, Organization and Resources




                                       Blank Page




                                          6

                                                                         Combined Assessment Program

COMBINED ASSESSMENT PROGRAM


Reports Issued                                               Auditors conduct reviews to ensure management
                                                             controls are in place and operating effectively.
During the period April 1, 2004, through                     Auditors assess key areas of management
September 30, 2004, we issued 29 CAP reports                 concern, which are derived from a concentrated
with monetary savings of $8.2 million. Of the 29             and continuing analysis of VHA, Veterans
CAP reports, we reported on 22 VA health care                Integrated Service Network (VISN), and VAMC
systems (HCS) and VAMCs, and                                 databases and management information. Areas
7 VAROs.                                                     generally covered include procurement practices,
                                                             financial management, accountability for
Combined Assessment Program                                  controlled substances, and information security.
Overview - Medical
                                                             Special agents conduct fraud and integrity
CAP reviews are part of the OIG’s efforts to                 awareness briefings. The purpose of these
ensure that quality health care services are                 briefings is to provide VA employees with insight
provided to our Nation’s veterans. CAP reviews               into the types of fraudulent and other criminal
provide cyclical oversight of HCS and VAMC                   activities that can occur in VA programs and
operations, focusing on the quality, efficiency, and         operations. The briefings include an overview
effectiveness of services provided to veterans by            and case-specific examples of fraud and other
combining the skills and abilities of representatives        criminal activities. Special agents may also
from the OIG Offices of Healthcare Inspections,              investigate certain matters referred to the OIG by
Audit, and Investigations to provide collaborative           VA employees, Members of Congress, veterans,
assessments of VA health care facilities.                    and others.

Health care inspectors conduct proactive reviews             During this period, we issued 22 health care
to evaluate care provided in VA health care                  facility CAP reports. See Appendix A for the full
facilities and assess the procedures for ensuring            titles, report numbers, and dates of the CAP
the appropriateness of patient care and the safety           reports issued this period. These 22 reports
of patients and staff. The facilities are evaluated          relate to the following VA medical facilities:
to determine the extent to which they are
contributing to VHA’s ability to accomplish its              z   VAMC Tuscaloosa, Alabama
mission of providing high quality health care,               z   Carl T. Hayden VAMC, Phoenix, Arizona
improved patient access to care, and high patient            z   North Florida/South Georgia Veterans Health
satisfaction. Their efforts include the use of                   System, Gainesville, Florida
standardized survey instruments.                             z   VA Chicago Health Care System, Illinois
                                                             z   VAMC Togus, Maine
                                                             z   VA Maryland Health Care System, Baltimore,
                                                                 Maryland
                                                             z   VAMC Northampton, Leeds, Massachusetts




                                                        7

Combined Assessment Program

z     VA Ann Arbor Healthcare System, Michigan          Veterans Health Administration Medical
z     VAMC Battle Creek, Michigan                       Facilities October 2002 through September
z     Aleda E. Lutz VAMC, Saginaw, Michigan             2003, and the March 2004 issued OIG report,
z     VA Gulf Coast Health Care System, Biloxi,         Summary Report of Combined Assessment
      Mississippi                                       Program Reviews at Veterans Health
z     Southern Nevada Healthcare System, Las            Administration Medical Facilities
      Vegas, Nevada                                     October 2003 through December 2003. During
z     VAMC Bath, New York                               this reporting period, we identified similar
z     VAMC Northport, New York                          problems at the 22 facilities.
z     VAMC Chillicothe, Ohio
z     VAMC Portland, Oregon                             Quality Management
z     VAMC Erie, Pennsylvania
z     William Jennings Bryan Dorn VAMC,                 z   VHA program officials issued clarifications
      Columbia, South Carolina                          and initiated corrective actions that addressed
z     VAMC Memphis, Tennessee                           most of the recommendations made in our
z     Amarillo VA Medical Care System, Texas            previous CAP reports. We noted improvement in
z     El Paso VA Health Care System, Texas              facility compliance (94 percent) with holding
z     VAMC Beckley, West Virginia                       disclosure discussions with patients who had been
                                                        injured by adverse events, such as significant
                                                        medication errors. This result represents a
    "The outcomes of this review will assist            substantial improvement over previous findings.
    the medical center in establishing                  We also noted improvement in patient complaints
    improvement priorities that will certainly          management.
    enhance the quality of health care being
    provided to our Nation’s veterans. The              z    The results of our FY 2004 CAP reviews
    Medical Center employees shared many                found facility managers could improve their
    positive comments with me regarding the             utilization management programs. Our reviews
    team’s overall display of knowledge and             showed managers were uncertain of VHA’s
    the professional manner in which they               expectations for conducting utilization
    conducted themselves. Thank you and                 management reviews. We found most facility
    your team for making the review process a           managers consistently reviewed acute care
    very positive and meaningful experience."           admissions and the reasons for continued stay
                      Director, VAMC Memphis            days against established criteria (e.g., severity of
                                                        illnesses and intensity of service). However, we
                                                        found that 6 of 17 facilities did not meet
                                                        established goals for appropriate admissions, and
Summary of Findings                                     9 of 17 facilities did not meet goals for continued
                                                        stay days.
Deficiencies identified during prior CAP reviews
relating to management of veterans health care          z  Our reviews also showed improvement is still
programs were discussed in the December 2003            needed in data management across many areas,
issued OIG report, Summary Report of                    such as aggregated patient safety, outcomes of
Combined Assessment Program Reviews at



                                                   8

                                                                              Combined Assessment Program

resuscitation, and staffing effectiveness. Facility              were identified at 13 of 15 facilities where we
managers did not consistently benchmark their                    tested these issues. Controls needed to be
results, identify specific corrective actions, define            strengthened to ensure that: (i) Acquisition and
evaluation criteria, or implement and evaluate                   Materiel Management Service staff follow
corrective actions. We found some significant                    preaward and postaward contract policies and
quality management actions did not succeed                       procedures, (ii) contract provisions include
because existing tracking systems did not assure                 procedures to help ensure contract compliance,
full implementation.                                             (iii) contracting officials properly monitor contract
                                                                 performance and payment for services, and
z    Senior facility managers needed to continue                 (iv) contract files include all required
efforts to increase their visibility by visiting clinical        documentation.
areas more frequently. While most facility
managers stated they visited clinical areas of their             z    Management of medical supply inventory was
facilities at least monthly, others expressed regret             deficient at 15 of 18 facilities and nonmedical
that network and national demands limited their                  inventory management was deficient at 13 of 15
ability to visit patient care areas more frequently.             facilities where we tested these issues. We found
                                                                 that supply inventories were either not performed
Procurement                                                      or inaccurate, and inventory levels exceeded
                                                                 current requirements resulting in funds being tied
The OIG identified the need to improve VA                        up unnecessarily in excess inventories. The
procurement practices as one of the                              Generic Inventory Package database needed to
Department’s most serious management                             be implemented in accordance with VA policy to
challenges. We continue to identify control                      improve supply inventory management, and
weaknesses in this area during CAP reviews.                      periodic physical inventory counts performed to
Controls need to be strengthened to:                             verify actual quantities on hand. Also,
(i) effectively administer the Government                        management of equipment inventories was
purchase card program; (ii) improve service                      deficient at 7 of 8 facilities where we tested these
contract controls, contract award actions, and                   issues.
contract administration; and (iii) strengthen
inventory management.                                            Information Technology

z   Government purchase card controls were                       A wide range of automated information
deficient at 9 of 19 facilities where we tested                  system vulnerabilities were identified that
these issues. Policies and procedures governing                  could lead to misuse or destruction of critical
the administration of the purchase card program,                 sensitive information. VA had established
segregation of duties, timeliness of payments, use               comprehensive information security policies,
of purchase cards, purchasing limits, and                        procedures, and guidelines; however, CAP
accounting for purchases.                                        reviews found that facility policy development,
                                                                 implementation, and compliance were
z   Service contract controls were deficient at all              inconsistent. In addition, there was a need to
7 facilities where we tested these issues.                       improve access controls, contingency
Contract award and administration deficiencies                   planning, incident reporting, and security
                                                                 training.



                                                            9

Combined Assessment Program

We found inadequate management oversight                   controlled substances were not reported to the
contributed to inefficient practices, and to               OIG Office of Investigations. The lack of
inadequate information security and physical               management oversight at facility and VISN levels
security of assets. CAP findings complement                contributed to inefficient practices and to
the results of our FY 2003 Federal                         weaknesses in drug accountability.
Information Security Management Act audit,
which identified information security                      Medical Care Collections Fund
vulnerabilities that place the Department at
risk of: (i) disruption and denial of service              z   VA health care facilities continue to increase
attacks on mission critical systems,                       Medical Care Collection Fund collections.
(ii) unauthorized access to and improper                   However, we found deficiencies at 11 of 17
disclosure of data subject to Privacy Act                  facilities where we tested these issues. Facility
protection and sensitive financial data, and               management needs to strengthen billing
(iii) fraudulent receipt of health care benefits.          procedures to avoid missed billing opportunities,
                                                           improve timeliness of billings, and improve
z     Information technology (IT) security                 accuracy of diagnostic and procedure coding.
deficiencies were found at 15 of 22 facilities. We         Also, facilities need to adequately document
found that: (i) security plans were not prepared           services provided to patients in their medical
or not kept current and lacked key elements,               records to justify billings.
(ii) review of access to automated information
systems was not performed quarterly, (iii) access          Pharmacy Security
to VHA’s Veterans Health Information Systems
and Technology Architecture was not effectively            z   VA health care facilities need to improve
monitored, (iv) background investigations were             physical security in pharmacy areas to meet VA
not conducted on contract personnel working in             standards. We found physical security
sensitive areas, and (v) annual security awareness         deficiencies in pharmacy areas at 5 of 11 facilities
training was not conducted.                                where we tested these issues.

Controlled Substances                                      Part-Time Physician Time and Attendance

z   VA has established policies, procedures, and           z   VA health care management did not have
guidelines for accountability of controlled                effective controls in place to ensure that part-time
substances and other drugs. However, controlled            physicians were on duty when required by
substance inspection procedures had some                   employment agreements at 6 of 13 facilities
deviation from VHA policies at 17 of 21 facilities         where we tested these issues. One of the
where we tested these issues. Unannounced                  facilities did not have written part-time physician
inspections and inventories were not properly              time and attendance agreements. Physicians did
conducted, unusable drugs were not disposed of             not complete appropriate time and attendance
timely or properly, and discrepancies between              records, and timecards were not posted based
inventory results and recorded balances were not           on the timekeepers’ actual knowledge of
reconciled in a timely manner. Also, suspected             physicians’ attendance. Additionally, timekeepers
thefts, diversions, or suspicious losses of




                                                     10

                                                                         Combined Assessment Program

did not receive annual refresher training, and desk         improvement in 7 of 9 facilities. Employees had
audits were not conducted, as required by VA                not completed required training, including
policy.                                                     cardiopulmonary resuscitation in 3 of 7 facilities,
                                                            and one physician did not have clinical privileges
Financial Controls                                          to perform moderate sedation. Clinicians needed
                                                            to complete patient physical assessments prior to
z   Controls over the agent cashier function                procedures in 4 of 7 facilities. Adverse event
needed improvement at 3 of 6 facilities where we            reporting processes and patient monitoring
tested these issues. Unannounced audits were                needed strengthening in 2 of 7 facilities to improve
not conducted timely, cash counts of cashiers’              patient safety.
cash boxes were not conducted, and separation
of duties was not maintained.                               Bulk Oxygen Utility System

z   Controls over accounts receivable needed                z    Controls over bulk oxygen utility systems
improvement at 4 of 12 facilities where we tested           needed improvement at 3 VHA sites tested. On
these issues. Fiscal Service needed to                      April 5, 2004, VHA issued a patient safety alert
aggressively pursue accounts receivable for                 to all VISNs addressing the oxygen utility system
collection, timely record accounts receivable               failures at two VAMCs. The patient safety alert
actions, reconcile accounts receivable with                 directed VISN managers to initiate appropriate
individual accounts monthly, and follow up on               actions to ensure their medical centers’ oxygen
decisions regarding requests of waivers for                 utility systems were secure and in compliance with
suspended employees’ accounts receivable.                   the National Acquisition Center oxygen contract
                                                            requirements. These actions were to be
z   Personal funds of patients’ accounts controls           completed by April 30, 2004. We found that 2 of
needed improvement at 3 of 5 facilities where we            3 facilities had not developed plans to supervise
tested these issues. At one site, staff did not             bulk oxygen delivery, and 2 of 3 facilities had not
maintain documentation to support that                      forwarded a copy of the mutual agreement
disbursement of deceased patient funds were                 developed between the facility contracting
made to the proper beneficiaries or that patient            officer’s technical representative and the local
beneficiaries had been properly notified of the             vendor to the center as required.
disbursement. At another site, patient
competency status was not documented to allow               Conflict of Interest Acknowledgment
clerks to determine if a patient’s account was
restricted or unrestricted.                                 z   VA health care facility management needed to
                                                            improve controls at 2 of 5 facilities visited to
Moderate Sedation                                           ensure that physicians, clinicians, and allied health
                                                            supervisors or managers sign copies of the
z   We reviewed local policies, employee training           conflict of interest acknowledgment form in
records, practitioner clinical privileges, patient          accordance with VA policy.
medical records, and inspected areas where
moderate sedation was provided outside of the
operating room. We identified opportunities for




                                                      11

Combined Assessment Program

Survey Results                                              z   Only 71 percent of the outpatients told us
                                                            they were generally able to schedule
Outpatient Surveys                                          appointments with their primary care providers
                                                            within 7 days of their request, and only 68
We surveyed 452 VA outpatients at 19                        percent of the outpatients who were referred to a
facilities to ascertain their satisfaction with             specialist told us they were given appointments
the care. We interviewed patients in primary                and were assessed by the specialist within 30
care, mental health, and specialty care clinics.            days of the referrals.
We also surveyed outpatients who were in
waiting areas of the various supportive                     z   Seventy-four percent of the outpatients stated
services such as pharmacy, radiology, and                   they received counseling by the pharmacist when
laboratory.                                                 they received new prescriptions and 85 percent
                                                            said they received their refills in the mail before
z   Overall, 92 percent of the outpatients rated            they ran out of their medications. Only 60
the quality of care as good, very good, or                  percent of the outpatients told us they received
excellent. Ninety-three percent of the                      their prescriptions from the outpatient pharmacy
respondents stated that they would recommend                within 30 minutes.
medical care to eligible family members or friends,
and 91 percent told us their treatment needs were           Physical Plant Environment
being addressed to their satisfaction.
                                                            We conducted environment of care inspections
z   Eighty-nine percent of the outpatients told us          in 20 facilities evaluating primary care and
they felt involved in decisions about their care, 82        specialty outpatient clinics, inpatient wards,
percent told us a health care provider discussed            emergency rooms, intensive care/coronary care
the results of tests and procedures with them, 96           units, nursing home care units, domiciliary
percent told us their primary care provider                 units, psychiatry units, surgery, rehabilitation
discussed the reasons for medications with them,            areas, and some kitchens and canteens.
88 percent were told the reasons for referrals to
specialist, and 94 percent were told why                    z   Overall, we found most facilities were
diagnostic tests were ordered.                              generally clean and well maintained with minor
                                                            issues management corrected immediately during
                                                            our inspections. Seven facilities received
                                                            recommendations for safety, infection control, or
                                                            cleanliness violations. Safety issues were
                                                            identified as the predominant environmental issue.
                                                            A trend was noted regarding unsecured items
                                                            such as medications, chemicals, and supplies.
                                                            Management also needed to address damaged
                                                            handrails, suicide risk prevention in locked mental
                                                            health units, emergency evacuation procedures,
                                                            and patient privacy and confidentiality. Most
                                                            cleanliness issues had to do with general
          Tuscaloosa VA Medical Center
                Tuscaloosa, AL                              housekeeping and maintenance.



                                                       12
                                                                        Combined Assessment Program

Employee Surveys                                            We noted the following deficiencies that were
                                                            common to many of the facilities:
Employee feedback was obtained from
responses to a Web-based survey we                          z   Forty-nine percent of the responding
implemented at 21 CAP reviews. All                          employees believed that they had not been
employees of each facility were notified by                 offered opportunities for career advancement.
e-mail about the survey and were provided
with the Web address. We received 2,803                     z   More than 32 percent of respondents
responses. Since we began performing CAP                    asserted work orders for needed repairs were
reviews, we have systematically elicited                    not addressed promptly at their facilities.
employees’ perceptions on a wide range of
issues. We believe the resulting data can                   z    Only 44 percent of responding employees felt
provide an independent, objective indicator of              staffing levels were usually sufficient to provide
employee satisfaction for facility management               safe patient care.
to use in decision-making. VHA aspires to be
the employer of choice. In 1997, VA                         Combined Assessment Program
administered the "One VA" survey, but did not               Overview - Benefits
follow-up with annual surveys. In the absence
of this source of employee feedback, we                     During this period, we issued seven CAP reports
provided facility management with survey                    on the delivery of benefits. See Appendix A for
results obtained during CAP reviews.                        the exact titles, report numbers, and dates of the
                                                            CAP reports issued. These seven reports relate
z   Seventy-nine percent of the employees who               to the following benefit facilities:
responded felt quality patient care was the first
priority at their medical center. Eighty-three              z   VARO Detroit, Michigan
percent of the respondents believed that the                z   VARO Jackson, Mississippi
quality of care provided to patients at their               z   VARO Lincoln, Nebraska
respective facilities was either good or excellent.         z   VARO Albuquerque, New Mexico
Over 83 percent of the employees who                        z   VARO Winston-Salem, North Carolina
responded felt that their medical center was clean,         z   VARO Salt Lake City, Utah
and 70 percent of them asserted that they would             z   VARO Seattle, Washington
recommend their facility to an eligible family
member or friend.
                                                            Summary of Findings
z   More than 83 percent of the respondents
believed that they received proper orientation,             Deficiencies identified during prior CAP reviews
education, and training to do their jobs. In                in the management of veterans benefits programs
addition, 62 percent of these employees felt                were discussed in the January 2004 issued OIG
management provided them opportunities to fulfill           report, Summary Report of Combined
their continuing education needs or requirements.           Assessment Program Reviews at Veterans
Seventy-seven percent of the employees who                  Benefits Administration Regional Offices
responded asserted that adequate supplies were              October 2002 through September 2003.
available for them to do their jobs.                        During this reporting period, we identified similar
                                                            problems at all seven facilities.


                                                      13

Combined Assessment Program

Compensation and Pension Claims                             Sensitive Records Security
Processing
                                                            z    Physical security controls over sensitive
z    Compensation and pension benefits for                  records needed improvement at 4 of 7 facilities.
veterans hospitalized for extended periods of time          Semiannual reviews of hardcopy and electronic
at Government expense were not reduced as                   file security were not performed as required,
required at each of the seven facilities. Veterans          access to file cabinets containing employee-
Service Centers did not always identify                     veteran claims folders and other sensitive records
hospitalized veterans whose benefits required               were not properly controlled, sensitive files were
adjusting. Management should ensure that                    not secured in locked files, claims folders were
payments to certain veterans be reduced as                  not maintained at the designated regional offices
appropriate, consult with medical center staff to           of jurisdiction, and sensitive electronic records
improve compliance with requirements for                    were not secured through the common security
notification when veterans are hospitalized for             user manager application. Inadequate controls
extended periods, and provide refresher claims              increase the risk of employee-veteran alteration
processing training for Veteran Service Center              of compensation and pension benefits,
staff.                                                      unauthorized access to private information, and
                                                            may create the appearance of staff bias towards
Information Technology                                      processing employee claims. Management needs
                                                            to ensure that required sensitive records reviews
z   IT security was deficient at 3 of 7 facilities.         are conducted and documented, sensitive
The CAP review coverage of VBA facilities in FY             records are transferred and maintained at the
2004 identified a wide range of vulnerabilities in          designated office of jurisdiction, sensitive records
VBA systems similar to those we identified during           are secured in locked files, and electronic
VHA CAP reviews. These deficiencies could                   records are secured through the common security
lead to misuse or loss of sensitive automated               user manager.
information and data. The CAP review findings
show a need to improve access controls and                  Other VBA Programs
contingency planning.
                                                            z   VBA’s processing and timeliness over
                                                            vocational rehabilitation and employment claims
                                                            continues to need improvement. Data entry,
                                                            claims processing, and case monitoring errors
                                                            were noted at all seven facilities. Management
                                                            needs to ensure that processing of claims for
                                                            vocational rehabilitation benefits is timely, data is
                                                            entered accurately, and claims status is
                                                            monitored. Appropriate actions are needed to
                                                            promptly place veterans who are not pursuing
                                                            their approved training programs in the
                                                            discontinued status, or if veterans have
                VA Regional Office                          completed the program, place them in a
                  Jackson, MS                               rehabilitated status.



                                                      14

                                                          Combined Assessment Program

z    We found that improvements at 4 of 7
facilities were needed in fiduciary and field
examination controls and procedures. Fiduciary
and field examination accountings were not
always submitted timely or accurately.
Management needed to improve the oversight of
incompetent veterans by ensuring accountings and
field examinations were conducted timely,
accurately documented, and that appropriate
corrective actions were taken.

z    Government purchase card program
deficiencies existed at 3 of 7 facilities.
Reconciliations and certifications were not
performed timely, single purchase limits were not
enforced, and purchase card actions lacked
adequate separation of duties. Management
needed to ensure that dates of monthly purchase
card reconciliations and certifications were
recorded, unwarranted cardholders did not
exceed their $2,500 micro-purchase limit, and
separation of duties were enforced or explain why
the facility can not meet the requirement and
document the reasoning for their modified policy
on separation of duties.

z    Benefits delivery network system-generated
messages were not processed timely or properly
at 2 of 6 facilities where we tested the system.
This resulted in our identification of both
overpayments and underpayments of veterans’
benefits.




                                                    15

Combined Assessment Program




                              Blank Page




                                16
                                                                                  Office of Investigations


OFFICE OF INVESTIGATIONS


Mission Statement                                          I. CRIMINAL
    Conduct investigations of criminal                     INVESTIGATIONS
    activities and administrative matters                  DIVISION
    relating to the programs and operations
    of VA in an independent and objective
                                                           This Division is primarily responsible for
    manner and seek prosecution,
                                                           conducting investigations into allegations of
    administrative action, and/or monetary
                                                           criminal activities related to the programs and
    recoveries in promoting integrity,
                                                           operations of VA. Criminal violations are referred
    efficiency, and accountability within the
                                                           to the Department of Justice or state and local
    Department.
                                                           officials for prosecution. The Division is also
                                                           responsible for operation of both the Questioned
Resources                                                  Document Forensic Laboratory and the
                                                           Computer Crimes Forensic Laboratory.
Overall, the Office of Investigations has 140 FTE
allocated to its three divisions: Criminal                 Resources
Investigations Division, Administrative
Investigations Division, the Analysis and Oversight        The Criminal Investigations Division has 124 FTE
Division, and senior management. The following             allocated for its headquarters and 22 field
chart shows the allocation of resources.                   locations. These individuals are deployed in the
                                                           following VA program areas.

                                   Administrative
                                   Investigations
                                                                                           VHA
                                        5%
                                                                                           34%

                                   Analysis
                                     5%                                                       A&MM
             Criminal                                                                          6%
          Investigations                                            VBA
                                                                                            E. Crimes
              90%                                                   59%
                                                                                               1%




                                                      17
Office of Investigations

Overall Performance                                         activities by employees and contractors, false
                                                            billings, and inferior products. Working
Output                                                      closely with VA police, the Division has placed
                                                            an increased emphasis on crimes occurring at
z   468 investigations were concluded during the            VA facilities throughout the nation to help
reporting period.                                           ensure safety and security for those working in
                                                            or visiting VAMCs. During this semiannual
Outcomes                                                    period, OIG special agents have participated
                                                            in, or provided support, to VA police in the
z   Arrests – 356                                           arrest of 43 individuals who committed crimes
z Indictments – 236                                         on VHA properties.
z Convictions – 174
z Pretrial Diversions – 13                                  Drug Diversion
z Fugitive Felon Apprehensions – 181*
z Administrative Sanctions – 216
                                                            z   An individual was sentenced to 12 months’
z Monetary benefits – $301.9 million ($250.2
                                                            imprisonment after pleading guilty to charges of
million – fines, penalties, restitutions, and civil         theft of Government property. A joint VA OIG,
judgments; $19.8 million – efficiencies/funds put           FBI, and VA police investigation revealed the
to better use; $2.6 million – recoveries; and               individual entered a VAMC pharmacy under the
$29.3 million – overpayments and cost avoidance             pretext of a student conducting research and stole
created by VBA related to fugitive felon match)             298 oxycodone tablets and 83 morphine sulfate
                                                            tablets from a controlled narcotics cage inside the
  * This includes the apprehension of 99 fugitive           pharmacy. Additionally, the individual took a
felons by VA OIG, and 82 apprehensions made                 bottle of methaldolpa from the general area in the
by other law enforcement entities as a result of            pharmacy.
information provided by the VA OIG fugitive felon
program.                                                    Distribution of Controlled
Customer Satisfaction                                       Substances

Customer satisfaction during this reporting period          z   AVA nurse was indicted for distributing
was 4.9 on a scale of 5.0.                                  fentanyl, a controlled substance, after an
                                                            investigation determined the nurse provided this
                                                            synthetic form of morphine to a co-worker who
Veterans Health                                             subsequently died due to a lethal dose of the
Administration                                              drug. The nurse confessed to providing the
                                                            fentanyl to her co-worker the day prior to his
The Criminal Investigations Division                        death. She also admitted to tampering with
investigates those instances of criminal                    evidence at the crime scene.
activity against VHA that have the greatest
impact and deterrent value, including crimes                z   A defendant was sentenced to14 years’
such as patient abuse, theft of Government                  imprisonment after pleading guilty to aiding and
property, drug diversion, bribery/kickback                  abetting the distribution of cocaine base within
                                                            1,000 feet of a playground. A second defendant


                                                      18

                                                                                      Office of Investigations

was also sentenced to 30 years’ imprisonment for             and negotiating blank personal checks belonging
conspiracy to distribute controlled substances in            to former VAMC nursing home patients.
excess of 50 grams, possession with intent to
distribute cocaine base, and possessing the drug             z   A VA nurse’s aide and her boyfriend were
within 1,000 feet of a playground. These two                 arraigned for stealing the credit card of a VAMC
defendants were part of a group of 17 individuals,           inpatient and fraudulently using the card. The
including VAMC workers and patients,                         investigation disclosed that after the fraudulent
investigated by the VA OIG, the Drug                         use, the nurse’s aide returned the credit card to
Enforcement Administration, and a local drug task            the patient’s room in an attempt to go undetected.
force.                                                       This was a joint investigation by VA OIG and VA
                                                             police.
z   The VA OIG and VA police arrested a VA
employee for the distribution of a controlled                z   Criminal charges were filed against a former
substance at a VAMC. The housekeeping aide                   VA nurse charging her with theft for stealing credit
was caught selling two grams of cocaine to                   cards belonging to three patients at a VAMC. A
another VA employee and later confessed to                   VA OIG investigation determined the nurse used
distributing cocaine and marijuana to several VA             the stolen credit cards to make purchases at local
employees in exchange for cash and OxyContin.                businesses.

Health Care Fraud                                            Environmental Violations/
                                                             Employee Misconduct
z    A former employee of a VAMC was
sentenced to 30 months’ imprisonment, 5 years’               z   Four VA employees, two contractor
probation, and ordered to pay $718,000 in                    employees, and two contractor companies were
restitution stemming from convictions of the                 charged with four felony counts of violating state
former employee and her daughter on charges of               environmental protection laws. The subjects
conspiracy, theft in connection with health care,            were charged with the unlawful disposal of
mail fraud, and wire fraud. A joint investigation            hazardous waste, the deposit of a hazardous
with the FBI revealed that, from July 2002 until             substance, and the discharge of a pollutant. An
September 2003, the pair stole and negotiated                investigation determined there had been
$718,000 in medical reimbursement checks                     mishandling of copper sulfate, a Federal and state
received by the medical center where the mother              regulated hazardous substance, which was a
was employed. Additionally, the daughter, who                generated by-product of water treatment at a
had previously been sentenced, defrauded a bank              VAMC.
of $69,500.
                                                             Procurement Fraud/Bribery
Employee Theft
                                                             z   A plumbing supervisor employed at a VAMC
z   A former VAMC nursing assistant was                      was sentenced to 27 months’ incarceration,
sentenced to 30 days’ imprisonment, 3 months’                followed by 3 years’ supervised release, and
home detention, 5 years’ probation, and ordered              ordered to pay $79,711 in restitution after
to pay $12,000 in restitution for stealing, forging,         pleading guilty to charges of bribery and




                                                       19

Office of Investigations

conspiracy. A former VA contractor was also               with VA to provide community-based residential
sentenced to 3 years’ probation. An investigation         care, treatment, and rehabilitative services for
revealed the employee and a plumbing supervisor           homeless veterans. However, veterans were
at a VAMC engaged in a scheme to inflate and              frequently not fed while the pair diverted funds for
falsify purchase orders for emergency and routine         their own uses. The chaplain’s co-conspirator has
plumbing repairs. The employee, aided by the              also been indicted.
contractor, overcharged the VAMC more than
$80,000 during a 3-year period.                           z   A VA contractor’s consultant was sentenced
                                                          to 5 years’ probation for his role in frauds he and
z    The corporate president of a former VA               his VA contractor co-conspirator committed while
general contracting company, as well as the               operating the VA contractor’s business. The court
company itself, were indicted for conspiracy,             also ordered the consultant to begin paying the
false statements, and false claims after an               $500,000 fine that was part of his plea
investigation disclosed that foreign steel was            agreement. The consultant and his co-conspirator
supplied to the VA general contractor in violation        were 2 of 3 people convicted in this investigation
of the “Buy American” requirement of all Federal          involving a conspiracy to defraud bonding
construction contracts. The true source of the            companies, financial institutions, and numerous
steel was concealed from VA and used in an                contract owners, including Federal and municipal
expansion project at a VAMC. The corporation,             agencies, by defaulting on multiple contracts.
through the president, pled guilty and is pending
sentence. The owner of a steel fabrication                Embezzlement
business used by this general contractor entered
a guilty plea and is pending sentence after               z   An individual was sentenced to serve 9 years’
admitting her role in the criminal conspiracy.            imprisonment after pleading guilty to one count
                                                          each of theft and computer fraud. An investigation
z   Following an indictment on charges of                 revealed the individual was previously employed
procurement fraud, a recently retired senior VA           by a university medical center, which was affiliated
chaplain was placed on pre-trial diversion and            with a VAMC and a consortium of other local
ordered to pay $20,000 in restitution. A VA               health care facilities. Over a 7-year period, the
OIG investigation revealed the chaplain and a co-         individual embezzled $931,497 from consortium
conspirator entered into a contractual agreement          members, including the VAMC.

Chicago Sun-Times, Chicago, IL                                                          Tuesday, May 4, 2004




                                                     20
                                                                                      Office of Investigations

Extortion                                                     $50,000 of health care benefits using the other
                                                              veteran’s identity. While an inpatient at the VA
z   In a joint investigation conducted by VA OIG              hospital, the subject fraudulently applied for and
and the FBI, the director of a consolidated mail              received VA pension benefits subsequent to his
out pharmacy (CMOP) and a Government                          release from the hospital. A public guardian for
contractor who worked at the CMOP were                        the legitimate veteran discovered the scheme and
arrested. The two men were charged with                       reported it to local law enforcement.
soliciting a bribe in a scheme to extort money
from an employee-leasing company with a                       Threats
contract to supply workers to the CMOP.
                                                              z   A veteran was arrested based on charges of
Possession of Child                                           making criminal threats. The veteran became
Pornography                                                   enraged during a medical appointment at a
                                                              VAMC and threatened to kill the doctor and
z    A former VA employee was sentenced to 60                 other staff who were present. The veteran further
months in jail after he was found guilty on two               threatened to return to the VAMC to kill
counts of possession of child pornography. A VA               everyone. The veteran was incarcerated on
OIG investigation revealed that the employee                  unrelated armed robbery charges at the time of
accessed child pornography sites while working                the arrest. The veteran has a violent criminal
at a VAMC.                                                    history, including sex offenses against children.

Identity Theft                                                z   A veteran, previously charged with making a
                                                              false bomb report, was sentenced to 30 days’
                                                              incarceration, 30 days’ home confinement,
z   After pleading guilty to illegal possession of an
                                                              ordered to serve 30 days’ community service,
identification document with intent to defraud the
                                                              2 years’ probation, and to attend anger
Government, an individual was sentenced to
                                                              management classes. After receiving a report
12 months’ imprisonment, 12 months’ supervised
                                                              from local police that an individual called 911 and
probation, and ordered to pay $13,410 in
                                                              made a bomb threat naming the VAMC as the
restitution. Dating back to 1998, the defendant
                                                              target, a VA OIG investigation was initiated and
had used a veteran’s identity in several criminal
                                                              identified the veteran as the caller.
schemes, which included obtaining treatment at
various VAMCs.
                                                              Veterans Benefits
z   A dishonorably discharged veteran, who
assumed the identity of another veteran, was
                                                              Administration
sentenced to 21 months’ imprisonment,
36 months’ probation, and ordered to pay                      VBA provides wide-reaching benefits to
$92,852 in restitution after pleading guilty to mail          veterans and their dependents, including
fraud charges. A joint investigation by the VA                compensation and pension payments, home
OIG, U.S. Postal Inspection Service, and a local              loan guaranty services, and educational
police department disclosed that the subject was              opportunities. Each of these benefits
admitted to a VA hospital and obtained over                   programs is subject to fraud by those who




                                                        21

Office of Investigations

wish to take advantage of the system. For                 Death Match Project
example, individuals submit false claims for
service-connected disability, third parties steal         z   The Office of Investigations is conducting an
pension payments issued after the unreported              ongoing proactive project in coordination with the
death of the veteran, individuals provide false           VA OIG Information Technology and Data
information so that veterans qualify for VA               Analysis Division. The death match project is
guaranteed property loans, equity skimmers                being conducted to identify individuals who may
dupe veterans out of their homes, and                     be defrauding VA by receiving VA benefits
educational benefits are obtained under false             intended for veterans who have died. When
representations. The Office of Investigations             indicators of fraud are discovered, the matching
spends considerable resources in investigating            results are transmitted to VA OIG investigative
and arresting those who defraud operations of             field offices for appropriate action. To date, the
VBA.                                                      match has identified in excess of 8,700 possible
                                                          investigative leads. Over 5,800 leads have been
               Daily Southtown                            reviewed, resulting in the development of 775
                Tinley Park, IL
                                                          criminal and administrative cases. Investigations
            Wednesday, July 14, 2004
                                                          have resulted in the actual recovery of $11.7
                                                          million, with an additional $7.8 million in
                                                          anticipated recoveries. The 5-year projected
                                                          cost avoidance to VA is estimated at $27.6
                                                          million. To date, there have been 109 arrests in
                                                          these cases with several additional cases awaiting
                                                          judicial actions.

                                                          Bank Fraud

                                                          z   The great-granddaughter of a deceased VA
                                                          dependency and indemnity compensation (DIC)
                                                          recipient pled guilty to an indictment charging her
                                                          with one count of wire fraud. A VA OIG
                                                          investigation using information developed by the
                                                          death match project revealed that, over a period
                                                          of 5 years, the defendant used $64,000 in VA
                                                          funds intended for her great-grandmother for her
                                                          personal benefit.

                                                          z   A husband and wife were arrested on charges
                                                          stemming from a VA OIG investigation involving
                                                          theft of DIC benefits. The husband and wife,
                                                          who were caretakers for a DIC beneficiary prior
                                                          to her death in June 1992, continued to use the
                                                          deceased beneficiary’s DIC benefits for personal
                                                          gain. The loss to VA was $146,247.


                                                    22

                                                                                     Office of Investigations

z   The nephew of a deceased VA beneficiary                  beneficiary died in November 1993 and the son
was sentenced to 12 months’ imprisonment,                    subsequently converted the VA benefits to his
followed by 36 months’ probation, and ordered                own use. The loss to VA was $106,479.
to pay $142,532 in restitution after pleading guilty
to wire fraud. A joint investigation by VA OIG               Equity Skimming
and the SSA OIG disclosed the nephew
continued to receive his deceased aunt’s VA DIC              z   After being convicted of mail fraud and equity
benefit checks by mail along with her SSA benefit            skimming in connection with real estate scams, a
checks. The nephew later changed the VA and                  subject was sentenced to 18 months’
SSA benefits to direct deposit into his deceased             imprisonment, followed by 5 years’ supervised
aunt’s account, to which he had access. The loss             release. He was also ordered to pay restitution of
to VA was $101,063.                                          $351,102, a fine of $20,000, and court costs.

z    After pleading guilty to a two-count                    Fiduciary Fraud
indictment charging false claims and making
materially false representations, a veteran was              z   A court appointed guardian was indicted on
sentenced to 37 months in prison and ordered to              multiple counts of misapplication of fiduciary
pay restitution to VA. A VA OIG investigation                funds. A joint investigation with a state law
revealed the veteran had fraudulently collected              enforcement agency disclosed that from 1999 to
compensation benefits since 1991, claiming he                2003, the guardian, acting as a court appointed
could not walk without the use of braces,                    financial guardian for his veteran father,
crutches, or a wheelchair. Because of the nature             misappropriated $116,000 from his father’s
of the veteran’s disability, he also received                estate. These funds included both Social
compensation for special adaptive housing and                Security and VA disability payments.
assistance in purchasing an automobile.
Investigation disclosed he could walk without the            z   A paralegal, employed by an attorney who
aid of assisting devices. The loss to the VA was             was a conservator for 10 veterans, pled guilty to
$384,934.                                                    embezzlement of $103,534. The subject began
                                                             embezzling the money in 2002 by writing checks
z   A veteran was sentenced to two counts of                 from the veterans’ accounts, and in many cases
wire fraud after he falsely claimed and received             forging their signatures, cashing the checks, and
benefits for 10 children, when, in reality, he only          taking the money for his personal use. In keeping
had one eligible dependent. The VA loss was                  with the conservator’s responsibilities, the
$17,454. In addition, the veteran defrauded                  attorney made the veterans’ accounts whole,
numerous September 11 charities for almost                   resulting in an administrative recovery of
$104,000 and tried to receive an additional                  $103,534.
$76,000, claiming his wife had been killed at the
World Trade Center. The veteran was sentenced                Identity Theft
to 41 months’ confinement and ordered to pay
$136,000 in restitution.                                     z   An individual was arrested after an
                                                             investigation revealed he had allegedly used a
z   The son of a deceased widow pled guilty to
                                                             deceased veteran’s DD Form 214 and other
one count of theft of Government funds. The
                                                             documents in order to assume the identity of the



                                                       23

Office of Investigations

deceased veteran for the purpose of fraudulently            involving these benefits while owning and
filing for VA benefits. In addition, the individual         operating a counseling service that contracted
allegedly altered the same DD Form 214 with his             with various state and local Government agencies
own name so that he could receive VA benefits               for the last 9 years. A separate administrative
even though he never served in the armed forces.            action against the defendant by the Department of
At the time of his arrest, the individual was               Labor resulted in a recovery order of $174,875.
receiving pension benefits under the name of the
deceased veteran and his own. The loss to VA                Theft and Forgery of VA Benefit
was $112,000.                                               Checks
z   The brother of a veteran pled guilty to four            z    A subject was arrested and charged with
counts of mail fraud. The subject used the                  money laundering. The arrest was the culmination
identity of his brother, a Vietnam-era veteran, to          of an investigation by the U.S. Secret Service,
obtain service-connected compensation and                   Railroad Retirement Board (Railroad), IRS, SSA
medical benefits beginning in 1991. The brother             OIG, and VA OIG. From about October 1999 to
fraudulently received VA compensation benefits              April 2000, the subject and three other
totaling $266,381 and VA medical benefits                   defendants participated in a scheme to intercept in
totaling $33,791.                                           excess of 3,000 U.S. Treasury benefit checks
                                                            intended for VA, SSA, and Railroad pensioners
Office of Workers’                                          living in Mexico. These checks were intercepted
Compensation Programs (WCP)                                 in Mexico City, which is the central distribution
Fraud                                                       point for all pensioners living within Mexico. The
                                                            checks were then sent via courier to a business in
z   A veteran, an employee of the U.S. Postal               the United States that was owned and operated
Service who was receiving WCP benefits, was                 by the subject’s family, where the checks were
indicted and subsequently arrested on charges of            forged and then negotiated through the business
mail fraud, WCP benefit fraud, and making false             accounts. Loss to VA and other Federal agencies
statements. Investigation revealed the defendant            was in excess of $3.5 million.
was self-employed and operated his own medical
equipment company. Additionally, he was                     Education Fraud
fraudulently receiving disability benefit
compensation from VA for stress, trauma, and                z    Two officials of a technical institute were
physical abuse that he falsely claimed to have              indicted for wire fraud and false statements after a
suffered at the hands of the Iraqi military as a            joint investigation with the Department of
prisoner of war during Desert Storm in 1991.                Education OIG disclosed that the officials falsely
Loss to the Government for disability payments              certified the technical institute with a state
exceeded $200,000.                                          approving agency as a branch of an approved
                                                            college with which it was affiliated. This resulted
z   A former VA employee, who was receiving                 in the financial aid office of the college certifying
WCP benefits from 1970 through 2000, was                    to VA the enrollment of veterans as if they were
sentenced to 24 months’ probation and ordered               enrolled in an approved college. Based on the
to pay $75,000 in restitution. The defendant was            erroneous enrollment certifications, VA made
previously found guilty of making false claims


                                                      24

                                                                                     Office of Investigations

educational benefit payments of $17,115 to                   false claims involving mortgage loan guarantees
veterans.                                                    granted by VA and HUD by falsely claiming
                                                             reimbursement for fees they did not incur during
Attempted Bribery                                            VA and FHA foreclosure sales. The allegations
                                                             were substantiated and the firm agreed to pay
z   The owner/president of a local college was               $676,852 to settle the case. Single damages,
sentenced to 3 months’ imprisonment and was                  which are half of the total amount of the
fined $5,000 following his conviction on bribery             settlement or $338,426, will go to VA and HUD
and conspiracy charges. An investigation                     to cover losses. One quarter of the settlement or
disclosed the college president paid bribes to an            $169,213 will go to the realtor, and the remaining
undercover VA OIG special agent in return for                $169,213 will go to the Department of Justice.
having veterans referred to his college as
students. This investigation and subsequent                  Procurement Fraud
judicial proceedings led the subject to resign as
president of the college.                                    z    A former VBA loan program specialist and a
                                                             Government contractor were charged with
Loan Guaranty Fraud                                          conspiracy to defraud, accepting bribes, and
                                                             making false statements after a VA OIG
z   The general manager of a mortgage company                investigation revealed the employee directed
pled guilty to conspiracy and false statements               Government contracts to work on VA properties
after a joint agency investigation with HUD OIG              acquired through the loan guaranty program to the
revealed that employees of the mortgage                      contractor and four others, who have yet to be
company had defrauded several Federally insured              indicted. The indictments further allege these
financial institutions by submitting forged                  contractors purchased products for the
mortgages as collateral on their warehouse lines             employee’s personal use and maintained and
of credit loans. The investigation revealed that the         made improvements to the employee’s residence
employees submitted a series of false documents              and to a home belonging to one of the employee’s
in order to obtain HUD and VA guarantees on the              relatives. The indictment also alleges the
mortgage loans. The defendants also concealed                employee fraudulently used his authority to ensure
information from auditors and thereafter submitted           Government contracts were awarded to these
fraudulent audit reports to the Federal Housing              contractors and that fraudulent invoices were
Administration (FHA) in order to conceal their               paid. Civil action was also filed in this case on
scheme and artificially inflate the mortgage                 behalf of the VA seeking monetary recoveries
company’s financial status. The defendants then              under the False Claims Act from the contractor
placed the non-conforming loans into the                     and his sister, the owner of a cleaning company.
Government National Mortgage Association                     The action was taken based on false and
pools and fraudulently certified they met all of the         misleading claims they made for payment of
requirements. Total losses exceed $78 million.               invoices they submitted to the VA. The False
                                                             Claims Act allows the Government to collect up
z   A civil settlement agreement was reached                 to three times the amount of the fraud and up to
regarding a qui tam lawsuit that was filed against           $11,000 per false claim. Collectively, the
a law firm under the False Claims Act. The                   contractor and his sister face over $2.1 million
lawsuit alleged that the law firm made numerous



                                                       25

Office of Investigations

New Hampshire Sunday News                                                                     April 11, 2004




dollars in damages, restitution, and penalties, and         apprehension. Information is then provided to
may have to forfeit any assets, such as their home,         the Department so that benefits may be
to the United States Government.                            suspended and to initiate recovery action for
                                                            overpayments.
Fugitive Felon                                              To date, Memoranda of Understanding/
Program                                                     Agreements have been completed with the
                                                            U.S. Marshals Service and the National Crime
The Office of Investigations Fugitive Felon                 Information Center, as well as with the States
Program identifies VA benefits recipients who               of California, New York, Tennessee,
are fugitives from justice. The program                     Washington, Pennsylvania, Ohio, and
evolved after Congress enacted Public Law                   Massachusetts. Additional agreements are in
107-103, Veterans Education and Expansion                   the process of being negotiated with other
Act of 2001, prohibiting veterans who are                   states.
fugitive felons, or their dependents, from
receiving specified benefits. The program                   The program has led to additional cooperative
consists of conducting matches between                      efforts between the VA OIG, VBA, and VHA in
fugitive felon files of law enforcement                     an attempt to implement this new initiative.
organizations and more than 11 million records              Investigative leads provided to law
contained in VA benefit system files. Once a                enforcement agencies since the inception of
veteran is identified as a fugitive, information            the program have led to the arrest of fugitives
on the individual is provided to the law                    wanted for murder, manslaughter, sexual
enforcement organization responsible for                    assault, robbery, drug offenses, and other
serving the warrant to assist in the



                                                      26

                                                                                       Office of Investigations

serious felonies. The apprehension of these                     z   A fugitive felon was apprehended based on
subjects has made VA facilities safer for our                   information provided by the VA OIG Fugitive
veterans, employees, and the general public.                    Felon Program to a local law enforcement
                                                                agency. The fugitive had been wanted on a
The table below identifies the statistics relating to           robbery charge since 1976.
the Fugitive Felon Program during this reporting
period, as well as from the inception of the                    z   As a result of information provided by the VA
program.                                                        Fugitive Felon Program, a veteran was
                                                                apprehended in another country. The veteran
The following are examples of fugitive felon                    was wanted on a probation violation after being
apprehension cases:                                             convicted of aggravated sexual battery upon a
                                                                child. The subject was returned to the United
z   The VA OIG, working with a U.S. Marshals                    States after his arrest and was sentenced to an
Service Fugitive Apprehension Strike Team,                      additional extensive period of incarceration.
arrested a fugitive veteran who was wanted for
the attempted capital murder of a police officer.               z   With the assistance of VA OIG agents, a
                                                                fugitive veteran was taken into custody and was
z   A veteran was arrested on six outstanding                   transported by local authorities to await
state warrants for sexually related crimes. AVA                 extradition. The veteran had previously been
OIG agent, VA police, and U.S. deputy marshals                  charged with aggravated assault with a deadly
made the arrest at a VAMC. The fugitive was                     weapon.
taken into custody without incident and is pending
extradition.




                                                                                     This
                            Fugitive Felon Program                                R eporting         Total
                                                                                    Period

    Felony Warrants Recei ved from Parti ci pati ng Agenci es                        1.7M            3.5M

    Matched Records                                                                11,025          38,686

    Referred to Law Enforcement Agency Whi ch Holds the Warrant                     1,947          12,301

    Arrests Made by Law Enforcement Agency Whi ch Holds the Warrant                    82             211

    Arrests Made by OIG                                                                99             294

    Referrals to VA for Benefi ts Suspensi on                                       2,671           9,201

    Esti mated Identi fi ed Overpayments                                          $10.3M          $57.1M

    Esti mated C ost Avoi dance                                                     $19M           $119M

 M=Million




                                                         27
Office of Investigations

OIG Questioned                                              was an altered copy of a medical record
                                                            contained in his claims folder.
Document
Forensic Laboratory                                         z   In preparation for a San Juan, Puerto Rico,
                                                            proactive investigation, claims folders and copies
                                                            of U.S. Treasury checks were submitted to the
The Office of Investigations operates a
                                                            laboratory. The purpose of the laboratory
questioned document forensic laboratory for
                                                            examinations was to determine the authenticity of
fraud detection that can be used by all elements of
                                                            the signatures on the checks. The laboratory
VA. The types of requests routinely submitted to
                                                            determined the signatures on the checks were not
the laboratory include handwriting analysis,
                                                            genuine. One case revealed the true veteran had
analysis of photocopied documents, and
                                                            died and his signature on the VA checks had been
suspected alterations of official documents.
                                                            forged which cost the Government over
                                                            $100,000. The forger then used the true veteran’s
There were a total of 35 completed laboratory
                                                            DD Form 214 to create an identity of another
cases during this semiannual period.
                                                            individual that did not exist, in order to draw
                                                            additional VA benefits.
      Laboratory C ases for the Period

             Requester
                                     C a se s               OIG Computer Crimes
                                   C ompleted
    OIG Offi ce of
                                                            Forensic Laboratory
                                        15
    Investi gati ons
                                                            The Office of Investigations operates a
    VA Top Management                     4
                                                            computer crimes forensic laboratory in
    VA Regi onal Offi ces               16                  Washington, DC. The laboratory offers
               TOTAL                    35
                                                            forensic support in the examination of
                                                            computers, removable storage media, personal
                                                            digital assistants, and other digital storage
The following are examples of completed                     devices. The laboratory provides support to
laboratory reports:                                         VA OIG special agents nationwide in the
                                                            investigations of fraud, misuse of Government
z   A veteran appealed an adverse Board of                  equipment, identity theft, and child
Veterans’Appeals decision to the U.S. Court of              pornography.
Appeals for Veterans Claims. He provided his
attorney with a medical record which contained              The capability of the VA OIG Computer
information that was justification for VA benefits.         Crimes and Forensics laboratory has
The Appellate Attorney with the General Counsel             expanded to conduct data collection from
requested laboratory examinations to determine              most forms of electronic storage devices, to
authenticity of the medical record. Laboratory              include new hard drive technology and
examinations determined the medical record                  personal digital assistants. The Computer
provided by the veteran was not authentic, but              Crimes and Forensics lab has also developed
                                                            and established contacts and working




                                                      28

                                                                                       Office of Investigations

relationships with Government agencies                        Resources
domestically and internationally, and is
actively involved in multi-agency criminal                    The Administrative Investigations Division has
investigations involving electronic data.                     seven FTE allocated. The following chart shows
                                                              the percentage of resources used in reviewing
Additionally, in step with the new investigative              allegations by program area.
equipment acquisitions for the field, the
Computer Crimes and Forensics lab is actively
working in providing technical assistance and                                                    VBA
backup support with several components of                                                        5%
investigative equipment, to include global
positioning systems, theft detection, marking                                                      VACO
and tagging agents, and electronic                                                                  15%
surveillance.                                                              VHA
                                                                           80%

There were a total of eight completed laboratory
cases during this semiannual period.
                                                              Overall Performance
          Laboratory Cases for the Period
                                                              Output
  Child/Adult Pornography                    4
                                                              z   The Division closed 12 cases and issued 4
  Fraud                                      3                reports and 4 advisory memoranda, and
                                                              participated in a joint Hotline with the OIG
  Misuse of Government Systems               1
                                                              Offices of Audit and Healthcare Inspections.
  Total                                      8
                                                              Outcomes

                                                              z    VA managers agreed to take 14
II. ADMINISTRATIVE                                            administrative sanctions, including personnel
INVESTIGATIONS                                                actions against 10 officials, and corrective actions
                                                              in 4 instances to improve operations and
DIVISION                                                      activities. The corrective actions included
                                                              charging a full-time physician annual leave for
This Division is generally responsible for                    unauthorized absences, improving the monitoring
investigating allegations against senior VA officials         of part-time physicians’ time and attendance,
and other high profile matters of interest to the             correcting the improper transfer and expenditure
Congress and the Department.




                                                        29

Office of Investigations

of funds, and billing a former employee for funds           request or receive supervisory approval to adjust
he improperly spent.                                        her schedule. The physician also submitted
                                                            subsidiary time and attendance reports that did
Samples of the Administrative Investigations                not accurately reflect the hours she actually
Division reports issued during this period are              worked at VA. In the second case, a full-time
provided below. These reports address serious               physician routinely misused his official VA time by
issues of misconduct against high-ranking officials         arriving for duty 30 to 90 minutes later than his
and other high-profile matters of interest.                 scheduled tour of duty several times a week.
                                                            VHA officials agreed to take appropriate
Veterans Health                                             administrative action against both physicians and
                                                            their supervisors, charge the full-time physician a
Administration                                              full day of annual leave for each day of
                                                            unauthorized absence, and take corrective actions
Preferential Treatment                                      to ensure such violations are not repeated.

z    An administrative investigation substantiated          III. ANALYSIS AND
that a VA medical center associate director
violated ethical conduct standards and Federal              OVERSIGHT
acquisition regulations by giving preferential              DIVISION
treatment to a company while that company had,
and was seeking, official business with VA.
                                                            This Division has oversight responsibilities for all
Among other actions, the associate director
                                                            operations conducted by the Office of
indicated he was considering future employment
                                                            Investigations through a detailed inspection
with the company while involved in an official VA
                                                            program to ensure the agency is in full compliance
capacity in decisions affecting it, provided non-
                                                            with the quality standards for investigations
public information to the company, initiated plans
                                                            published by the PCIE. The Division is also
for a business arrangement that could have
                                                            responsible for scheduling and facilitating
financially benefited it, and socialized with
                                                            operational and management training for all
company officials. The investigation also
                                                            employees within the Office of Investigations.
substantiated that another medical center
                                                            Additionally, the Division is the primary point of
employee violated these regulations by creating
                                                            contact for law enforcement communications
the appearance that she gave the company
                                                            through the National Crime Information Center
preferential treatment. VHA officials agreed to
                                                            (NCIC), the National Law Enforcement
take appropriate administrative action against the
                                                            Telecommunications System (NLETS), the
two employees.
                                                            Financial Crimes Criminal Enforcement Network,
                                                            and other law enforcement professional
Misuse of Time by Physicians
                                                            organizations.
z   Two administrative investigations
substantiated misuse of official VA time by a               Resources
physician. In one case, a part-time physician
routinely did not work her regular tour of duty,            The Analysis and Oversight Division has six FTE
working instead for other employers, and did not            allocated.



                                                      30

                                                              Office of Investigations

Overall Performance

Output and Outcomes

During the reporting period, the Division
accomplished the following:

z   Completed a PCIE qualitative assessment
review of the investigative operations of another
OIG pursuant to the IG Act and Attorney General
guidelines.

z   Conducted five regional training seminars for
agents that included firearms qualification and
simmunitions scenario-based exercises, use of
force policy discussion and report writing,
defensive tactics and related practical drills, legal
update, and physical conditioning assessment.

z    Planned, coordinated, and managed a training
conference for all personnel assigned to the Office
of Investigations that included discussions on such
topics as agency policy directives, legal authority,
personnel practices, the PCIE peer review
process, VA OIG’s computer crime investigative
program and proper evidence gathering
techniques, investigative tools offered by the
private sector, and retirement planning.

z    Scheduled and/or facilitated 85 instances of
training involving 59 employees for such courses
as Criminal Investigator Training Program, IG
Transitional Training Program, Continuing Legal
Education, Interviewing Techniques, Firearms
Instructor Program, Defensive Tactics Training
Program, and Office of Personnel Management
(OPM) Management Training.

z  Conducted 251 NCIC and the NLETS
checks in support of criminal investigations.




                                                        31

Office of Investigations




                           Blank Page




                                 32
                                                                                             Office of Audit

OFFICE OF AUDIT

Mission Statement                                         In addition, the Office of Audit’s Contract Review
                                                          and Evaluation Division has 25 FTE authorized for
    Improve the management of VA                          reimbursement under an agreement
    programs and activities by providing our              with the VA Office of Acquisition and Materiel
    customers with timely, balanced,                      Management. This division conducts preaward
    credible, and independent financial and               and postaward reviews of certain categories of VA
    performance audits and evaluations that               contracts.
    address the economy, efficiency, and
    effectiveness of VA operations; and that              Overall Performance
    identify constructive solutions and
    opportunities for improvement; and to                 Output
    conduct preaward and postaward reviews
    to assist contracting officers in price               z   We issued 41 audits, evaluations, and reviews
    negotiations and to ensure                            for an output efficiency of 1 report per 3.8 FTE
    reasonableness of contract prices.                    during this 6-month period. We also issued an
                                                          additional 49 contract reviews, for an efficiency of
Resources                                                 2.0 reports per FTE for the 6-month period. In
                                                          addition, staff assisted in a joint Hotline with OIG
The Office of Audit has 17 FTE allocated for its          Offices of Healthcare Inspections and
headquarters and 160 FTE in 11 operating                  Investigations.
divisions located throughout the country. The
following chart shows the allocation of resources         Outcome
used in auditing each of VA’s major program
areas.                                                    z Recommendations to enhance operations and
                                                          correct operating deficiencies have associated
                                                          monetary benefits totaling approximately $704.4
                                                          million. In addition, contract reviews identified
                                 MGMT
                                  8%
                                                          monetary benefits of $122.6 million associated
                                         IT
                                                          with the results of preaward and postaward
                                        5%                contract reviews.
    VHA
    59%
                                     VBA
                                     23%
                                                          Customer Satisfaction

                                 A&MM                     z Customer satisfaction with performance and
                                  5%
                                                          financial audits and evaluations during this
                                                          reporting period was 4.7 on a scale of 5.0. The
                                                          average customer satisfaction rating achieved for
                                                          contract reviews was 4.5 out of a possible 5.0.




                                                    33

Office of Audit

Veterans Health                                             program to enable them to accurately review and
                                                            analyze the success of the initiative.
Administration
                                                            We recommend that the Acting Under Secretary
Resource Utilization                                        for Health take actions to ensure that all
                                                            participating VISNs and facilities workloads and
Issue: VHA’s Transitional Pharmacy                          costs associated with the program are accurately
   Benefit Program.                                         reported. This effort will enable VHA to better
Conclusion: Implementation efforts                          evaluate the success of the program and to
   hindered by incomplete information                       determine whether any additional follow-up
   and different view of policy                             actions need to be taken. The Acting Under
   guidelines.                                              Secretary for Health agreed with the report and
Impact: Improved access to VA                               provided an acceptable plan to address the
  supplied prescription drugs.                              program reporting issues identified. We will
                                                            continue to follow up on planned actions until they
The evaluation was initiated at the request of the          are completed. (Evaluation of VHA’s
Secretary to determine why program costs ran far            Transitional Pharmacy Benefit, 04-00310-212,
below original estimates. We concluded the                  9/27/04)
program achieved its primary goal of improving
access to VA supplied prescription drugs for                Quality of Care
many veterans who were on lengthy waiting lists
for their first primary care appointment.                   Issue: A full-time physician’s time and
However, the number of veterans eligible for                   attendance at VAMC Salem, VA.
participation and associated costs were                     Conclusion: Physician did not meet
significantly less than projected, due to changing             her responsibilities.
policies, advanced appointment dates, and stricter          Impact: Strengthened controls over
eligibility rules.                                             time and attendance.

We found that implementation of the program, or             A complainant alleged that a full-time physician
a future similar initiative, could be improved.             worked only 20 to 25 hours of her 40-hour
VHA program officials need to retrospectively               workweek, generally arriving at the VAMC
review the planning phase of this program                   between 9 and 10 a.m. and departing at 3 p.m.
because implementation efforts were hindered by             The allegation was substantiated. The physician
incomplete or inconsistent information and                  had not been working her 40-hour workweek.
differing views on interpreting policy guidelines           Her supervisor was aware of the situation, but
and goals. VHA officials also needed to better              failed to formally address the problem. We
oversee the implementation of the program to                recommended that appropriate administrative
ensure consistency at the VISN and facility levels.         action be taken against the physician and
In addition, VHA officials needed to develop and            hersupervisor. In addition, we learned that
implement a comprehensive management
reporting system tailored specifically for such a




                                                      34

                                                                                                Office of Audit

service-level policy memorandum had been                     administration, application systems security,
issued that conflicted with VA duty and leave                application systems implementation and
policy.                                                      maintenance, and segregation of duties.

We recommended that this memorandum be                       The eight management letters related to
rescinded. The VISN and VAMC Directors                       management of three VA data centers and five
agreed and provided acceptable implementation                application systems:
plans. (Evaluation of Allegation of Physician                     (i) Management Letter, Audit of VA’s FYs
Time and Attendance Abuse at the Salem VA                         2003 and 2002 CFS General Computer
Medical Center, Salem, VA ,04-01757-205,                          Controls Review at the Austin Automation
9/10/04)                                                          Center, 03-01237-132, 4/19/04;
                                                                 (ii) Management Letter, Audit of VA’s FYs
                                                                 2003 and 2002 CFS General Computer
Office of Management                                             Controls Review at the Philadelphia
                                                                 Information Technology Center and Insurance
VA’s Consolidated Financial                                      Center, 03-01237-133, 4/19/04;
Statements (CFS)                                                 (iii) Management Letter, Audit of VA’s FYs
                                                                 2003 and 2002 CFS General Computer
Issue: Financial management and                                  Controls Review at the Hines Information
   information technology security.                              Technology Center, 03-01237-134, 4/19/04;
Conclusion: Eight management letters                             (iv) Management Letter, Audit of VA’s FYs
   issued to improve controls.                                   2003 and 2002 CFS Compensation and
Impact: Improved controls over access                            Pension Application Follow-up Review
   to financial systems.                                         03- 01237-192 8/26/04;
                                                                 (v) Management Letter, Audit of VA’s FYs
The independent public accounting firm, Deloitte                 2003 and 2002 CFS Financial Management
& Touche LLP, performed the audit of VA’s CFS                    System Application Follow-up Review,
under contract to the OIG. As part of the audit,                 03-01237-193, 8/26/04;
we issued three management letters addressing                    (vi) Management Letter, Audit of VA’s FYs
general controls over access to the data centers                 2003 and 2002 CFS Personnel and
which run financial systems and five management                  Accounting Integrated Data Application
letters addressing application controls over access              Follow-up Review, 03-01237-194, 8/26/04;
to specific financial systems. The management                    (vii) Management Letter, Audit of VA’s FYs
letters for the general controls provided the status             2003 and 2002 CFS Loan Guaranty System
of prior year findings and recommendations and                   Application Follow-up Review, 03-01237-
provided additional findings in the areas of                     195, 8/26/04; and
information systems operations, information                      (viii) Management Letter, Audit of VA’s FYs
security, database implementation and support,                   2003 and 2002 CFS Integrated Funds
network support, and systems software support.                   Distribution, Control Point Activity,
The management letters for the applications                      Accounting and Procurement Application
controls provided the status of prior year findings              Review, 03-01237-198, 8/30/04.
and recommendations in the areas of security




                                                       35

Office of Audit

Preaward Contract Reviews                                    We completed five reviews of vendors’
                                                             contractual compliance with the specific pricing
Issue: Federal Supply Schedule (FSS)                         provisions of their FSS contracts. The reviews
   vendors’ best prices.                                     resulted in recoveries of $871,000. We also
Conclusion: Vendors can offer better                         completed five drug pricing Public Law 102-585
   prices to VA.                                             compliance reviews at pharmaceutical vendors.
Impact: Potential better use of $120.7                       The reviews resulted in recoveries of $229,000.
   million.
Preaward reviews of 32 FSS and cost-per-test                 OIG efforts to maintain an aggressive postaward
offers made recommendations for potential better             contract review program resulted in numerous
use of $120.7 million. Recommendations to                    voluntary disclosures and refund offers from
negotiate lower contract prices were made                    companies’ relating to overcharges on their
because the vendors were not offering the most               contracts with VA. Postaward contract reviews
favored customer prices to FSS customers when                are a major source of recoveries to VA’s
those same prices were extended to commercial                Revolving Supply Fund. These recoveries are a
customers purchasing under similar terms and                 result of VA’s work as a team, with the Office of
conditions as the FSS.                                       Acquisition and Materiel Management, Office of
                                                             General Counsel, and VHA, to ensure VA’s
Issue: Health care resource contracts.                       contracts are fairly priced.
Conclusion: VA can negotiate reduced
   contract costs.                                           Multiple Office Action
Impact: Potential better use of
   $777,400.
                                                             Issue: VA Workers’ Compensation
                                                                Program (WCP).
We completed reviews of seven proposals from
                                                             Conclusion: VA continues to be at risk
VA affiliated medical schools involving the
                                                                for WCP abuse, fraud, and
acquisition of scarce medical specialists’ services.
                                                                unnecessary costs.
We concluded the contracting officers should
                                                             Impact: Reduction in program costs by
negotiate reductions of $777,400 to the proposed
                                                                $696.2 million.
contract costs because of differences between the
proposed costs for the services solicited and the
                                                             The audit found that VA continues to be at risk for
costs the affiliate could justify.
                                                             significant WCP abuse, fraud, and unnecessary
                                                             costs because of inadequate case management
Postaward Contract Reviews                                   and fraud detection. Previous OIG audit
                                                             recommendations to enhance the Department’s
Issue: Contractor overcharges for                            case management and fraud detection efforts, and
  pharmaceuticals and medical                                avoid inappropriate dual benefit payments were
  supplies.                                                  not fully implemented. Additionally, we found that
Conclusion: Overcharges were                                 VA’s WCP costs are being impacted because of
   identified.                                               employee injuries associated with violent patient
Impact: Recovery of $1.1 million.                            incidents. The Department is also at risk for




                                                       36

                                                                                              Office of Audit

unnecessary WCP costs due to lack of action/               The OIG evaluated the VA Government purchase
responses on case inquiries to the Department of           card program to determine the effectiveness of
Labor, which administers the Federal Employees’            internal controls to prevent and detect fraudulent,
Compensation Act.                                          improper, or questionable purchases. The
                                                           evaluation was conducted utilizing the results of
Ineffective WCP case management and program                investigations, hotlines, and CAP reviews
fraud results in potential unnecessary and/or              performed at VAMCs and VAROs. The
inappropriate costs to the Department totaling             evaluation also included separate data mining
$42.7 million annually. These costs represent              analyses of purchase card transactions at five VA
significant potential lifetime compensation                facilities.
payments to claimants totaling $696.2 million.
Additionally, an estimated $112.6 million in               The OIG issued an earlier audit report on VA’s
avoidable past compensation payments were                  Government purchase card program on
made that are not recoverable, because VA                  February 12, 1999 (Report Number 9R3-E99-
missed opportunities to return employees back to           037). The audit showed that management
work.                                                      controls were not effectively implemented to
                                                           ensure the integrity of the Government purchase
The Assistant Secretary for Management agreed               card program and maximum benefits were not
with the report and will continue to designate the         being realized. Since this audit, the OIG issued
WCP as an internal high priority area with                 83 reports during the period April 1999 through
increased program monitoring and oversight. The            September 2003, which have continued to
Acting Assistant Secretary for Human Resources             identify internal control weaknesses in the
and Administration agreed to strengthen VA’s               Government purchase card program. Over the
WCP and reduce unnecessary program costs.                  years, the OIG reported numerous instances of
The Acting Assistant Secretary also agreed with            improper and questionable uses of purchase
the estimated monetary benefits and indicated that         cards, including some instances of fraudulent
it was a conservative estimate. While the Acting           activity.
Assistant Secretary’s comments do not include
detailed implementation plans with milestone               We identified internal controls that need to be fully
completion dates, responsible program officials            implemented to provide management greater
advised that work on these plans is in process             assurance that purchase cards are used properly.
and will be provided for OIG review. (Follow-              Areas needing improvement included: (i) closer
up Audit of Department of Veterans Affairs                 supervision and better training of cardholders and
Workers’ Compensation Program Cost,                        approving officials, (ii) timely reconciliation of
02-03056-182, 8/13/04)                                     purchase card transactions by cardholders,
                                                           (iii) timely and thorough certifications of
Issue: VA Government purchase card                         transactions by approving officials to ensure
   program.                                                competitive prices are obtained and preferred
Conclusion: Improved controls                              purchasing sources are used, (iv) prevention of
   needed to detect fraud and improper                     improper purchases, and (v) avoidance of split
   uses of purchase cards.                                 purchases. In addition, facility managers needed
Impact: Strengthened controls over
   purchase cards.



                                                     37

Office of Audit

to conduct effective focused audits to provide              clinical and administrative operations. We also
greater assurance that: (i) duties are                      found that medical care in selected clinical
appropriately segregated, (ii) cardholders and              services was not adequate. VA’s management of
approving officials are properly trained, (iii) the         the CoreFLS project did not protect the interest
span of control for approving officials is                  of the Government. BPVAMC was not
appropriate, and (iv) questionable transactions             adequately prepared for CoreFLS deployment.
are identified and validated. The Under Secretary           CoreFLS security weaknesses placed programs
for Health, the Under Secretary for Benefits, and           and data at risk. Senior leadership did not
the Assistant Secretary for Management agreed               respond adequately to supply, processing, and
and provided acceptable improvement plans.                  distribution warnings and did not ensure adequate
(Evaluation of the VA Government Purchase                   preparation for CoreFLS testing.
Card Program, 02-01481-135, 4/26/04)
                                                            We made a number of recommendations to
Joint Review                                                improve clinical and administrative controls and
                                                            take certain actions at the BPVAMC. Senior VA
                                                            management concurred with the
Issue: Patient care and administrative
                                                            recommendations and provided acceptable
   issues at VAMC Bay Pines, and
                                                            implementation plans. (Issue at VA Medical
   deployment of the Core Financial
                                                            Center Bay Pines, Florida, and Procurement
   and Logistics System (CoreFLS).
                                                            and Deployment of the Core Financial and
Conclusion: Mismanagement and
                                                            Logistics System (CoreFLS), 04-01371-177,
   substandard medical care results in
                                                            dated 8/11/04)
   VA reevaluating its multi-millioned
   dollar CoreFLS.
Impact: Better use of funds.

The OIG conducted an evaluation of selected
patient care and administrative issues at the Bay
Pines VA Medical Center (BPVAMC), Bay
Pines, FL. The evaluation also included reviews
of VA Central Office contract procedures and the
deployment of the CoreFLS. We confirmed
reports of substandard patient care and services
at the BPVAMC and found that many of the
conditions existed prior to the deployment of
CoreFLS. We concluded that the contracting
and monitoring of the CoreFLS project was not
adequate and the deployment of CoreFLS
encountered multiple problems. Even though VA
had obligated $249 million of the $472 million
budgeted for CoreFLS, it had not been
successfully deployed at a VAMC. Inadequate
BPVAMC management resulted in dysfunctional



                                                      38

                                                                       Office of Healthcare Inspections

OFFICE OF HEALTHCARE INSPECTIONS


Mission Statement                                         z    Completed three summary evaluations and
                                                          one national inspection and made 28
    Promote the principles of continuous                  recommendations to improve patient care and
    quality improvement and provide                       efficiencies in the community residential care
    effective inspections, oversight, and                 program; improve patient and employee safety in
    consultation to enhance and strengthen                the management of violent patients; enhance the
    the quality of VA’s health care programs.             quality management program; and assist with
                                                          nurse staffing decisions and improve nurse job
Resources                                                 satisfaction, recruitment, and retention.

The Office of Healthcare Inspections (OHI) has            z   Completed nine Hotline cases, which
48 FTE allocated to staff headquarters and field          consisted of reviews of 32 issues and one joint
operations. The following chart shows the                 Hotline with OIG Offices of Audit and
allocation of resources utilized to conduct               Investigations, which consisted of 22 health care
evaluations, inspections, CAP reviews, oversight,         related issues. Administratively closed three of
technical reviews, and clinical consultations in          the cases and issued reports on the remaining
support of criminal cases.                                seven cases. Made 40 recommendations that will
                                                          improve the health care and services provided to
                                                          patients.
                    Oversights
                      10%
                                                          z   Provided clinical consultative support to
                                                          investigators on nine criminal cases.
                                        CAPs
       Hotline
                                        40%
     Inspections                                          z Oversaw the work of VHA’s Office of the
        30%
                                                          Medical Inspector on five projects.

             Evaluations         Consults                 z   Completed six technical reviews on
                10%                10%                    recommended legislation, new and revised
                                                          policies, new program initiatives, and external
                                                          draft reports.
Overall Performance
                                                          z  Reviewed the responses to 131 Hotline cases
Output                                                    consisting of 170 issues that were referred to
                                                          VHA managers for review.
z   Participated in 22 CAP reviews to evaluate
health care issues and made 81 recommendations            Outcomes
and 23 suggestions that will improve operations,
activities, and the care and services provided to         z  Overall, OHI made or monitored the
patients.                                                 implementation of 149 recommendations and 23
                                                          suggestions to improve the quality of care and



                                                    39

Office of Healthcare Inspections

services provided to patients and their families.          Despite frequently voiced concerns about staffing
VHA managers agreed with all of our                        shortages, the ten sites visited generally met
recommendations and provided acceptable                    patient care demands. We made
implementation plans. VHA implementation                   recommendations to improve the management of
actions will improve clinical care delivery,               nursing resources, promote high quality patient
management efficiency, patient safety, and will            care, facilitate nursing recruitment and retention
hold employees accountable for their actions. In           efforts, and enhance nurses’ job satisfaction. We
addition, a national inspection on nursing                 also identified areas where costs totaling $42.4
resources identified areas where $42.4 million in          million could be reduced or funds better used.
costs could be better used.                                The Acting Under Secretary for Health concurred
                                                           with the findings and recommendations, including
Veterans Health                                            the estimate for monetary benefits, and provided
                                                           responsive implementation plans. (Healthcare
Administration                                             Inspection, Evaluation of Nurse Staffing in
                                                           VHA Facilities, 03-00079-183, 8/13/04)
National Inspection
                                                           Summary Evaluations
Issue: Management of nursing
   resources.                                              Issue: VHA’s management of violent
Conclusion: VHA had not mandated                              patients.
   the use of national standardized                        Conclusion: VHA needed to improve
   nurse staffing methodology as                              procedures and incident reporting.
   recommended by the OIG in 1989.                         Impact: Improved patient and
Impact: Improved nurse job                                    employee safety.
   satisfaction, patient care, and
   reduced costs by $42.4 million.                         The purpose of the review was to conduct an
                                                           evaluation of VHA processes to manage violent
Our review focused primarily on FY 2002                    patient behaviors. The evaluation was conducted
activities. We found facility managers could have          to determine the effectiveness of VHA’s program
managed their resources better to provide patient          to identify violent patients, and to minimize the
care if VHA developed and implemented safe                 risk to employees, patients, and others visiting VA
patient care. These practices could have been              facilities from threatening and violent patient
avoided had VHA developed and implemented                  behaviors.
procedures to ensure: (i) efficient management of
nurse staffing resources through the use of                To improve the management of violent patients,
consistent staffing methodologies, standards, and          VHA needed to: (i) establish interdisciplinary
data systems; (ii) monitoring of the potential             response teams in each facility that are specifically
impact of nurse staffing issues on patient care;           trained in violence management; (ii) develop a
(iii) effective use of recruitment and retention           consistent method of identifying and reporting
strategies; and (iv) appropriate management                violent incidents, ensure complete information is
response to issues that influence registered nurse         available to employees who are responsible for
job satisfaction.                                          analyzing and trending these data, and
                                                           recommending corrective strategies; (iii) establish



                                                     40

                                                                           Office of Healthcare Inspections

interdisciplinary committees to review and track             method for monitoring whether VA employees
violent incidents for the purpose of developing              own or operate VA approved homes; and
violence management and prevention strategies;               (iv) new guidelines are issued requiring caregiver
and (iv) implement guidelines for the appropriate            background clearances and statements of
use of automated warning flags and ensure they               agreement whenever patients are referred to
are applied consistently throughout the system,              assisted living facilities not approved by VA. The
and all employees have access to computer                    Acting Under Secretary for Health agreed and
systems that will flag patients’ records when there          provided acceptable improvement plans.
are histories of violence. The former Under                  (Healthcare Inspection, VHA’s Community
Secretary of Health concurred and provided                   Residential Care Program, 03-00391-138,
acceptable improvement plans. (Healthcare                    5/3/04)
Inspection, Healthcare Program Evaluation
VHA’s Management of Violent Patients,                        Issue: Quality management programs.
02-01747-139, 5/3/04)                                        Conclusion: VHA needs a stronger
                                                                system for corrective action
Issue: VHA community residential care                           implementation and evaluation.
   program.                                                  Impact: Improved quality of care and
Conclusion: Compliance with policies,                           patient safety.
   inspections, and patient
   assessments needed improvement.                           The purposes of this review were to determine
Impact: Improved monitoring practices                        whether: (1) VHA facilities had comprehensive,
   and controls.                                             effective programs designed to monitor patient
                                                             care activities and coordinate improvement
The purpose of this review was to evaluate                   efforts; and (2) VHA facility senior managers
whether VA medical facilities inspect their                  actively supported quality management efforts and
community residential care homes; veterans are               appropriately responded to results.
appropriately assessed, placed, and followed;
caregivers are qualified to meet veterans’ needs;            All of the facilities reviewed during 2003 had
and incompetent veterans’ care is coordinated                established comprehensive programs and
with VBA.                                                    performed ongoing reviews and analyses of
                                                             mandatory areas. We noted improvements in
We recommended the Acting Under Secretary for                several areas compared with our 2002 review.
Health ensure: (i) program officials review existing         However, facility senior managers need to
policies governing the program and ensure all                strengthen programs through increased attention
aspects of the guidelines are current; (ii)                  to the disclosure of adverse events, the utilization
inspections occur as mandated, and VAMC                      management program, the patient complaints
program employees understand the requirements                program, and medical record documentation
for interdisciplinary patient assessments,                   reviews. Senior managers need to strengthen
communication with caregivers, and post-                     designated employees’ data analysis skills,
placement follow-up visits; (iii) VAMC program               benchmarking, and corrective action
employees are re-educated about the standard                 identification, implementation, and evaluation
requiring annual caregiver training, and establish a         across all monitors.




                                                       41

Office of Healthcare Inspections

Because of continued weaknesses in data                     him every 2 hours. We confirmed nursing staff
management, particularly the implementation and             had no contact with the patient for over 5 hours,
evaluation of corrective actions, facility senior           even though he was 92 years old with a history of
managers need to clearly state their expectations           seizures and falls.
to all managers, program coordinators, and
committee chairpersons, who are responsible for             We did not substantiate the allegation that VAMC
quality management monitors, that corrective                managers attempted to cover up the incident, but
actions must be evaluated until resolution is               noted inconsistencies in documentation and
achieved. To provide reasonable assurance that              interview statements that may have reflected
its facilities are thoroughly addressing quality of         employees’ efforts to minimize their own
care and patient safety issues, VHA needs a                 accountability. We could not substantiate the
stronger system for corrective action                       allegation that the patient’s death was reported
implementation and evaluation. The Acting Under             insensitively or that the patient died under
Secretary for Health concurred and provided                 suspicious circumstances. The autopsy report
responsive implementation plans. (Healthcare                stated the patient died of natural causes and our
Inspection, Evaluation of Quality                           medical review did not identify any significant
Management in VHA Facilities, Fiscal Year                   lapses in his medical care.
2003, 03-00312-169, 7/14/04)

Healthcare Inspections

Issue: Suspicious death.
Conclusion: Nursing staff did not
   ensure patient’s safety or provide
   acceptable standards of care.
Impact: Incident appeared to be
                                                                     Washington VA Medical Center
   isolated.                                                               Washington, DC

We initiated an inspection in response to                   However, we did find employees did not comply
allegations that a patient’s death was caused by            with local code blue policy regarding
nursing home staff leaving the patient unattended           cardiopulmonary resuscitation procedures or
for several hours on the patio without medications          documentation. We also found some nursing staff
or water. We also reviewed allegations that                 did not comply with bar code medication
VAMC staff failed to follow policy, attempted to            administration procedures when they recorded
cover up the facts, and was insensitive when                medication administration long after medications
informing the next-of-kin of the patient’s death.           were actually administered. We made six
We substantiated the allegation that nursing staff          recommendations. The VISN and VAMC
did not ensure the patient’s safety or provide care         Directors concurred with the recommendations
which met acceptable standards or as prescribed             and provided responsive implementation plans.
in the patient’s care plan on the day of his death.         (Healthcare Inspection, Quality of Care Issues,
The patient was considered a high safety risk and           Washington, DC VAMC, 03-02110-150,
his care plan required nursing staff to check on            5/20/04)




                                                      42

                                                                             Office of Healthcare Inspections

Issue: Allegations regarding patient                            Issue: Alleged lack of physician
   care and environmental issues.                                  responsiveness.
Conclusion: Did not substantiate the                            Conclusion: Patient received
   allegations.                                                    appropriate therapeutic
Impact: Safe and clean environment.                                interventions; however, nurses did
                                                                   not timely communicate the
We received allegations regarding patient care                     patient’s statement that he was
and environmental issues on the Spinal Cord                        dying to the physician.
Injury unit at the VAMC San Juan. We did not                    Impact: Improved communication
substantiate the allegations. Overall, we found                    between clinicians.
facility managers and clinicians were responsive to
the complainant’s concerns about medical record                 We reviewed the case of an alleged lack of
documentation. Facility clinicians reviewed and                 physician responsiveness to an inpatient’s
amended the subject patient’s medical records                   requests to see a physician and an alleged lack of
where appropriate.                                              timely medical evaluation and intervention when
                                                                the patient was in a state of distress.
We found the unit to be clean and well
maintained. Fire safety and emergency                           We found communication broke down in that the
evacuation procedures were in place, and                        patient’s requests to see a physician were not
employees routinely participated in practice drills.            communicated to the appropriate physician in a
Managers ensured that unit personnel received                   timely manner. However, the patient had been
safe patient handling and vertical evacuation                   assessed by the nursing staff, who evaluated the
training. Managers enhanced existing pest control               patient and concluded he was stable. Later, when
measures by installing an air curtain at the patio              the patient’s condition took a turn for the worse,
door. Although we found two instances when                      he was immediately evaluated by the appropriate
nurse staffing did not meet the facility’s own                  physicians.
standards, four additional nursing personnel have
since been hired to fill specific shifts, thus reducing         In this review we also identified several problems
the likelihood of insufficient staffing on evening,             with medical record documentation, which most
night, and weekend shifts. The unit meets VHA’s                 probably did not contain clinical significance. In
staffing requirements. Because facility managers
were making appropriate efforts to address the
identified deficiencies, we did not make any
recommendations. (Healthcare Inspection,
Inspection of Patient Care and Environmental
Issues on the Spinal Cord Injury Unit,
VAMC San Juan, PR, 04-00037-151, 5/28/04)




                                                                                VA Medical Center
                                                                                 Bay Pines, FL




                                                          43

Office of Healthcare Inspections

addition, we identified areas for possible further         supervision appropriate for major changes in
clinical review and improvement and issues                 patients’ conditions. We made one
surrounding a post-mortem request for an                   recommendation for improvement. The VISN
autopsy. The VISN Director concurred and                   and Medical Center Directors concurred with the
provided responsive implementation plans.                  recommendation and provided responsive
(Healthcare Inspection, Review of Quality of               implementation plans. (Healthcare Inspection,
Care and Communication Issues, VAMC Bay                    Allegations of Abuse of Power and Increased
Pines, FL, 04-01371-153, 6/4/2004)                         Morbidity and Mortality Department of
                                                           Surgery, VAMC Memphis, TN, 04-00275-175,
Issue: Allegation about abuse of power                     8/6/04)
   and increased mortality and
   morbidity rates.                                        Issue: Patient safety and
Conclusion: Did not substantiate                              transportation services deficiencies.
   allegation; however, resident                           Conclusion: Lack of record keeping
   supervision documentation needed                           made it difficult to determine
   improvement.                                               vendors’ performance acceptability.
Impact: Improved medical record                            Impact: Improved vendor compliance
   documentation.                                             with contract requirements.

We conducted an inspection in response to a
complainant’s allegations about abuse of power
and increased morbidity and mortality rates. We
did not substantiate the allegations that medical
center managers abused their power, or that
morbidity and mortality rates increased due to
residents performing operative procedures.
However, we did find that attending surgeons did
not always co-sign residents’ pre-operative and
operative notes. Furthermore, documentation did
not always reflect personal involvement of the
attending surgeons or documentation of resident                            VA Medical Center
                                                                             Augusta, GA

                                                           We conducted an inspection in response to
                                                           allegations that patient transport services
                                                           endangered the lives of veterans and the
                                                           contracted vendor was awarded the contract so
                                                           consistently that other vendors chose not to bid.
                                                           We substantiated some of the patient’s allegations
                                                           regarding her experiences with the transport
                                                           services. Certain provisions within the contract
                VA Medical Center                          were unenforceable and medical center staff did
                  Memphis, TN




                                                     44

                                                                         Office of Healthcare Inspections

not monitor the contract requirements to ensure
the vendor met safety and maintenance standards.
Additionally, medical center staff did not verify
invoices before payment for services. Overall,
the lack of formal recordkeeping made it difficult
to determine whether the vendor’s performance
was acceptable. We made several
recommendations to improve operations. The
VISN and VAMC Directors concurred and
provided responsive implementation plans.
(Healthcare Inspection, Patient Travel and
                                                                      San Diego Healthcare System
Contract Transportation Deficiencies, VAMC
                                                                             San Diego, CA
Augusta, GA, 04-00225-184, 8/13/04)
                                                            controlled substance dose. The nurse did not
Issue: Narcotics diversion.
                                                            follow the defined process. The policy required
Conclusion: Numerous irregular
                                                            the charge nurse determine the amount of
   practices related to controlled
                                                            controlled substances needed and place an order.
   substances.
                                                            The nurse ordered controlled substances even
Impact: Improved controls.
                                                            though she was never designated as the charge
OHI collaborated with OIG investigators in a                nurse.
criminal drug diversion investigation that exposed
                                                            We also found the nurse frequently gave
serious problems in controlled substances
                                                            controlled substances to patients assigned to
management at the medical center. Numerous
                                                            other nurses when they were on break, even
irregular practices related to controlled
                                                            though some of these nurses specifically
substances use over a period of at least 1 year
                                                            instructed the nurse not to. It was apparent that
failed to raise suspicions with the charge nurse or
                                                            many observations made by the other night shift
supervisor. During a 6-month period, one nurse
                                                            nurses over a period of several months were not
committed 92 infractions involving nine different
                                                            brought to the attention of anyone in a position of
narcotic pain medications in more than 400
                                                            authority. As a result, suspicious practices were
doses. The medical center policy required that
                                                            allowed to continue. We made three
nursing supervisors perform and document
                                                            recommendations to improve controls. The
random checks of entries on the controlled
                                                            VISN and Medical Center Directors concurred
substances control sheets for clarity and
                                                            and provided responsive implementation plans.
completeness and compare them with patients’
                                                            (Healthcare Inspection, Controlled Substances
medication administration histories. We found no
                                                            Management Issues, VA San Diego Healthcare
evidence that these checks were performed. The
                                                            System, San Diego, CA, 01-00637-203,
policy required a nurse from the out-going and
                                                            9/9/2004)
oncoming shifts count controlled substances
together; the nurse frequently counted alone. The
policy defined the process for witnessing and
countersigning the wasting of a partial or whole




                                                      45

Office of Healthcare Inspections




                                   Blank Page




                                      46
                                                               Office of Management & Administration

OFFICE OF MANAGEMENT &
ADMINISTRATION

Mission Statement                                          III. Information Technology (IT) and Data
                                                           Analysis – Manages nationwide IT support,
    Promote OIG organizational                             systems development and integration; represents
    effectiveness and efficiency by providing              the OIG on numerous intra- and inter-agency IT
    reliable and timely management and                     organizations; and does strategic IT planning for
    administrative support, and providing                  all OIG requirements. The Division maintains the
    products and services that promote the                 Master Case Index (MCI) system, the OIG’s
    overall mission and goals of the OIG.                  primary information system for case management
    Strive to ensure that all allegations                  and decision making. The Data Analysis Section,
    communicated to the OIG are effectively                located in Austin, TX, provides data processing
    monitored and resolved in a timely,                    support, such as computer matching and data
    efficient, and impartial manner.                       extraction from VA databases.

The Office of Management and Administration is             IV. Financial and Administrative Support –
responsible for a wide range of administrative and         Responsible for OIG financial operations,
operational support functions. The Office                  including budget formulation and execution, and
includes five divisions.                                   all other OIG administrative support services.

I. Hotline – Determines action to be taken on              V. Human Resources Management – Provides
allegations received by the OIG Hotline. The               the full range of personnel management services,
Division receives thousands of contacts annually           including classification, staffing, employee
from veterans, VA employees, and Congress.                 relations, training, and incentive awards program.
The work includes controlling and referring many
cases to the OIG Offices of Investigations, Audit,         Resources
and Healthcare Inspections, or to impartial VA
components for review.                                     The Office of Management and Administration
                                                           has 59 FTE allocated to the following areas.
II. Operational Support – Performs follow-up on
implementation of OIG report recommendations;
Freedom of Information Act/Privacy Act (FOIA/
PA) releases; strategic, operational, and
performance planning; electronic report
distribution; and OIG reporting requirements and
policy development.




                                                     47

Office of Management & Administration


                               Operational
                                                                                  Information &
                                Support                                            Technology
                                 18%                                                   5%

                                      Financial &                                                 Management
      IT &                           Administration
  Data Analysis                                                     VHA                              16%
                                         15%
      40%
                                                                    55%
                                    Human
                                   Resources
                                     12%                                                     VBA
                                                                                             24%
                         Hotline
                          15%




I. HOTLINE DIVISION                                          Overall Performance

Mission Statement                                            During the reporting period, the Hotline received
                                                             10,529 contacts. This resulted in opening 671
                                                             cases. The OIG reviewed 164 (24 percent) of
    Ensure that allegations of criminal
                                                             these and referred the remaining 507 cases to VA
    activity, waste, abuse, and
                                                             program offices for review.
    mismanagement are responded to in an
    efficient and effective manner.
                                                             Output
The Division operates a toll-free telephone
                                                             z   During the reporting period, Hotline staff
service, Monday through Friday, from 8:30 a.m.
                                                             closed 610 cases, of which 207 (34 percent)
to 4 p.m. Eastern time. Employees, veterans, the
                                                             contained substantiated allegations. We wrote
general public, Congress, U.S. Government
                                                             102 letters responding to inquiries received from
Accountability Office, and other Federal agencies
                                                             Congress.
report issues of criminal activity, waste, and abuse
through calls, letters, faxes, and e-mail messages.
                                                             Outcomes
The Hotline Division carefully considers all
complaints and allegations; OIG or other
                                                             z VA managers imposed 32 administrative
Departmental staff address mission-related issues.
                                                             sanctions against employees and took 118
                                                             corrective actions to improve operations and
Resources
                                                             activities as the result of these reviews. The
                                                             monetary impact resulting from these cases
The Hotline Division has eight FTE. The
                                                             totaled almost $1.1 million.
following chart shows the estimated percentage of
resources devoted to various program areas.




                                                       48

                                                              Office of Management & Administration

Veterans Health                                           degree when, in fact, he did not. Management
                                                          proposed the employee’s removal from Federal
Administration                                            employment and debarment by the Office of
                                                          Personnel Management.
Quality of Patient Care
                                                          Time and Attendance
The responses to Hotline inquiries by VA
management officials indicated that 47                    The responses to Hotline inquiries by
allegations regarding deficiencies in the                 management officials indicate that 16
quality of patient care provided by individual            allegations of time and attendance abuse at
facilities were found to have merit and                   individual VA facilities were found to have
required corrective action. An example                    merit and required corrective action. An
follows.                                                  example follows.

                                                          z   A VHA review of a supervisory nurse’s
z   A VHA review of a veteran’s medical records           compensatory time found significant and
determined that, although his treatment provider,         unexplained discrepancies between her reported
the VAMC, and the VARO were aware of his                  time and evidence of her physical presence at the
Hepatitis C end-stage liver disease and his               VAMC. Management proposed the employee be
placement on a transplant registry for over 3             demoted one grade level and withdrew 38 hours
years, he was not informed of or referred to the          of unverified compensatory time. In addition,
VA transplant program. As a result of these               management counseled the employee’s
findings, management has authorized the veteran’s         supervisor, who had approved the improper
treatment at a private hospital, including all            requests, and amended administrative procedures
associated medical expenses. Management has               to provide better accountability in accruing
also appointed a transplant coordinator to ensure         compensatory time.
timely processing of transplant requests.
                                                          Fiscal Controls
Ethical Improprieties/Employee
Misconduct                                                The responses to Hotline inquiries by
                                                          management officials indicate that five
The responses to Hotline inquiries by                     allegations of deficient or improper fiscal
management officials indicated that 17                    controls at individual VA facilities were found
allegations of ethical improprieties/employee             to have merit and required corrective action.
misconduct at individual VA facilities were               An example follows.
found to have merit and required corrective
action. An example follows.                               z   AVHA Administrative Board of Investigation
                                                          substantiated allegations of mismanagement. The
z    A VHA review found an employee, hired                board report stated the patient accounts manager
under the Outstanding Scholars Program, falsified         required a thorough retraining on fund controls,
his employment application and official school            operating procedures, eligibility requirements, and
transcript to indicate he earned a bachelor’s             dealing with people. In addition, the board




                                                    49

Office of Management & Administration

recommended the chief of the business office be             Privacy Act and Health Insurance
reoriented to his roles and responsibilities as a           Portability and Accountability Act
manager.
                                                            Responses by management indicate that five
Patient Safety                                              allegations involve violations of privacy by
                                                            employees at individual VA facilities had merit
The responses to Hotline inquiries by                       and required action. Examples of the issues
management officials indicate that seven                    follow.
allegations of patient safety deficiencies at
individual VA facilities were found to have                 z  A VHA review concluded there was a
merit and required corrective action. An                    violation of a veteran’s privacy relating to his HIV
example follows.                                            status. The information was inappropriately
                                                            divulged by an employee during a union meeting.
z    A VHA review determined a pharmacy error               The employee was verbally counseled and the
caused a veteran to receive and ingest the wrong            staff received training regarding privacy violations.
medication that lead to his subsequent
hospitalization. In response, management                    z   A VHA investigation confirmed nurses on a
assembled a root cause analysis team to                     ward of a medical center were calling patients to
investigate the entire process. The pharmacy                the nurse’s station to administer medications, take
implemented the team’s recommendations and                  vital signs, and administer treatment.
adopted a comprehensive double check system                 Management immediately halted this practice and
for all prescriptions dispensed from the outpatient         implemented a range of procedural changes
clinic.                                                     designed to bring nursing staff into patient areas
                                                            for all treatment and care, and thereby foster
Government Equipment and Supplies                           better interaction with the patients. Nurse
                                                            managers are to monitor compliance with the new
The responses to Hotline inquiries by                       procedures and will take appropriate disciplinary
management officials indicate that seven                    action as required.
allegations involving misuse of Government
equipment and supplies at individual VA                     Facilities and Services
facilities were found to have merit and
required corrective action. An example                      The responses to Hotline inquiries by VA
follows.                                                    management officials indicated that 30
                                                            allegations regarding deficiencies with
z   A VHA review determined a medical center                facilities or the services provided by individual
was not properly managing the acquisition and               VA facilities were found to have merit and
disposition of computer equipment. Management               required corrective action. Examples of the
implemented strategies to prepare computer                  issues follow.
drives for proper disposal, establish better
inventory controls and buying practices for spare           z   A VHA review found biological waste,
equipment, and return unused new items to the               chemical waste, and sharps waste in a research
vendor for credit.                                          laboratory were disposed improperly.
                                                            Additionally, research animal cages contained



                                                      50

                                                                Office of Management & Administration

droppings, and equipment was not sanitized. As             proposed to terminate the veteran’s rating of
a result, management arranged for biohazard bags           unemployability, resulting in a VA savings of
and containers to be disposed appropriately.               $332,883.
Animal cages were cleaned and recycled, and
equipment was inventoried and assessed for                 z   A VBA review determined an 80 percent
storage.                                                   service-connected veteran receiving 100 percent
                                                           individual unemployability benefits is gainfully
z   A VHA review confirmed a service-                      employed and failed to report his employment.
connected veteran failed to receive an initial             The savings from reducing his benefits is
appointment within 30 days of his request. The             $144,000.
veteran was provided a primary care
appointment. Additionally, the staff was retrained         Facilities and Services
on the importance of scheduling new-service
connected veterans within the 30-day timeframe.            The responses to Hotline inquiries by VA
                                                           management officials indicated that seven
Veterans Benefits                                          allegations regarding deficiencies with
                                                           facilities or the services provided by individual
Administration                                             VA facilities were found to have merit and
                                                           required corrective action. Examples follow.
Receipt of VA Benefits
                                                           z    VBA determined a veteran’s rating decision
The responses to Hotline inquiries by                      was mailed to the wrong address in error. As a
management officials indicate that 29                      result, the staff involved has been given refresher
allegations involving improprieties in the                 training about the Privacy Act to help prevent
receipt of VA benefits were found to have                  such mistakes.
merit and required corrective action.
Examples follow.                                           z   VBA determined a veteran did not receive his
                                                           monthly check after his address had been
z   A VBA review found a veteran, claiming to              changed by telephone without his permission.
be helpless or nearly helpless and receiving aid           Regional office staff noted in the veteran’s file that
and attendance benefits since 1985, was ineligible         future telephone requests of this nature will not be
for benefits since he did not require assistance           accepted, verified his current address, and issued
with his basic needs and was even able to operate          a special back-payment check.
a motor vehicle. The VARO discontinued the
veteran’s benefits and estimated the resulting             VA Central Office
overpayment at $600,000.
                                                           Cyber Security
z   A VBA field examination and follow-up
physical examination revealed a veteran who
                                                           The responses to Hotline inquiries by VA
claimed to be unable to work because of a painful
                                                           management officials indicated that seven
back condition was still agile enough to climb
                                                           allegations regarding cyber security were
trees, bend backward from the waist to install
                                                           found to have merit. An example follows:
equipment, and walk briskly. The VARO has



                                                     51

Office of Management & Administration

z   A VA Central Office review determined a               Overall Performance
political solicitation from an approved Web link
showed up in a specific search of the official VA         Follow-Up on OIG Reports
Website. Within hours, however, the link was
removed from the Web registry and sample                  Operational Support is responsible for obtaining
documents were no longer accessible through a             implementation actions on previously issued
search of VA’s internet site.                             audits, inspections, and reviews with over
                                                          $1.98 billion of actual or potential monetary
II. OPERATIONAL                                           benefits as of September 30, 2004.

SUPPORT DIVISION                                          The Division maintains the centralized follow-up
                                                          system that provides oversight, monitoring, and
Mission Statement                                         tracking of all OIG recommendations through
                                                          both resolution and implementation. Resolution
     Promote OIG organizational                           and implementation actions are monitored to
     effectiveness and efficiency by providing            ensure that disagreements between OIG and VA
     reliable and timely follow-up reporting              management are resolved promptly and that
     and tracking on OIG recommendations;                 corrective actions are implemented by VA
     responding to Freedom of Information                 management officials. VA’s Deputy Secretary, as
     Act / Privacy Act requests; conducting               the Department’s audit resolution official, resolves
     policy review and development; strategic,            any disagreements about recommendations.
     operational, and performance planning;
     providing electronic report distribution;            After obtaining information that showed
     and overseeing Inspector General                     management officials had fully implemented
     reporting requirements.                              corrective actions, Operational Support closed
                                                          131 reports and 648 recommendations with a
Resources                                                 monetary benefit of $915 million during this
                                                          period. As of September 30, 2004, VA had 54
This Division has 10 FTE assigned with the                open OIG reports with 366 unimplemented
following allocation.                                     recommendations.

                   Leg. Reviews                           Freedom of Information Act, Privacy
                       10%                                Act, and Other Disclosure Activities
                                      Rpt. Dist.
                                        27%               Operational Support processes all OIG FOIA
    Pol. & Plan.                                          and PA requests from Congress, veterans,
        17%
                                                          veterans service organizations, VA employees,
                                                          news media, law firms, contractors, complainants,
                                                          the general public, and subjects of investigations.
                                   Follow-Up              In addition, we process official requests for
            FOIA/PA
                                     23%                  information and documents from other Federal
             23%
                                                          Departments and agencies, such as the Office of




                                                    52

                                                                Office of Management & Administration

Special Counsel and the Department of Justice.              of security screening of mail deliveries. This
These requests require the review and possible              approach also places unrestricted OIG reports on
redacting of OIG hotline, health care inspection,           our Web page as soon as they are issued.
criminal and administrative investigation, contract
audit, and internal audit reports and files.                We began using this method to distribute our
Operational Support also processes OIG reports              CAP review reports in October 2003 and
and documents to assist VA management in                    expanded to include other unrestricted reports in
establishing evidence files used to support                 August 2004. During this reporting period a total
administrative or disciplinary actions against VA           of 29 CAP reports were released electronically.
employees.                                                  In addition, six non-CAP reports were released
                                                            electronically.
During this reporting period, we processed 175
requests under the FOIA and PA and released                 Review and Impact of Legislation and
224 audit, investigative, and other OIG reports.            Regulations
Information was totally denied in 9 requests and
partially withheld in 77 requests, because release          Operational Support coordinated concurrences
would constitute an unwarranted invasion of                 on 40 legislative, 40 regulatory, and 78
personal privacy, interfere with enforcement                administrative proposals from the Congress,
proceedings, disclose the identity of confidential          OMB, and VA. The OIG commented and made
sources, disclose internal Departmental matters,            recommendations concerning the impact of the
or was specifically exempt from disclosure by               legislation and regulations on economy and
statute. During this period, all FOIA cases                 efficiency in the administration of programs and
received a written response within 20 workdays,             operations or the prevention and detection of
as required. There are no requests pending over             fraud and abuse.
6 months.
                                                            III. INFORMATION
Electronic Report Distribution
                                                            TECHNOLOGY AND DATA
The President’s electronic Government initiatives,          ANALYSIS DIVISION
as described at http://www.whitehouse.gov/omb/
egov/, aim to put Government at citizens’ and
                                                            Mission Statement
employees’ fingertips, making it more responsive
and cost-effective. In keeping with this effort,
                                                               Promote OIG organizational
OIG distributes reports through a link to the OIG
                                                               effectiveness and efficiency by ensuring
Web page. Individuals on the distribution list
                                                               the accessibility, usability, reliability and
receive a short e-mail describing the report, with
                                                               security of OIG information assets;
a link that takes them directly to the report.
                                                               developing, maintaining, and enhancing
                                                               the enterprise database application;
We believe this distribution method provides
                                                               facilitating reliable, secure, responsive,
many advantages. It is fast and efficient, avoiding
                                                               and cost-effective access to this database,
the cost and delays involved in producing large
                                                               VA databases, and electronic mail by all
numbers of paper copies and the time problems
                                                               authorized OIG employees; providing



                                                      53

Office of Management & Administration

    Internet document management and                      Internet and Electronic FOIA
    control; and providing statistical
    consultation and support to all OIG                   The Division maintains OIG Websites and posts
    components. Provide automated data                    OIG reports on the Internet. Data files on the
    processing technical support to all                   OIG Websites were accessed over 1.4 million
    elements of the OIG and other Federal                 times by more than 146,000 visitors. OIG
    Government agencies needing                           reports, vacancy announcements, and other
    information from VA electronic                        publications accounted for almost 748,000
    databases.                                            downloads from our Websites, providing both
                                                          timely access to OIG customers and cost
The Information Technology and Data Analysis              avoidance in the reduced number of reports
Division provides IT and statistical support              printed and mailed. Our support of the OIG’s
services to all components of the OIG. It has             electronic report distribution initiative has resulted
responsibility for the continued development and          in an 116 percent increase (almost 353,000
operation of the management information system            additional downloads) in reports and other
known as the Master Case Index (MCI), as well             publications downloads from our public
as the OIG’s Internet and Intranet resources. The         Websites.
Data Analysis Section in Austin, TX, provides
data gathering and analysis support to employees          Information Management, Security, and
of the OIG, as well as VA and other Federal               Coordination
agencies, requesting information contained in VA
automated systems. Finally, a member of the staff         We provided training on the OIG’s data and
serves as the OIG statistician.                           e-mail encryption software as well as the VA’s
                                                          public key infrastructure e-mail encryption system
Resources                                                 to OIG investigators. We also provided
                                                          instructions on setting up encrypted data file
The Division has 22 FTE allocated in Washington,          transfers with other VA staff.
Austin, and Chicago.
                                                          Statistical Support and IT Training
Overall Performance
                                                          The OIG statistician is part of the technical
Master Case Index (MCI)                                   support team under the direction of the OIG’s
                                                          Chief Information Officer and provides assistance
During this reporting period, the MCI application         in planning, designing, and sampling for relevant
has continued to expand in support of the OIG             OIG projects. For the reporting period, the OIG
mission. We are upgrading the MCI                         statistician provided statistical consultation and
infrastructure with hardware and software. We             support for all CAP reviews, and data analysis
are actively migrating the Oracle database to the         concerning purchase card use at each facility.
newest release of Oracle and redeploying the              We developed and published several online
MCI intranet.                                             surveys in support of OIG activities.




                                                    54

                                                                Office of Management & Administration

DATA ANALYSIS SECTION                                      CAP Reviews

The Data Analysis Section (DAS) develops                   The DAS provided technical support and data for
proactive computer profiles that search VA                 all health care reviews focusing on the quality,
computer data for patterns of inconsistent or              efficiency, and effectiveness of medical services
irregular records with a high potential for fraud          provided to veterans. The DAS also provided
and refers these leads to OIG auditors and                 support for CAP reviews on VA benefits that
investigators for further review. The DAS also             focused on the delivery of monetary benefits to
provides technical assessments and support to all          veterans and their dependents. A combined total
elements of the OIG and other governmental                 of over 426 data extracts and reports were
agencies needing information from VA computer              produced in support of this activity. An additional
files. Significant efforts include the following.          325 reports were produced for teams conducting
                                                           national health care/audit reviews such as lists of
Fugitive Felon Matches                                     cancelled appointments, cost reports for contract
                                                           nursing home, and colonoscopies and pathology
As a continuation of the computer match of VA              clinic visits.
records to state and Federal files, the DAS
matched 1,701,745 warrants from the NCIC                   Large VA Benefit Payments
database, an additional 30,253 from the
Washington State Patrol and 29,694 from the                DAS staff provided an analysis of all VA “one-
New York State Police to more than 10 million              time” benefit payments exceeding $10,000. The
records contained in VA benefit system files. We           reports have been incorporated into the
identified 11,025 additional fugitive felons as a          information available to CAP teams preparing to
result.                                                    review a VARO.

Data Mining to Detect Potential Fraud in                   Medical Care Collections Fund
VA Computer Systems
                                                           The DAS worked with members of CAP review
The DAS took a proactive approach to finding               teams to develop a number of special reports
and reporting fraud by developing computer                 related to patient insurance coverage, recovery of
profiles that reflect the known procedures used to         the cost of care from the primary provider of
defraud the VA. An updated run of the death                coverage, and analyses of factors such as the
match program resulted in an additional 1,568              reasons care would not be billable.
referrals to the Office of Investigations. Total
monthly awards for these accounts were                     Assistance to Other Agencies
$802,818. DAS also extracted duplicate medical
payments paid over a 20-month period revealing             We provided assistance to the VA police at a
over $1 million in such payments.                          facility by providing the total cost of medical care
                                                           fraudulently obtained by an individual who had
                                                           stolen the identity of a veteran.




                                                     55

Office of Management & Administration

Other Workload                                          Overall Performance
During the reporting period, the DAS completed          Budget
147 ad hoc requests for data from other OIG
operational elements. Considerable effort was           The staff assisted in the preparation of the FY
expended in support of the CoreFLS review at            2006 budget submission and materials for
the Bay Pines VAMC.                                     associated hearings with VA and the Office of
                                                        Management and Budget.
IV. FINANCIAL AND
                                                        Travel
ADMINISTRATIVE
SUPPORT DIVISION                                        By the nature of our work, OIG personnel travel
                                                        almost continuously. As a result, we processed
Mission Statement                                       2,234 travel and 12 permanent change of station
                                                        vouchers.
    Promote OIG organizational
    effectiveness and efficiency by providing           Administrative Operations
    reliable and timely financial and
    administrative support services.                    The staff works closely with VA Central Office
                                                        administrative offices and building management to
The Division provides support services for the          coordinate various administrative functions, office
entire OIG. Services include budget formulation,        renovation plans, telephone installations, and
presentation, and execution; travel processing;         furniture and equipment procurement. In
procurement; space and facilities management;           addition, we processed 173 procurement actions,
and general administrative support.                     and reviewed and approved monthly the 88
                                                        statements received from the OIG’s cardholders
Resources                                               under the Government’s purchase card program.

Eight staff currently spend time across three           V. HUMAN RESOURCES

functional areas in the following proportions.
                                                        MANAGEMENT DIVISION

                                                        Mission Statement
                                  Budget
                                   13%
                                                            Promote OIG organizational
   Admin.                                                   effectiveness and efficiency by providing
  Operations                                                reliable and timely human resources
    75%                               Travel                management and related support
                                       12%                  services.




                                                   56
                                                                     Office of Management & Administration

The Division provides human resources                           The 12th Annual OIG awards ceremony took
management services for the entire OIG. These                   place in April 2004. The Inspector General
services include internal and external staffing,                presented awards for distinguished achievement,
classification, pay administration, employee                    exceptional teamwork, outstanding initiative, and
relations, benefits, performance and awards, and                sustained superior accomplishment. Each
management advisory assistance. It also serves                  Assistant Inspector General presented awards for
as liaison to the VA Central Offices of Human                   the employee of the year and team
Resources and Payroll, as those offices process                 accomplishment of the year. A total of 57
our actions into the VA integrated payroll and                  employees were recognized and an additional
personnel system.                                               19 employees received quality step increases.

Resources                                                       We held an OIG New Employee Orientation
                                                                Program in April 2004. Over 30 employees
Eight FTE, committed to human resources                         attended the 2-day program and learned about
management and support, currently expend time                   OIG organizational values, history, strategic goals,
across the following functional areas.                          and organizational structure from the senior
                                                                management staff. A former prisoner of war in
                                                                Vietnam delivered an inspirational speech on the
               Special Projects &

                                                                value of public service to the preservation of
                Advisory Service
                               freedom in America.
                      15%

                                     Employee Relations
                                        & Benefits
                                           10%



                                     Performance
     Staffing &
                                      & Awards
    Classification
                                         10%
        65%




Overall Performance

Human Resources Management
                                                                        VAOIG New Employee Orientation
As of September 30, 2004, the on-board strength
                                                                                City Museum
is at its highest level in OIG history. During this 6-                         Washington, DC
month period, 29 new employees joined the OIG                                    April 2004
workforce and 15 departed. The staff processed
142 recruitment and placement actions,
processed 400 awards, and enrolled
32 employees in advanced leadership and
management development classes.




                                                          57

Office of Management & Administration

The OIG succession plan has resulted in the
placement of 21 current or recent college
graduates under two special hiring programs: the
OIG Student Career Experience Program and the
OIG Federal Career Intern Program (FCIP).

Seventeen college students are working part-time
in our field offices and at the headquarters in a
variety of occupational disciplines. The students
receive developmental assignments and training in
their career fields, and are eligible for permanent
placement upon graduation. Four recent college
graduates were selected for the OIG FCIP. We
provide these employees with sound and
systematic training and development during a
2-year internship. Those demonstrating
successful performance will be eligible for
conversion to permanent appointments.
We replaced the credentials of our Audit,
Investigations, and Healthcare Inspections staff
with new credentials with enhanced security
features. The new credentials include a
holographic OIG seal to prevent tampering.




                                                      58
                                                                          Other Significant OIG Activities


OTHER SIGNIFICANT OIG ACTIVITIES

President’s Council on Integrity                           audience to remember the words of Winston
                                                           Churchill, “We make a living by what we get; we
and Efficiency
                                                           make a life by what we give.”
z   The OIG Financial Audits Division staff
participated in the audit executive committee
workgroup on financial statements. The
workgroup facilitates communication of financial
statement audit issues throughout the Federal
community.

z   The Director, Information Technology Audit
Division, is the subcommittee chair of the Policy
Review Committee, IT Security Committee. The
Policy Review Committee is chartered with
reviewing OMB and National Institute of
Standards and Technology publications and to               Inspector General Richard J. Griffin is pictured with
coordinate a consolidated response from the IG             OIG Human Resource Analyst, Lisa Stahl, the first
community to the publishing organization.                  OIG co-op student hired into a permanent, full-time
                                                              position upon her graduation from Marymount
                                                                                University.
OIG Management Presentations
                                                           Leadership VA 2004 Program
Inspector General Receives Honorary
Doctorate                                                  z    The Inspector General participated in the
                                                           “Meet the Leaders” roundtable discussion with
z   Marymount University, located in Arlington,            the Leadership VA Class of 2004 in Philadelphia.
VA, conferred the honorary degree of Doctor of             This program is VA’s premier leadership
Humane Letters upon the Honorable Richard J.               development program.
Griffin during its Spring 2004 commencement
ceremony at Daughters of the American                      Secret Service Agent Graduation
Revolution Constitution Hall, Washington, DC.
Mr. Griffin was recognized for steadfast integrity         z  The Inspector General gave the
and leadership in serving our nation’s veterans,           commencement address at a Secret Service
and honored for exemplary service to our country           Special Agent Graduation in Beltsville, MD.
over a 33-year Federal career. Mr. Griffin
received a Masters in Business Administration              12th Annual Leadership VA Alumni
from Marymount University in 1984. In his                  Association Forum
remarks to the graduates, Mr. Griffin asked the
                                                           z   The Inspector General participated in a panel
                                                           discussion with other senior VA officials at this


                                                     59

Other Significant OIG Activities

forum in Miami, responding to questions from the           WCP fraud detection at the bi-monthly meeting of
VA executives and managers attending.                      the chapter. The presentation included highlights
                                                           of our audit work over the last several years and
Annual Conference of Women in                              our Web-based resources that are available to
Federal Law Enforcement                                    assist in fraud detection and program
                                                           management.
z   The Inspector General participated on a panel
of Inspectors General at the annual conference.            VA INFOSEC 2004 Security Conference
                                                           and VA Information Technology
System-wide Ongoing Assessment and                         Conference
Review Strategy Consultant Training
Conference                                                 z   The Director, Information Technology Audit
                                                           Operations Division, made a presentation on the
z   The Director, Los Angeles Healthcare                   OIG viewpoint of the state of VA security at the
Inspections Regional Office, and an Audit                  national information security conference in
Manager, Seattle Audit Operations Division, made           Atlanta, and national IT conference in Austin.
a presentation on CAP reviews and recent findings          Over 1,200 VA staff attended the security
to VHA employees training as consultants at their          conference and over 2,000 attended the IT
conference in Portland, Oregon.                            conference.

                                                           VISN Chief Financial Officer’s (CFO)
VISN 17 Management
                                                           Conference
z   The Healthcare Inspections staff from the              z   The Program Manager in the Financial Audits
Dallas Regional Office met with VISN 17                    Division made a presentation on financial audit
employees and provided an overview of CAP and              issues to the conference attendees.
hotline review processes and discussed possible
review areas for future CAPs.                              United American Nurses, AFL-CIO
                                                           Conference
VHA Lecture Series on Workers’
Compensation Program Issues                                z   The Director, Hotline Division, made a
                                                           presentation to the United American Nurses,
z   The Project Manager, Central Office Audit              AFL-CIO in Seattle, Washington, on
Division, and the Office of Investigations Program         September 21. The Director covered such topics
Director made a presentation on identifying and            as how to report allegations to the OIG Hotline
reporting WCP fraud as part of the monthly lecture         and what kinds of complaints result in an OIG
series.                                                    investigation. The group included 29 nurses, who
                                                           were interested in learning about the VA OIG
Washington Chapter of the Association                      Hotline.
of Certified Fraud Examiners

z  The Director, Central Office Audit Division,
and the Project Manager made a presentation on



                                                     60

                                                                           Other Significant OIG Activities

Federal Health Care Acquisition                             Awards and Special Thanks
Conference
                                                            Military Order of the Purple Heart
z     The Counselor to the Inspector General, and           Ceremony
representatives from the OIG's Contract Review
and Evaluation Division made three presentations            z    In May 2004, the Inspector General spoke at
to industry at the conference. The presentations            an award ceremony held in Tampa, FL. Special
included: (i) how and where to make voluntary               Agents Mott Heath and William Chirinos each
disclosures and conducting of self audits;                  received the National Commander’s Law
(ii) justification for contracting with affiliates,         Enforcement Award. Special Agent Mott Heath
solicitation provisions, proposal reviews, costs            was responsible for identifying a VA pharmacy
issues, and ongoing issues; and (iii) effects of a          technician and a purchasing agent who conspired
Public Law on VA awarded FSS pharmaceutical                 to divert over 600,000 tablets of hydrocodone
contracts.                                                  and alprazolam from a VA outpatient clinic.
                                                            Special Agent William Chirinos played a critical
9th Annual Medicare Drug Rebate                             role in the successful investigation and prosecution
Conference                                                  of a high profile false benefits case. The
                                                            investigation revealed the subject had fraudulently
z    A representative from the OIG’s Contract               collected over $385,000 in veterans’ disability
Review and Evaluation Division made a                       benefits.
presentation to industry at the conference. The
presentation covered the new TRICARE retail                 American Organization of Nurse
pharmacy benefit and the impact on Federal                  Executive
ceiling price calculations.
                                                            z   Verena Briley-Hudson, Director, Chicago
Office of Acquisition and Materiel                          Healthcare Inspections Regional Office, was
Management's Acquisition Forum                              chosen by the American Organization of Nurse
                                                            Executives (AONE) as one of only 12 nurse
z   A representative from the OIG’s Contract                leaders to appear on its 2005 Nurse Leader
Review and Evaluation Division made a                       calendar. Nursing Spectrum, a Journal for Nurse
presentation to VA contracting personnel. The               Leaders, is producing the calendar. Ten thousand
presentation covered various aspects of                     copies of this calendar will be distributed
contracting with affiliates for health care                 nationwide.
resources.
                                                            Letter of Appreciation

                                                            z    Verena Briley-Hudson, Director, Chicago
                                                            Healthcare Inspections Regional Office, received
                                                            a letter of thanks from the American Association
                                                            of Spinal Cord Injury Nurses’ Professional Issues
                                                            Committee chairperson for writing health care-




                                                      61

Other Significant OIG Activities

related legislative alerts which are posted on the         OIG efforts during the last year to protect our
Association’s web page to assist in keeping                Nation’s veterans and to identify and eliminate
members informed about noteworthy issues.                  criminal activity, waste, abuse, and
Ms. Briley-Hudson has also agreed to accept the            mismanagement in programs administered by VA.
challenge of being the new Professional Issues
Committee chairperson for a 2-year term.                   z    The Assistant Inspector General for Auditing
                                                           testified at a hearing before the Subcommittee on
                                                           Oversight and Investigations, House Committee
Training, Exposure, Experience
                                                           on Veterans’Affairs. This was the fourth hearing
Tournament for Blinded Veterans
                                                           on VA’s third party collections.
z   Paula Chapman, Certified Therapeutic
Recreation Specialist, Chicago Healthcare
Inspections Regional Office, was selected to
assist with the Training, Exposure, Experience
Tournament for Blinded Veterans hosted by the
Iowa City VAMC, and co-sponsored by VA and
the Blinded Veterans Association. Participants
are U.S. veterans who are legally blind and are
VA patients. The tournament accepts 140
participants, and over 270 VA and community
volunteers help host this annual event.

VA Wheelchair Games

z   Joseph Vallowe, then Director, Operational
Support Division, Office of Management and
Administration, provided support at the 24th                         24th Annual National Veterans
Annual National Veterans Wheelchair Games held                             Wheelchair Games
                                                                            St. Louis, MO
at St. Louis, MO, June 15 - 19, 2004.
                                                                              June 2004
Mr. Vallowe worked as an event photographer.

OIG Congressional Testimony

z   The Inspector General, accompanied by the
Assistant Inspector General for Healthcare
Inspections, testified before the House Committee
on Veterans’Affairs. The testimony highlighted




                                                     62

  Report                                                         Funds Recommended
 Number/                                     APPENDIX A              for Better Use  Questioned
Issue Date                       Report Title                     OIG     Management  Costs

                              DEPARTMENT OF VETERANS AFFAIRS

                                OFFICE OF INSPECTOR GENERAL

                                    REVIEWS BY OIG STAFF



  Report                                                         Funds Recommended
 Number/                                                             for Better Use  Questioned
Issue Date                      Report Title                      OIG     Management  Costs

COMBINED ASSESSMENT PROGRAM REVIEWS

03-03207-120   Combined Assessment Program Review of the Togus   $870,600   $870,600

04/2/04        VA Medical Center Togus, ME

04-00009-126   Combined Assessment Program Review of the          $12,139   $12,139

4/13/04        VA Regional Office Albuquerque, NM

04-00403-128   Combined Assessment Program Review of the
4/14/04        Northport VA Medical Center Northport, NY

04-00755-129   Combined Assessment Program Review of the          $37,600    $37,600
4/15/04        VA Regional Office Salt Lake City, UT

04-00356-130   Combined Assessment Program Review of the
4/16/04        VA Maryland Health Care System Baltimore, MD

04-00947-137   Combined Assessment Program Review of the         $338,969   $338,969
4/27/04        VA Regional Office Winston-Salem, NC

03-02729-140   Combined Assessment Program Review of the
5/6/04         VA Ann Arbor Healthcare System Ann Arbor, MI

04-00034-141   Combined Assessment Program Review of the         $365,032   $365,032
5/7/04         VA Regional Office Detroit, MI

04-01096-162   Combined Assessment Program Review of the          $55,799   $55,799
7/2/04         VA Medical Center Bath, NY

04-00928-164   Combined Assessment Program Review of the         $103,399   $103,399
7/15/04        VA Medical Center Chillicothe, OH

04-01345-165   Combined Assessment Program Review of the         $527,596   $527,596
7/15/04        VA Regional Office Seattle, WA

04-00931-166   Combined Assessment Program Review of the         $108,800   $108,800    $270,266
7/15/04        VA Medical Center Tuscaloosa, AL

04-00489-167   Combined Assessment Program Review of the          $13,000    $13,000
7/15/04        Southern Nevada Healthcare System Las Vegas,
               NV


                                                       63
  Report                                                            Funds Recommended
 Number/                                                                for Better Use  Questioned
Issue Date                       Report Title                        OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS (cont’d)

03-03038-168   Combined Assessment Program Review of the              $55,234      $55,234
7/15/04        Aleda E. Lutz VA Medical Center Saginaw, MI

04-00602-171   Combined Assessment Program Review of the             $338,732     $338,732
7/30/04        VA Medical Center Battle Creek, MI

04-00627-172   Combined Assessment Program Review of the              $19,613      $19,613     $57,000
7/30/04        Northampton VA Medical Center Leeds, MA

04-00566-173   Combined Assessment Program Review of the
8/9/04         Amarillo VA Medical Care System Amarillo, TX

04-01456-181   Combined Assessment Program Review of the              $13,500      $13,500
8/13/04        Carl T. Hayden VA Medical Center Phoenix, AZ

04-01946-188   Combined Assessment Program Review of the
8/27/04        VA Gulf Coast Health Care System Biloxi, MS

04-01524-189   Combined Assessment Program Review of the             $393,135     $393,135
8/27/04        VA Regional Office Lincoln, NE

04-00631-190   Combined Assessment Program Review of the             $196,000     $196,000
8/27/04        VA Medical Center Memphis, TN

04-00230-191   Combined Assessment Program Review of the                $3,224      $3,224
8/27/04        El Paso VA Health Care System El Paso, TX

04-00937-196   Combined Assessment Program Review of the              $14,499      $14,499    $146,867
8/30/04        VA Chicago Health Care System Chicago, IL

04-01128-201   Combined Assessment Program Review of the             $715,833     $715,833
9/7/04         Portland VA Medical Center Portland, OR

04-00540-208   Combined Assessment Program Review of the             $215,094     $215,094
9/24/04        VA Medical Center Beckley, WV

04-01619-211   Combined Assessment Program Review of the               $5,773       $5,773    $114,058
9/24/04        VA Medical Center Erie, PA

04-01863-219   Combined Assessment Program Review of the            $1,496,552   $1,496,552
9/28/04        William Jennings Bryan Dorn VA Medical Center
               Columbia, SC

04-01016-220   Combined Assessment Program Review of the            $1,065,550   $1,065,550
9/29/04        VA Regional Office Jackson, MS

04-01718-222   Combined Assessment Program Review of the             $652,400     $652,400
9/29/04        North Florida/South Georgia Veterans Health System



                                                        64
  Report                                                              Funds Recommended
 Number/                                                                  for Better Use  Questioned
Issue Date                        Report Title                         OIG     Management  Costs

JOINT REVIEW

04-01371-177   Issues at VA Medical Center Bay Pines, Florida
8/11/04        and Procurement and Deployment of the Core
               Financial and Logistics System (CoreFLS)

INTERNAL AUDITS

03-01237-132   Management Letter, Audit of VA’s Fiscal Years
4/19/04        2003 and 2002 Consolidated Financial Statements
               General Computer Controls Review at the Austin
               Automation Center

03-01237-133
4/19/04        Management Letter, Audit of VA’s Fiscal Years
               2003 and 2002 Consolidated Financial Statements
               General Computer Controls Review at the
               Philadelphia Information Technology Center and
               Insurance Center

03-01237-134   Management Letter, Audit of VA’s Fiscal Years
4/19/04        2003 and 2002 Consolidated Financial Statements
               General Computer Controls Review at the Hines
               Information Technology Center

02-03056-182   Follow-Up Audit of Department of Veterans           $696,200,000   $696,200,000
8/13/04        Affairs Workers’ Compensation Program Cost

03-01237-192   Management Letter, Audit of VA’s Fiscal Years
8/26/04        2003 and 2002 Consolidated Financial Statements
               Compensation and Pension Application Follow-Up
               Review

03-01237-193   Management Letter, Audit of VA’s Fiscal Years
8/26/04        2003 and 2002 Consolidated Financial Statements
               Financial Management System Application Follow-Up
               Review

03-01237-194   Management Letter, Audit of VA’s Fiscal Years
8/26/04        2003 and 2002 Consolidated Financial Statements
               Personnel and Accounting Integrated Data
               Application Follow-Up Review

03-01237-195   Management Letter, Audit of VA’s Fiscal Years
8/26/04        2003 and 2002 Consolidated Financial Statements
               Loan Guaranty System Application Follow-Up Review




                                                          65
  Report                                                             Funds Recommended
 Number/                                                                 for Better Use  Questioned
Issue Date                        Report Title                        OIG     Management   Costs


INTERNAL AUDITS (Cont’d)

03-01237-198	   Management Letter, Audit of VA’s Fiscal Years
8/30/04	        2003 and 2002 Consolidated Financial Statements
                Integrated Funds Distribution, Control Point
                Activity, Accounting and Procurement
                Application Review

OTHER OFFICE OF AUDIT REVIEWS

02-01481-135    Evaluation of the Department of Veterans Affairs
4/26/04         Government Purchase Card Program

04-01757-205    Evaluation of Allegation of Physician Time and
9/10/04         Attendance Abuse at the Salem VA Medical
                Center Salem, VA

04-00310-212    Evaluation of Veterans Health Administration’s
9/27/04         Transitional Pharmacy Benefit


CONTRACT PREAWARD REVIEWS

04-00279-121	   Review of Federal Supply Schedule Proposal           $960,770      $960,770
4/1/04	         Submitted by Novo Nordisk Pharmaceuticals,
                Incorporated, Under Solicitation Number M5-
                Q50A-03

04-00854-122	   Review of Proposal Submitted by Indiana             $1,775,424    $1,775,424
4/2/04	         University Under Solicitation Number 583-48-03
                for Vascular Surgeon Services at Richard L.
                Roudebush VA Medical Center

04-00899-123	   Review of Proposal Submitted by Indiana              $261,926      $261,926
4/2/04	         University Under Solicitation Number 583-47-03
                for Vascular Technologist Services at Richard L.
                Roudebush VA Medical Center

04-00066-124    Review of Federal Supply Schedule Proposal         $20,687,256   $20,687,256
4/2/04          Submitted by Upsher-Smith Laboratories, Inc.,
                Under Solicitation Number M5-Q50A-03

04-00459-125    Review of Federal Supply Schedule Proposal
4/5/04          Submitted by UDL Laboratories Under
                Solicitation Number M5-Q50A-03




                                                          66

  Report                                                           Funds Recommended
 Number/                                                               for Better Use  Questioned
Issue Date                        Report Title                      OIG     Management  Costs


CONTRACT PREAWARD REVIEWS (Cont’d)

03-03056-127    Review of Federal Supply Schedule Proposal       $24,492,896   $24,492,896
4/8/04          Submitted by Bristol-Myers Squibb Company US
                Medicines Group Under Solicitation Number
                M5-Q50A-03

04-00385-131   Review of Federal Supply Schedule Proposal
4/15/04        Submitted by Baxter Healthcare Corporation,
               Medication Delivery, Under Solicitation Number
               M5-Q50A-03

04-00573-142   Review of Federal Supply Schedule Proposal         $2,519,792    $2,519,792
5/6/04         Submitted by Mallinckrodt, Inc., Under
               Solicitation Number M5-Q50A-03

04-01413-143   Review of Federal Supply Schedule Proposal
5/10/04        Submitted by Purdue Pharma L.P. Under
               Solicitation Number M5-Q50A-03

04-00415-146   Review of Federal Supply Schedule Proposal
5/11/04        Submitted by Genzyme Corporation Under
               Solicitation Number M5-Q50A-03

04-00879-147   Review of Federal Supply Schedule Proposal         $3,849,544    $3,849,544
5/14/04        Submitted by Organon USA Inc., Under
               Solicitation Number M5-Q50A-03

04-00574-152   Review of Federal Supply Schedule Proposal          $306,492       $306,492
6/1/04         Submitted by Aventis Pharmaceuticals, Inc.,
               Under Solicitation Number M5-Q50A-03

04-00458-156   Review of Federal Supply Schedule Proposal
6/14/04        Submitted by Medimmune, Inc., Under
               Solicitation Number M5-Q50A-03

04-01381-158   Review of Proposal Submitted by University of        $17,376        $17,376
6/17/04        Nevada - Reno Under Solicitation Number 261-
               0065-04 for Medical Officer of the Day Services
               at VA Sierra Nevada Health Care System

04-00280-159   Review of Federal Supply Schedule Proposal
6/23/04        Submitted by Baxter Healthcare Corporation
               Under Solicitation Number M5-Q50A-03

04-00416-160   Review of Federal Supply Schedule Proposal          $133,402       $133,402
6/28/04        Submitted by Baxter Healthcare Corp. Anesthesia
               and Critical Care Under Solicitation Number M5-
               Q50A-03



                                                          67
  Report                                                         Funds Recommended
 Number/                                                             for Better Use  Questioned
Issue Date                        Report Title                    OIG     Management   Costs

CONTRACT PREAWARD REVIEWS (Cont’d)

04-00569-161   Review of Federal Supply Schedule Proposal       $9,745,556    $9,745,556
6/30/04        Submitted by Solvay Pharmaceuticals, Inc.,
               Under Solicitation Number M5-Q50A-03

04-00865-157   Review of Proposal Submitted by New York
7/6/04         University Under Solicitation Number RFQ
               10N3-273-03 for Radiology Services at New
               York Harbor Health Care System

04-01304-163   Review of Federal Supply Schedule Proposal        $3,940,030    $3,940,030
7/6/04         Submitted by Abbott Laboratories, Inc., Under
               Solicitation Number RFP-797-FSS-03-0001

04-00191-174   Review of Federal Supply Schedule Proposal
8/9/04         Submitted by Amersham Health Under
               Solicitation Number M5-Q50A-03

04-00198-178   Review of Federal Supply Schedule Proposal       $26,016,920   $26,016,920
8/10/04        Submitted by Ethex Corporation Under
               Solicitation Number M5-Q50A-03

04-02273-179   Review of Federal Supply Schedule Proposal
8/10/04        Submitted by Procter & Gamble Pharmaceuticals,
               Inc., Under Solicitation Number M5-Q50A-03

04-01874-180   Review of Federal Supply Schedule Proposal         $647,688      $647,688
8/10/04        Submitted by Novartis Pharmaceuticals
               Corporation Under Solicitation Number
               M5-Q50A-03

04-00651-176   Review of Federal Supply Schedule Proposal        $2,706,840    $2,706,840
8/13/04        Submitted by Forest Laboratories, Inc., Under
               Solicitation Number M5-Q50A-03

04-01414-185   Review of Federal Supply Schedule Proposal         $969,469      $969,469
8/16/04        Submitted by Berlex Laboratories, Inc., Under
               Solicitation Number M5-Q50A-03

04-00863-197   Review of Federal Supply Schedule Proposal        $2,344,651    $2,344,651
8/26/04        Submitted by AGFA Corporation Under
               Solicitation Number RFP-797-655A-99-0001

04-01042-199   Review of Federal Supply Schedule Proposal        $5,569,878   $5,569,878
8/30/04        Submitted by Allergan Sales, LLC Under
               Solicitation Number M5-Q50A-03




                                                         68
  Report                                                            Funds Recommended
 Number/                                                                for Better Use  Questioned
Issue Date                        Report Title                       OIG     Management  Costs

CONTRACT PREAWARD REVIEWS (Cont’d)

04-02200-200   Review of Federal Supply Schedule Proposal
8/30/04        Submitted by Serono, Inc., Under Solicitation
               Number M5-Q50A-03

04-02198-186   Review of Federal Supply Schedule Proposal          $2,414,110    $2,414,110
9/2/04         Submitted by E. Fougera & Company, Division
               of Altana, Inc., Under Solicitation Number M5-
               Q50A-03

04-01303-202   Review of Federal Supply Schedule Proposal
9/7/04         Submitted by Bayer Healthcare LCC, Diagnostics
               Division, Under Solicitation Number RFP-797-
               FSS-03-0001

04-02555-207   Review of Federal Supply Schedule Proposal
9/16/04        Submitted by Shire US Incorporated Under
               Solicitation Number M5-Q50A-03

04-01436-209   Review of Federal Supply Schedule Proposal           $716,716      $716,716
9/21/04        Submitted by Kremers Urban, Inc., Under
               Solicitation Number M5-Q50A-03

04-02041-210   Review of Federal Supply Schedule Proposal           $633,393      $633,393
9/21/04        Submitted by Amgen Inc., Under Solicitation
               Number M5-Q50A-03

04-01962-213   Review of Federal Supply Schedule Proposal         $10,311,315   $10,311,315
9/22/04        Submitted by Pliva, Inc., Under Solicitation
               Number M5-Q50A-03

04-02702-214   Review of Proposal Submitted by the University       $162,651      $162,651
9/22/04        of Pittsburgh Physicians Under Solicitation
               Number 244-04-00260 for Anesthesiology
               Physician Services at the Department of Veterans
               Affairs Pittsburgh Health Care System

04-01762-215   Review of Federal Supply Schedule Proposal
9/22/04        Submitted by Eli Lilly and Company Under
               Solicitation Number M5-Q50A-03

04-01539-217   Review of Federal Supply Schedule Proposal
9/22/04        Submitted by Bracco Diagnostics, Inc., Under
               Solicitation Number M5-Q50A-03




                                                          69
  Report                                                          Funds Recommended
 Number/                                                              for Better Use  Questioned
Issue Date                        Report Title                     OIG     Management   Costs

CONTRACT PREAWARD REVIEWS (Cont’d)

04-02503-223   Review of Proposal Submitted by the University      $54,106   $54,106
9/28/04        of Pittsburgh Physicians Under Solicitation
               Number 244-04-00305 for Critical Care Medicine
               Physician Services at the Department of Veterans
               Affairs Pittsburgh Health Care System

04-02772-224   Review of Proposal Submitted by the University     $281,305   $281,305
9/28/04        of Miami, School of Medicine, Under Solicitation
               Number 546-69-04 for Otolaryngology Services
               at the Department of Veterans Affairs Medical
               Center, Miami


CONTRACT POSTAWARD REVIEWS

04-01410-119   Verification of Johnson & Johnson Health Care                              $1,996
4/1/04         Systems, Inc. - Alza Products’ Self-Audit Under
               Federal Supply Contract Number V797P-5215x

04-01274-136   Verification of UCB Pharma, Inc.’s Self-Audit                             $44,734
4/22/04        Under Federal Supply Schedule Contract Number
               V797P-5404x

04-01408-144   Verification of Aventis Pharmaceuticals’ Self-                           $142,420
5/11/04        Audit Under Federal Supply Schedule Contract
               Number V797P-5155x

04-01409-145   Verification of Johnson & Johnson Health Care                             $39,722
5/11/04        Systems, Inc., - Ortho-McNeil’s Self-Audit Under
               Federal Supply Schedule Contract Number
               V797P-5438x

03-02672-148   Review of Terumo Medical Corporation’s Self-                              $32,531
5/14/04        Audit of Federal Supply Schedule Contract
               V797-3741k

02-01320-149   Settlement Agreement with a Medical Supply                               $183,000
5/17/04        Manufacturer

04-02586-170   Verification of Bausch & Lomb’s Self-Audit                                   $84
7/15/04        Under Federal Supply Schedule Contract Number
               V797P-5279x

04-00572-204   Review of Proposed Settlement by Ivax                                    $103,786
9/9/04         Pharmaceuticals, Inc., Under Federal Supply
               Schedule Contract Number V797P-5305x




                                                          70
  Report                                                               Funds Recommended
 Number/                                                                   for Better Use  Questioned
Issue Date                        Report Title                          OIG     Management  Costs

CONTRACT POSTAWARD REVIEWS (Cont’d)

04-03094-216   Verification of Bertek Pharmaceuticals Inc.’s Self-                                $67,718
9/22/04        Audit Under Federal Supply Schedule Contract Number
               V797P-5150X

03-03021-218   Review of Forest Laboratories, Inc.’s Billings                                    $489,591
9/27/04        Under Federal Supply Schedule Contract Number
               V797P-5346x


HEALTHCARE INSPECTIONS

03-00391-138   Healthcare Inspection, Veterans Health
5/3/04         Administration’s Community Residential Care
               Program

02-01747-139   Healthcare Inspection, Healthcare Program
5/3/04         Evaluation Veterans Health Administration’s
               Management of Violent Patients

03-02110-150   Healthcare Inspection, Quality of Care Issues,
5/20/04        Washington DC Veterans Affairs Medical Center

04-00037-151   Healthcare Inspection, Inspection of Patient Care
5/28/04        and Environmental Issues on the Spinal Cord
               Injury Unit, VA Medical Center San Juan, PR

04-01371-153   Healthcare Inspection, Review of Quality of Care
6/4/04         and Communication Issues, Department of
               Veterans Affairs Medical Center Bay Pines, FL

03-00312-169   Summary Report, Healthcare Inspection,
7/14/04        Evaluation of Quality Management in Veterans
               Health Administration Facilities, Fiscal Year
               2003

04-00275-175   Healthcare Inspection, Allegations of Abuse of
8/6/04         Power and Increased Morbidity and Mortality,
               Department of Surgery, VA Medical Center
               Memphis, TN

03-00079-183   Healthcare Inspection, Evaluation of Nurse            $42,448,300   $42,448,300
8/13/04        Staffing in Veterans Health Administration
               Facilities




                                                            71
  Report                                                              Funds Recommended
 Number/                                                                  for Better Use  Questioned
Issue Date                        Report Title                         OIG     Management   Costs

HEALTHCARE INSPECTIONS (Cont’d)
04-00225-184   Healthcare Inspection, Patient Travel and
8/13/04        Contract Transportation Deficiencies, VA
               Medical Center Augusta, GA

01-00637-203   Healthcare Inspection, Controlled Substances
9/9/04         Management Issues, VA San Diego Healthcare
               System San Diego, CA


ADMINISTRATIVE INVESTIGATIONS

03-02592-154   Administrative Investigation, Physician Time and
6/21/04        Attendance Issue, VA Greater Los Angeles
               Health Care System West Los Angeles, CA

03-02607-155   Administrative Investigation, Physician Time and
7/29/04        Attendance Issue, VA Maryland Health Care
               System Baltimore, MD

04-00075-187   Administrative Investigation, Misuse of Funds
8/23/04        Issue, Office of Cyber and Information Security,
               VA Central Office and Martinsburg, WV

04-01028-206   Administrative Investigation, Preferential
9/14/04        Treatment, VA Medical Center Battle Creek, MI




TOTAL          105 Reports                                        $867,785,879
                                                                                 $867,785,879
                                                                                                $1,693,773




                                                           72
                                             APPENDIX B


            STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR


The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management decisions and
implementation of OIG recommendations. It states a Federal agency shall complete final action on each
recommendation in an OIG report within 12 months after the report is finalized. If the agency fails to
complete final action within this period, the OIG will identify the matter in its semiannual report to Congress
until the final action is completed. This appendix summarizes the status of OIG unimplemented reports and
recommendations.

The OIG requires that management officials provide documentation showing the completion of corrective
actions on OIG recommendations. In turn, OIG reviews status reports submitted by management officials
to assess both the adequacy and timeliness of agreed-upon implementation actions. When a status report
adequately documents corrective actions, OIG closes the recommendation. If the actions do not implement
the recommendation, we continue to monitor progress.

The following chart lists 62 unimplemented OIG reports by VA. It also identifies 5 unimplemented reports
and recommendations issued over 1 year ago (September 30, 2003, and earlier).


                             U nimplemented OIG R eports and R ecommendations

                              VA                   Total              Issued 9/30/03,
                             Office                                     and Earlier

                                          R epts       R ecoms       R epts      R ecoms

                             VHA            47             284         4            33

                             VBA             4             13           1            5

                             OI&T            4               32        0             0

                              OM             4               17        0             0

                             OHRA            2               17        0             0

                             OPPP            1                3        0             0

                             Total          62*            366         5            38




* There are 54 total unimplemented reports. We have listed 62 reports because six reports have actions for
two or more offices.

Office of Information and Technology (OI&T)

Office of Management (OM)

Office of Human Resources and Administration (OHRA)

Office of Policy, Planning, and Preparedness (OPPP)



                                                       73

The OIG is particularly concerned with one report on VBA operations (issued in July 2000) and one report
on VHA operations (issued in March 2002) with recommendations that still remain open. The following
information provides a summary of reports over 1 year old with open recommendations.



Veterans Benefits Administration
Unimplemented Recommendations and Status

Report: Audit of the C&P Program’s Internal Controls at VARO St. Petersburg, FL, 99-00169-97,
7/18/00

Recommendations: The Under Secretary for Benefits should:
 1.	 Establish a positive control Benefits Delivery Network (BDN) system edit keyed to an
     employee identification number that ensures employee claims are adjudicated only at the assigned
     regional office of jurisdiction and prevents employees from adjudicating matters involving fellow
     employees and veterans service officers at their home office.
 2.	 Establish a BDN system field for third-person authorization and a control to prevent

     release of payments greater than $15,000 without the third-person authorization.

 3.	 Determine the feasibility of direct input and storage of rating decisions in BDN.
 4.	 Take steps necessary to make use of Social Security Numbers (SSNs) as employee

     identification numbers, and tie BDN access to SSNs.

 5.	 Ensure perpetual BDN transaction files are maintained that include a unique user

     identification number identifying the employees associated with the recorded transactions.


Status:
1 and 2. As the Modern Award Processing system is designed, this control will be incorporated. Beta
testing of the system began in March 2004. This control will be implemented in the final stages of
deployment that is scheduled for completion in December 2005.
3. The validation to ensure outstanding defects impeding the 100 percent use of the Rating Board
Automation 2000 application is expected to be completed in November 2005. Upon conclusion, VBA will
determine the feasibility and schedule for the retirement of the old application.
4 and 5. VBA created a perpetual user logon history reference table in the corporate database that will
perpetually list SSNs, user identifications, and station numbers. The table will be operational in November
2004.

                                                **********




                                                    74

Veterans Health Administration
Unimplemented Recommendations and Status

Report: Review of Security and Inventory Controls Over Selected Biological, Chemical, and
Radioactive Agents Owned by or Controlled at VA Facilities, 02-00266-76, 3/14/02

Recommendations: The Under Secretary for Health, in conjunction with senior policy, research, and
operations managers, need to:
  1.	 Redefine and strengthen security and access requirements and procedures for safeguarding high-risk
        agents and materials used in VA facilities, such as the agents on the Centers for Disease Control and
        Prevention Select Agents List, other biological agents, toxic chemicals, and certain pharmaceuticals
        that might be targeted for use by terrorists.
  2.	 Improve personnel access controls and reduce vulnerabilities to theft of selected agents by
        implementing measures such as the consistent use of photo identification badges with expiration
        dates, installation of electronically controlled entry points to and from sensitive areas, and use of
        key-card systems, video surveillance, and/or biometric systems.
  3.	 Review documents related to VA leased-space to others for research use (e.g., to an affiliated

        university) to ensure that VA’s agreements define security responsibilities and limitations.

  4.	 Clarify VA’s accountability and responsibilities for actions of non-VA persons providing professional
        oversight of VA or non-VA research in VA facilities or in VA space leased to other institutions.
  5.	 Strengthen controls for authorizing and procuring high-risk materials and agents including biological
        agents, and ensure that inventory, transfer, and validated destruction policies and procedures
        account for biological agents and chemicals at all times. Additionally, procedures should outline
        appropriate requirements for the use of witnesses to verify transfer and destruction processes.
  6.	 Require managers to transfer, dispose of, or establish delimiting dates on select agents no longer in
        use and stored in research and clinical laboratories.
  7.	 Reevaluate the extent of compliance with radiation safety and handling/delivery procedures,
        particularly vendor deliveries after regular working hours and on weekends. In addition, facility
        managers should require contractors and vendors to provide evidence that background and legal
        histories on their employees are checked before they are allowed to access sensitive VA areas.
  8.	 Strengthen human resource management controls and procedures to consistently verify or update
        non-citizens’ legal residence or employment status while working in VA facilities or on VA matters,
        including students and contractors.
  9.	 Reevaluate the adequacy of security clearance level requirements for employees who could have
        access to or work with highly sensitive agents and materials.
  10.	 Take action on non-citizen employees without valid legal status and notify appropriate legal

        authorities.

  11.	 Take action on any noncitizens with access to VHA research and clinical laboratories if they are
        considered “restricted persons” according to the USA PATRIOT Act.
  12.	 Ensure clearance and checkout procedures extend to employees without compensation and

        contract employees.

  13.	 Issue guidance to revise local disaster plans to include provisions for responding to terrorist

        activities.




                                                     75

  14.	 Direct managers at all facilities to perform vulnerability assessments of their physical research and
       clinical laboratories and consistently implement security measures.
  15.	 Provide researchers and other appropriate personnel necessary training on security issues, including
       security of high-risk and sensitive agents, and procedures to forward requests for research articles
       through their managers and the facility Freedom of Information Act officer.

Status: In March 2002, the VA Deputy Secretary requested the VA staff to issue a joint report by
September 30, 2002, certifying that all the OIG recommendations had been completed. However, as of
September 30, 2004, 15 of 16 recommendations remain unimplemented. Most of the report’s
recommendations were made to the Under Secretary for Health; however, several recommendations
required joint efforts on the part of VHA and the Office of Security and Law Enforcement. During this
semiannual period, the Office of Security and Law Enforcement completed their actions by revising two
security publications. Also, VHA issued handbooks for control of hazardous agents in VA research
laboratories, and for pathology and laboratory medicine biosecurity and biosafety.

VHA plans to issue research and clinical checklists so facilities can reassess the criteria and implement the
requirements in the recently issued publications. VHA plans to submit a consolidated certification to the
OIG later this year that shows all VAMC directors certify implementation of the directives and security
requirements. The purpose of the certification requirement is to document compliance with the directives
and provide assurance that the intent of the OIG recommendations to address all the security and control
vulnerabilities presented in the report have been addressed and corrected at each facility. In September
2004, the Under Secretary for Health committed to the VA Deputy Secretary that VHA will complete
certification of guidance by December 31, 2004.

A VHA-specific training program is being developed that will reflect requirements in the new research
laboratories handbook. VHA is also developing a Web-based educational program that outlines security
training requirements that will be available through the Intranet in late January 2005. VHA will also develop
procedures to forward requests for research articles to the facility Freedom of Information Act officer.
VHA initiated a program to spend more than $2 million to upgrade laboratory security in February 2002.
Of the 64 research sites identified as needing upgrades, 62 sites have been funded for a total of
$2.35 million. Funding for the remaining two sites will be distributed in the 1st quarter, FY 2005.

                                                  **********

Report: Healthcare Inspection, Patient Care Issues, Department of Veterans Affairs Hudson Valley
Health Care System, Franklin Delano Roosevelt Campus, Montrose, NY, 02-02374-08, 10/18/02

Recommendation:
   1.	 The VISN Director should ensure that the VA Hudson Valley Health Care System Director brings
       the Franklin Delano Roosevelt campus Residential Care Program into compliance with VHA policy
       by ensuring that all VA-sponsored homes meet all State and local requirements.

Status: As of September 30, 2004, there are 45 veterans residing in 7 unlicensed community residential
care homes, as compared to 182 veterans in 28 unlicensed homes on October 1, 2002. The VA Hudson
Valley Health Care System continues facilitating the licensure process of the homes by working closely with
the VA Central Office program office (VHA Chief Consultant for Geriatrics and Extended Care); the New


                                                       76

York State Department of Health and Office of Child and Family Services; and the VA-sponsored homes.
The homes are inspected regularly and provisions are in place for immediately relocating the veterans from a
home if a home fails to meet inspection requirements. The veterans will be relocated should a home fail to
demonstrate a good faith effort in the licensure process. The Health Care System anticipates that all homes
will be licensed by the end of April 2005.

                                           **********
Report: Healthcare Inspection, Evaluation of the VHA’s Contract Community Nursing Home (CNH)
Program, 02-00972-44, 12/31/02

Recommendations: The Under Secretary for Health needs to ensure that:
  1.	 VHA medical facility managers devote the necessary resources to adequately administer the CNH
      program.
  2.	 VHA medical facility managers emphasize the need for CNH review teams to access and critically
      analyze external reports of incidents of patient abuse, neglect, and exploitation, and to increase their
      efforts to collaborate with state ombudsman officials.
  3.	 Coordinate efforts with the Under Secretary for Benefits to determine how VHA CNH managers
      and VBA fiduciary and field examination employees can most effectively complement each other
      and share information such as medical record competency notes, on-line survey certification and
      reporting data, and VBA reports of adverse conditions, to protect the financial interests of veterans
      receiving health care and VA-derived benefits.

Status: As of September 30, 2004, 3 of 11 recommendations remain unimplemented pending actions by
the VHA Chief Consultant for Geriatrics and Extended Care. The revised VHA handbook on CNH
oversight was published in June 2004. VHA needs to finalize new performance indicators; upgrade the
CNH website from the prototype to a finalized site; demonstrate that community health nurses and social
workers are visiting veterans in CNHs per the frequency established in the CNH handbook; and finalize the
implementation plan/coordinated efforts on how VHA CNH and VBA fiduciary and field examination
employees can most effectively complement each other and share information. Completion of all the actions
is expected by March 2005.

                                                  **********

Report: Audit of VHA’s Part-Time Physician Time and Attendance, 02-01339-85, 4/23/03

Recommendation 1: To improve physician timekeeping, we recommend that the Under Secretary for
Health:
 a.	 Determine what reforms are needed to ensure VA physician timekeeping practices are effective in an
        academic medicine environment and VA physicians are paid only for time and service actually
        provided, and recommend statutory or regulatory changes needed to implement the reforms and
        publish appropriate policy and guidance.
 b.	 Establish performance monitors to measure VISN and VAMC enforcement of physician time and
        attendance.
 c.	 Ensure desk audits are conducted of timekeeping functions.
 d.	 Provide continuing timekeeping education to supervisors, physicians, and timekeepers.
 e.	 Require VAMC managers to certify compliance with applicable policies and procedures to the

        Deputy Under Secretary for Operations and Management annually.


                                                      77

  f.	   Hold VHA managers accountable for successful implementation of time and attendance

        requirements.

  g.	   Evaluate appropriate technological solutions that will facilitate physician timekeeping.
  h.	   Develop comprehensive guidance for VAMCs to use when conducting desk audits.
  i.	   Establish appropriate training modules, making best use of technological solutions, for training VHA
        managers, VA physicians, and timekeepers in timekeeping requirements, responsibilities, and
        procedures.

Recommendation 2: To better align physician staffing with patient care workload, we recommend that the
Under Secretary for Health:
 a.	   Publish policy and guidance that incorporates the use of workload analysis to determine the number
       of physicians needed to provide timely, cost effective, and quality service to veterans seeking care
       from VA.
 b.	 Require VAMCs to review their staffing structures (such as part-time, full-time, intermittent, or fee
       basis) and determine if these appointments are appropriate to the needs of the medical center.
 c.	   Require that VISN and VAMC directors reassess staffing requirements annually and certify their

       staffing decisions to VHA’s Deputy Under Secretary for Operations and Management.

 d.	 Evaluate alternative methods to acquire physician services and publish national guidance to assist

       VISN and VAMC directors in determining the best strategies for their regional, academic, and

       patient care circumstances.

 e.	   Publish guidance describing how VISN and VAMC managers should determine, monitor, and

       communicate the allocation of physician time among patient care, administrative duties, academic

       training, and medical research.


Status: As of September 30, 2004, 14 of 16 recommendations remain unimplemented pending actions by
a number of VHA staff offices. VHA now conducts a monthly random sample of the part-time physicians at
each facility to verify the presence of these physicians either through electronic means or by direct physical
verification. If any discrepancies are identified, appropriate actions are taken locally. In addition, the issue
of part-time physician time and attendance is discussed at the quarterly performance reviews with the
network directors. VA has also developed revised policies and procedures that will enable it to more easily
meet patient care requirements and schedule physicians in a manner that is more consistent with their
practice patterns. The policies and procedures are being paired with modifications to VA’s electronic time
and attendance (ETA) system. The changes to VA directives and handbooks 5005, 5007, and 5011 have
been finalized, but put on hold pending completion of modifications to ETA. Anticipated completion date
for the ETA modifications is May 2005.

A VHA workgroup was charged to review the activities of those facilities noted in the OIG report who
conducted acceptable desk audits and prepare guidance for use by all facilities. VHA will collaborate with
the Office of Financial Management to develop comprehensive guidance for timekeepers. VHA is also
developing computer based training for part-time physicians, supervisors, and timekeepers. However, we
were not provided planned completion dates.

In July 2004, VHA issued a directive on guidance on primary care panel size that requires VHA primary
care practices to establish maximum panel sizes for all primary care providers. AVHA advisory group
submitted to the Under Secretary for Health an initial study of physician productivity in the specialty areas of
cardiology, ophthalmology, and urology. The group considered several possible productivity models


                                                       78

including the United States Army Medical Command, Army Automated Staffing Assessment Model. VHA
will need to do significant software engineering to automate the data necessary to bring the specialty care
physician productivity project to fruition. VA continues to work on developing a productivity model for
specialty care providers with a planned completion of December 2005.

A draft directive on staffing guidelines for VHA health care providers, including nurses, is in the concurrence
process, and it states there is no management information system available that would support nationwide
standardized staffing plans for health care providers. VHA anticipates that a system for the collection and
analysis of this information will be in place by September 2009.




                                                      79

Blank
Blank Page
      Page




  80

                                                 APPENDIX C

                     INSPECTOR GENERAL ACT REPORTING REQUIREMENTS


The table below cross-references the specific pages in this semiannual report to the reporting requirements
where they are prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended by the
Inspector General Act Amendments of 1988 (Public Law 100-504), and the Omnibus Consolidated
Appropriations Act of 1997 (Public Law 104-208).

  IG Act
References                                 Reporting Requirement                                        Page

Section 4 (a) (2)      Review of legislation and regulations                                              53

Section 5 (a) (1)      Significant problems, abuses, and deficiencies                                   1-52

Section 5 (a) (2)      Recommendations with respect to significant problems, abuses, and                1-52
                       deficiencies

Section 5 (a) (3)      Prior significant recommendations on which corrective action has not been         73
                       completed                                                                       (App. B)

Section 5 (a) (4)      Matters referred to prosecutive authorities and resulting prosecutions and          i
                       convictions

Section 5 (a) (5)      Summary of instances where information was refused                                82
                                                                                                       (App. C)

Section 5 (a) (6)      List of audit reports by subject matter, showing dollar value of questioned     63 to 72
                       costs and recommendations that funds be put to better use                       (App. A)

Section 5 (a) (7)      Summary of each particularly significant report                                 i to viii

Section 5 (a) (8)      Statistical tables showing number of reports and dollar value of questioned        83
                       costs for unresolved, issued, and resolved reports                              (Table 1)

Section 5 (a) (9)      Statistical tables showing number of reports and dollar value of                   84
                       recommendations that funds be put to better use for unresolved, issued, and     (Table 2)
                       resolved reports

Section 5 (a) (10)     Summary of each audit report issued before this reporting period for which no      82
                       management decision was made by end of reporting period                         (App. C)

Section 5 (a) (11)     Significant revised management decisions                                          82
                                                                                                       (App. C)

Section 5 (a) (12)     Significant management decisions with which the Inspector General is in            82
                       disagreement                                                                    (App. C)

Section 5 (a) (13)     Information described under section 5(b) of the Federal Financial                  82
                       Management Improvement Act of 1996 (Public Law 104-208)                         (App. C)


                                                               81
          INSPECTOR GENERAL ACT REPORTING REQUIREMENTS (CONT’D)

Prior Significant Recommendations Without Corrective Action and Significant
Management Decisions

The IG Act requires identification of: (i) significant revised management decisions, and (ii) significant
management decisions with which the OIG is in disagreement. During this 6-month period, there were no
reportable instances under the Act.

Obtaining Required Information or Assistance

The IG Act requires the OIG to report instances where access to records or assistance requested was
unreasonably refused, thus hindering the ability to conduct audits or investigations. During this 6-month
period, there were no reportable instances under the Act.

Federal Financial Management Improvement Act of 1996 (Public Law 104-208)

The IG Act requires the OIG to report instances and reasons when VA has not met the intermediate target
dates established in the VA remediation plan to bring VA’s financial management system into substantial
compliance with the requirements of Public Law 104-208. VA began operational testing of a new
integrated financial management and logistics system (CoreFLS) on October 6, 2003, at three VA facilities.
VA planned to expand operational testing to several other facilities during the fiscal year. However, due to
deployment and information technology security issues, further implementation of the system was halted. VA
is currently evaluating how it will proceed with the system development effort. At the time it was halted, the
project was under the VA Chief Financial Officer. Subsequently, the project has been transferred to the VA
Chief Information Officer.

Reports Issued Before this Reporting Period Without a Management Decision Made
by the End of the Reporting Period

The IG Act requires a summary of audit reports issued before this reporting period for which no management
decision was made by the end of the reporting period. There were no OIG reports unresolved for over 6
months.

Statistical Tables 1 and 2 Showing Number of Unresolved Reports

As required by the IG Act, Tables 1 and 2 provide statistical summaries of unresolved and resolved reports
for this reporting period. Specifically, they provide summaries of the number of OIG reports with potential
monetary benefits that were unresolved at the beginning of the period, the number of reports issued and resolved
during the period with potential monetary benefits, and the number of reports with potential monetary benefits that
remained unresolved at the end of the period.




                                                        82

TABLE 1 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS


This table provides the resolution status information required by the IG Act. It summarizes the reports with
questioned costs.


                                                                    NUMBER             QUESTIONED
                     RESOLUTION STATUS                                OF                   COSTS
                                                                    REPORTS             (in Millions)

   No management decision by 3/31/04                                      0                $0

   Issued during reporting period                                        14                $1.7

           Total Inventory This Period                                   14                $1.7

   Management decision during reporting period

      Disallowed costs (agreed to by management)                         14                $1.7

      Allowed costs (not agreed to by management)                         0                $0

           Total Management Decisions This Period                        14                $1.7

           Total Carried Over to Next Period                              0                $0


Definitions:
Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG
recommends VA pursue collection, including Government property, services or benefits provided to
ineligible recipients; recommended collections of money inadvertently or erroneously paid out; and
recommended collections or offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor costs OIG recommends be disallowed by the
contracting officer or other management official. Costs normally result from a finding that expenditures were
not made in accordance with applicable laws, regulations, contracts, or other agreements; or a finding that
the expenditure of funds for the intended purpose was unnecessary or unreasonable.

Disallowed Costs are costs that contracting officers or management officials have determined should not
be charged to the Government and which will be pursued for recovery; or on which management has agreed
that VA should bill for property, services, benefits provided, monies erroneously paid out, overcharges, etc.
Disallowed costs do not necessarily represent the actual amount of money that will be recovered by the
Government due to unsuccessful collection actions, appeal decisions, or other similar actions.

Allowed Costs are amounts on which contracting officers or management officials have determined that VA
will not pursue recovery of funds.




                                                     83

TABLE 2 – RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

This table provides the resolution status information required by the IG Act. It summarizes the reports with
recommended funds to be put to better use by management.


                                                                                  RECOMMENDED
                                                               NUMBER
                                                                                 FU N D S TO B E P U T
                RESOLUTION STATUS                                OF
                                                                                  TO B E TTE R U S E
                                                               REPORTS
                                                                                     (IN MILLIONS)
No management decision by 3/31/04                                   32                 $530.3
Issued during reporting period                                      51                  867.8
       Total inventory this period                                  83               $1,398.1
Mangement decisions during reporting period
   Agreed to by management                                          78               $1,383.9
   Not agreed to by management                                       5                  $14.2
       Total Management Decisions This Period                       83               $1,398.1
       Total Carried Over to Next Period                             0                    $0


Definitions:

Recommended Better Use of Funds
        For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not
incurred by implementing recommended improvements, and other savings identified in audit reports.
        For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional
evidence supporting the costs is provided. Questioned costs normally result from findings such as a failure
to comply with regulations or contract requirements, mathematical errors, duplication of costs, proposal of
excessive rates, or differences in accounting methodology. Unsupported costs result from a finding that
inadequate documentation exists to enable the auditor to make a determination concerning allowability of
costs proposed.

Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds
that will be used more efficiently based on management’s agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were not
awarded as a result of audits.

Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.
                                                     84

                                               APPENDIX D


                         VA OIG PERFORMANCE REPORT FY 2005

Overview of FY 2004 Accomplishments

Presented here are the results of our efforts in FY 2004 against the planned goals. Our performance goals and
results were linked to the OIG Strategic Plan 2001-2006. Overall, a total of 52 annual performance goals
were planned; we achieved 45 (87 percent). Four goals were carried over to FY 2005 and three goals were
not achieved due to competing demands on resources. The percent of FY 2004 goal accomplishments
represent an increase of 15 percent over the FY 2003 goal accomplishment rate. The chart below illustrates
our increased performance levels.

                                       Annual Goals Accomplished

60
            53                                                52
50
                                                                    45
                                                                                              Total Goals

40                  38                                                                        Achieved
                                                                                              Carry Over

30                                                                                            Closed
                                                                                              Not Achieved

20
                           12
10
                                                                           4              3
                                   1       2
                                                                                   0
  0
                         FY 2003                                         FY 2004




The OIG focuses much of its oversight efforts on systemic issues having the potential for improving VA
programs; detecting and deterring VA’s criminal activity, waste, and mismanagement; and enhancing overall
productivity. Details of OIG accomplishments covering the second 6 months of this fiscal year can be found in
the earlier chapters of this report. Details of the accomplishments during the first half of the fiscal year can be
found in volume 51 of our semiannual report, dated March 31, 2004.

The following charts reflect the OIG's achievements in FY 2004. We define each strategic goal and list
projects by OIG component. The Offices of Investigations, Audit, and Healthcare Inspections accomplished
goals through collaborative efforts.




                                                        85

                                            GOAL: Health Care Delivery

Improve veterans' access to high quality and safe health care by identifying
opportunities to improve the management and efficiency of VA's health care delivery
systems; and by detecting, investigating, and deterring fraud and other criminal
activity.

Office of Investigations


                                                                                                FY 2004         Goal
 N o.                     Activity                                FY 2004 Goal
                                                                                                 Actual       Achie ve d


                                                                                                               9
        Initiate fraud investigations in the VA health   Evaluate referrals and initiate           316           Yes
        care system including instances of fraud in      appropriate investigations in these
   1    construction, claims for medical benefits or     areas
        unauthorized medical care, workers'
        compensation, and beneficiary travel



                                                                                                               9
        Initiate employee misconduct investigations   Evaluate referrals and initiate              17 4          Yes
        in the VA health care system including        appropriate investigations in these
        instances of patient abuse, conflicts of      areas
   2
        interest, resource misuse, travel abuse, and
        misconduct regarding official time on the job
        and corresponding timekeeping



                                                                                                               9
        Initiate pharmaceutical investigations           Evaluate referrals and initiate           85            Yes
   3    involving instances of theft or diversion by     appropriate investigations in these
        both employees and non- employees                areas



                                                                                                               9
        Initiate joint investigative cases with the VA   Evaluate referrals and initiate           225            es
        Police relating to crimes committed by VA        appropriate investigations in these
   4
        employees, patients, and visitors in order to    areas
        ensure the safety of VA medical facilities

        Increase employee consciousness regarding        Conduct 150 briefings                     173

                                                                                                               9
                                                                                                                 Yes
        the indicators of fraud and the procedures
        for referral of matters of criminal conduct to
   5
        the OIG by conducting briefings for VA
        employees during visits to VA medical
        facilities

        Conduct a match of verified death data with      Evaluate data and initiate            Not complete
        pharmacy records to identify drug diversion,     appropriate investigations               due to
   6    generate criminal investigations, and recover                                           competing
        VHA assets                                                                             demands on
                                                                                                resources


Office of Healthcare Inspections

                                                                                                FY 2004         Goal
 N o.                     Activity                                FY 2004 Goal
                                                                                                 Actual       Achie ve d


                                                                                                               9
        Conduct independent inspections of Hotline       Complete 12 Hotline cases                 27            Yes
  1     complaints and allegations involving patient
        care and services

                                                                86
Office of Healthcare Inspections

                                                                                            FY 2004            Goal
 N o.                    Activity                              FY 2004 Goal
                                                                                             Actual          Achie ve d


                                                                                                              9
        Conduct oversight reviews of work             Review all OMI draft reports               5              Yes
  2     performed by the Office of the Medical
        Inspector



                                                                                                              9
        Conduct proactive CAP reviews of the          Participate in 40 health care CAP         40               es
        management of services provided to            reviews
        veterans and eligible beneficiaries at VA
        medical facilities, with emphasis on
        predefined pulse points, and follow- up on
        VHA's response to previous OIG
  3
        recommendations to strengthen security,
        access, inventory, and oversight
        requirements and procedures for
        safeguarding all high- risk or sensitive
        materials or agents used in VA research
        facilities



                                                                                                              9
        Analyze the evaluation of VHA's               Issue the report                     Report issued        Yes
        compliance with Office of Research and
  4     Development's instructions for controlling
        and better monitoring human subjects during
        clinical research trials



                                                                                                              9
        Review security over VA potable and waste     Issue the report                     Report issued        Yes
        water systems, and the degree of VA
  5
        coordination with EPA concerning those
        systems



                                                                                                              9
        Complete the inspection of VHA's              Issue the report                    Report issued         Yes
  6     homemaker/home health aid program



                                                                                                              9
        Evaluate VHA's community residential care     Complete the analysis and begin      Report issued        Yes
  7     program                                       drafting the report



                                                                                                              9
        Complete the evaluation of VHA's              Issue the report                     Report issued        Yes
  8     procedures for responding to and managing
        patients who become violent



                                                                                                              9
        Analyze the focused areas emphasized          Complete analysis and provide          Analysis           Yes
        during CAP reviews at VA medical facilities   information for the consolidated    completed and
        and provide input for the consolidated        CAP report                           information
  9
        summary report detailing the findings and                                           provided
        recommended actions to improve health
        care operations



                                                                                                              9
        Complete inspection of VHA nurse staffing     Issue the report                     Report issued        Yes
  10    patterns and planning practices



                                                                                                              9
        Analyze feeding and aspiration controls and   Initiate the review                 Review initiated      Yes
  11    care provided at VA facilities




                                                             87
Office of Audit


                                                                                                FY 2004             Goal
 N o.                     Activity                                FY 2004 Goal
                                                                                                 Actual           Achie ve d

   1    Complete the evaluation to assess the            Issue the report                      Postponed due     Carried over to
        effectiveness of VHA's Community Based                                                  to competing       F Y 2005
        O utpatient Clinic (CBO C) planning process                                               demands
        and management controls



                                                                                                                    9
   2    Conduct proactive CAP reviews of the             Participate in 40 health care CAP     Participated in        Yes
        management of services provided to               reviews                                  40 CAP
        veterans and eligible beneficiaries at VA                                                 reviews
        medical facilities with emphasis on
        predefined pulse points



                                                                                                                    9
   3    Analyze the pulse- points emphasized during      Complete analysis and issue            Consolidated            es
        CAP reviews at VA medical facilities             consolidated CAP report               reports issued
        provide input for consolidated summary
        reporting addressing findings and
        recommended actions to improve health
        care operations, and identify and evaluate
        emerging issues



                                                                                                                    9
   4    Audit VHA's report on capacity for               Issue the report                      Report issued          Yes
        specialized medical treatments




                                                                                                                    9
   5    Audit VHA's report on expenditures of the        Issue the report                      Report issued          Yes
        N ational Drug Control Program
        (Attestation of VA's detailed accounting
        submission)



                                                                                                                    9
   6    Complete a special review of part - time         Issue the report                      Report issued            es
        physicians' time and attendance issues




                                        GOAL: BENEFITS PROCESSING

Improve the delivery of benefits and services by identifying opportunities to improve
the quality, timeliness, and accuracy of benefits processing; and reduce fraud in the
delivery of benefits through proactive and targeted investigative efforts.

Office of Investigations


                                                                                                FY 2004             Goal
 N o.                     Activity                                FY 2004 Goal
                                                                                                 Actual           Achie ve d


                                                                                                                    9
        Initiate investigations involving instances of   Evaluate referrals and initiate            397               Yes
   1    employee or beneficiary fraud                    appropriate investigations in these
                                                         areas



                                                                                                                    9
        Initiate investigations involving instances of Evaluate referrals and initiate               37               Yes
        employee misconduct in the management,         appropriate investigations in these
        delivery, and processing of benefits and       areas
   2
        services including theft of government
        property, embezzlement of VA funds, misuse
        of appropriated funds, and resource misuse

                                                                88
Office of Investigations

                                                                                                FY 2004           Goal
 N o.                     Activity                                FY 2004 Goal
                                                                                                 Actual         Achie ve d


                                                                                                                  9
        Initiate investigations involving instances of   Evaluate referrals and initiate            10              Yes
   3    fraud in the Loan Guaranty program               appropriate investigations in these
                                                         areas



                                                                                                                  9
        Increase employee consciousness regarding        Conduct 40 briefings                       85              Yes
        the indicators of fraud and the procedures
        for referral of matters of criminal conduct to
   4
        the OIG by conducting briefings for VA
        employees during visits to VA regional
        offices



                                                                                                                  9
        Complete fugitive felon data matching and        Complete 4 new agreements                  4               Yes
   5    sharing agreements with other law
        enforcement organizations



                                                                                                                  9
        Conduct computer matches between fugitive        Complete 10 computer matches               10              Yes
   6    felon data provided by law enforcement
        organizations and VA record systems



                                                                                                                  9
        Complete the proactive investigation project     Complete the investigation project       Project           Yes
        involving the payment of VA benefits to                                                  completed
   7    veterans living in Puerto Rico in order to
        identify cases of fraudulent receipt of VA
        funds



                                                                                                                  9
        Conduct a review of the Tuition Assistance       Complete the review of one VBA           Review            Yes
   8    Top- Up Program to identify potential fraud      Educational Regional Processing         completed
                                                         Office


Office of Audit

                                                                                                FY 2004           Goal
 N o.                     Activity                                FY 2004 Goal
                                                                                                 Actual         Achie ve d
        Complete the evaluation to determine the         Issue the report                      Postponed due   Carried over to
        reasonableness of VBA rating decisions                                                  to competing     F Y 2005
   1
        made on claims of current and former                                                      demands
        employees



                                                                                                                  9
        Conduct proactive CAP reviews of claims      Conduct 12 benefit CAP reviews                 12              Yes
   2    processing and services provided to
        veterans and eligible beneficiaries at VAROs



                                                                                                                  9
        Analyze results of CAP reviews at VAROs          Issue the report                      Report issued        Yes
        and prepare a summary report detailing
   3    systemic weaknesses, significant findings,
        and recommended actions needed to
        improve operations




                                                                89
                             GOAL: FINANCIAL MANAGEMENT SYSTEMS

Assist VA in achieving its financial management mission of providing all VA activities
with accurate, reliable, and timely information for sound oversight and decision
making; and identify opportunities to improve the quality, management, and efficiency
of VA’s financial management systems.

Office of Investigations


                                                                                                  FY 2004           Goal
 N o.                    Activity                                 FY 2004 Goal
                                                                                                   Actual         Achie ve d


                                                                                                                   9
        Initiate investigations involving instances of   Evaluate referrals and initiate              39             Yes
   1    fraud and mismanagement occurring in VA's        appropriate financial investigations
        financial management activities and systems


Office of Audit


                                                                                                  FY 2004           Goal
 N o.                    Activity                                 FY 2004 Goal
                                                                                                   Actual         Achie ve d


                                                                                                                   9
        Monitor the contractor's audit of VA's FY        Ensure proper completion of the            Audit            Yes
   1    2003 Enterprise Fund financial statement         required annual audit                    completed



                                                                                                                   9
        Monitor the contractor's audit of the FY  Ensure proper completion of the                   Au
dit           Yes
        2003 Consolidated Financial Stateme
nt    required annual audit                           completed
   2    (CFS) as required by the CFO Ac
t of 1990
        and the Government Management Reform

        Ac
t of 1996



                                                                                                                   9
        Complete the follow- up audit of VA's            Issue the report                       Report issued         es
   3    Workers' Compensation Program

        Report on the promptness of VA's                 Issue the report                       Report in draft
   4    payments for water/sewer services for VA's
        Washington, DC, facilities



                                                                                                                   9
        Issue a new statement of work (SOW) to           Issue SOW                                  Issued           Yes
   5    contract for FY 2004 CFS audit




                                                                90
                                   GOAL: PROCUREMENT PRACTICES

Identify opportunities to enhance the effectiveness and efficiency of VA’s acquisition
program in meeting user needs and ensuring the best possible price, and help
eliminate opportunities to commit fraud and other illegal acts in the procurement
process by investigating and prosecuting criminal activity to the fullest extent of the
law.

Office of Investigations


                                                                                              FY 2004           Goal
 N o.                    Activity                               FY 2004 Goal
                                                                                               Actual         Achie ve d


                                                                                                                9
        Initiate investigations involving instances of Evaluate referrals and initiate            31                es
        fraud and mismanagement in the                 appropriate investigations in these
        procurement and delivery of services and       areas
   1    materials, and the oversight of VA contracts,
        including fraudulent acts involving credit
        card misuse, contracts, and procurement by
        VA employees or contract agents

        Review computer generated records of VA        Complete 4 reviews                    Not complete
        purchase card transactions for suspicious                                               due to
   2    acquisitions and initiate investigations as                                           competing
        appropriate                                                                          demands on
                                                                                              resources


Office of Audit


                                                                                              FY 2004           Goal
 N o.                    Activity                               FY 2004 Goal
                                                                                               Actual         Achie ve d
        Complete the audit to review the                Issue the report                     Postponed due   Carried over to
        effectiveness and efficiency of VHA's                                                 to competing     F Y 2005
   1
        construction contract award and                                                         demands
        administration process



                                                                                                                9
        Complete the audit of VHA's National            Issue the report                     Report issued          es
   2    Acquisition Center operations and contract
        administration



                                                                                                                9
        Complete the audit to assess VA's               Issue the report                     Report issued        Yes
   3    management controls over VA's
        Government Purchase Card Program

        Complete the audit to assess VA's               Issue the report                     Postponed due   Carried over to
        compliance with the National Energy                                                   to competing     F Y 2005
   4
        Conservation Act of 1978 and Executive                                                  demands
        Order 13123


                                                               91
Office of Audit


                                                                                              FY 2004          Goal
 N o.                    Activity                               FY 2004 Goal
                                                                                               Actual        Achie ve d


                                                                                                              9
        Conduct preaward and postaward contract        Complete 62 preaward and                  10 4           Yes
        reviews to: assess the accuracy and            postaward contract reviews
        completeness of pricing and sales data as
        required by Federal supply service
   5
        contracts, determine price reasonableness
        and identify contract over- charges, and
        ensure compliance with statutory pricing
        provisions



                                                                                                              9
        Complete the audit of VHA's local              Issue the report                      Report issued      Yes
   6
        procurement practices


                                  GOAL: INFORMATION MANAGEMENT

Determine if VA’s information systems are adequately protected and provide accurate,
complete, and timely information in order to improve performance, cut costs, and
enhance customer service; and investigate fraud and other computer-related crimes
against VA.

Office of Investigations

                                                                                              FY 2004          Goal
 N o.                    Activity                               FY 2004 Goal
                                                                                               Actual        Achie ve d


                                                                                                              9
        Initiate investigations involving instances of Evaluate referrals and initiate             9            Yes
        fraud and mismanagement involving VA           appropriate investigations in these
   1
        computer systems or other computer- related areas
        crimes directed at the VA



                                                                                                              9
        Conduct Computer Crime Investigator            Conduct 5 briefings                         5            Yes
        (CCI) capability briefings for VA
        Information Security Officers and VA OIG
        investigators to ensure personnel are
   2    cognizant of the CCI program, its
        responsibilities, and the requirement and
        procedures for reporting criminal and
        administrative violations involving VA
        computer systems




                                                              92
Office of Audit


                                                                                           FY 2004           Goal
    N o.                   Activity                           FY 2004 Goal
                                                                                            Actual         Achie ve d


                                                                                                             9
           Conduct the annual audit of the            Issue the report                   Report issued          es
     1     Department's implementation of FISMA



                                                                                                             9
           Conduct a special review of VA's           Issue the report                   Report issued         Yes
     2     Applications Patch Management




                            What We Plan to Accomplish in FY 2005

The performance plan for FY 2005 is guided by our latest OIG Strategic Plan for 2005-2010, which includes
five strategic goals guiding the direction of all OIG audits, investigations, and health care inspections. The
strategic plan focuses on examining major management challenges and high-risk areas for criminal activity,
waste, abuse, and inefficiency within the Department; and it offers solutions to problems associated with those
areas.

                                          FY 2005 STRATEGIC GOALS

The OIG has identified the following 5 strategic goals that direct the investment of all OIG resources:

z          Access to High Quality and Safe Health Care

z          Accuracy and Timeliness of Benefits Claims Processing

z          Reliability of Financial Management Systems

z          Efficient and Economical Procurement Practices

z          Efficient and Secure Information Technology


                       ACCESS TO HIGH QUALITY AND SAFE HEALTH CARE

Office of Investigations


    N o.                                  Activity                                          FY 2005 Goal

             Initiate fraud investigations in the VA health care system            Evaluate referrals and initiate
      1      including claims for medical benefits or unauthorized medical         appropriate investigations in these
             care, workers' compensation, and beneficiary travel                   areas

             Initiate employee misconduct investigations in the VA health          Evaluate referrals and initiate
             care system including instances of patient abuse, conflicts of        appropriate investigations in these
      2      interest, resource misuse, travel abuse, and misconduct               areas
             regarding official time on the job and corresponding time
             keeping

             Initiate pharmaceutical investigations involving instances of theft   Evaluate referrals and initiate
      3      or diversion by both employees and non- employees                     appropriate investigations in these
                                                                                   areas


                                                             93

Office of Investigations


  N o.                               Activity                                         FY 2005 Goal

         Initiate joint investigative cases with the VA Police relating to   Evaluate referrals and initiate
   4     crimes committed by VA employees, patients, and visitors in         appropriate investigations in these
         order to ensure the safety of VA medical facilities                 areas

         Increase employee consciousness regarding the indicators of         Conduct 155 briefings
         fraud and the procedures for referral of matters of criminal
   5
         conduct to the O IG by conducting briefings for VA employees
         during visits to VA medical facilities

         Initiate drug diversion criminal investigations based on a          Evaluate data and initiate
   6     comparison of verified death match data with VHA pharmacy           appropriate investigations in this
         records                                                             area


Office of Audit


  N o.                               Activity                                         FY 2005 Goal

         Complete the evaluation to assess the effectiveness of VHA's        Issue the report
   1     CBO C planning process and management controls

         Conduct proactive CAP reviews of the management of                  Participate in 48 health care CAP
   2     services provided to veterans and eligible beneficiaries at VA      reviews
         medical facilities with emphasis on predefined pulse points

         Analyze the pulse points emphasized during CAP reviews at           Issue consolidated CAP report
         VA medical facilities, provide input for consolidated summary
   3     addressing findings and recommended actions to improve
         health care operations, and identify and evaluate emerging
         issues

         Audit VHA's report on capacity for specialized medical              Issue the report
   4
         treatments

   5     Attestation of VA's detailed accounting submission                  Issue the report

   6     Review of VA's rural development efforts                            Issue the report

   7     Complete evaluation of waiting list scheduling and data validity    Issue the report

   8     Complete audit of physicians' time and attendance                   Issue the report

   9     Complete audit of VHA use of fee basis appointments                 Issue the report

   10    Audit of physician staffing levels                                  Start audit

   11    Audit of pharmacy and drug accountability                           Start audit




                                                        94
Office of Healthcare Inspections


  N o.                               Activity                                        FY 2005 Goal

         Review of internal controls and patient safety issues in VHA       Issue the report
   1     pharmacies

         Review of MCCF/clinical documentation in VHA medical               Review during 48 health care CAP
   2     facilities                                                         reviews

         Review of management efficiencies and patient safety issues in     Complete the review
   3     VHA operating rooms

   4     Review of VHA programs for homeless veterans                       Issue the report

         Review of pressure ulcer prevention and management practices       Review during 20 health care CAP
   5
         in VHA facilities                                                  reviews and issue the report

         Review and analysis of selected VHA medical outcomes               Review during 20 health care CAP
   6
                                                                            reviews

         Review of medical record clinical documentation to support         Issue the report
   7
         resident supervision

         Review of Q uality Management programs in VHA medical              Review during 48 health care CAP
   8
         facilities                                                         reviews

   9     Hotline inspections                                                Issue 15 hotline reports


         ACCURACY AND TIMELINESS OF BENEFITS CLAIMS PROCESSING

Office of Investigations


  N o.                               Activity                                        FY 2005 Goal

         Initiate investigations involving instances of employee or         Evaluate referrals and initiate
   1     beneficiary fraud                                                  appropriate investigations in these
                                                                            areas

         Initiate investigations involving instances of employee            Evaluate referrals and initiate
         misconduct in the management, delivery, and processing of          appropriate investigations in these
   2     benefits and services including theft of government property,      areas
         embezzlement of VA funds, misuse of appropriated funds, and
         resource misuse

         Initiate investigations involving instances of fraud in the Loan   Evaluate referrals and initiate
   3     Guaranty program                                                   appropriate investigations in these
                                                                            areas

         Increase employee consciousness regarding the indicators of        Conduct 48 briefings
         fraud and the procedures for referral of matters of criminal
   4
         conduct to the O IG by conducting briefings for VA employees
         during visits to VA regional offices



                                                        95

Office of Investigations


  N o.                                Activity                                       FY 2005 Goal

         Complete fugitive felon data matching and sharing agreements       Complete 4 new agreements
   5
         with other law enforcement organizations

         Conduct computer matches between fugitive felon data               Complete 12 computer matches
   6     provided by law enforcement organizations and VA record
         systems

         Initiate planning for a proactive international bbenefits review   Initiate planning of the investigation
         investigation project involving the payment of VA benefits to      project
   7
         veterans living in foreign countries to identify cases of
         fraudulent receipt of VA funds

         Evaluate earnings and eligibility verification data and initiate   Evaluate data and initiate
   8
         appropriate criminal investigations                                appropriate investigations

         Conduct a computer match between data provided by                  Conduct the computer match
   9     Department of Defense data and VA record systems to identify
         fictitious veterans and other erroneous payments

   10    Issue San Juan benefit review report                               Issue report


Office of Audit


  N o.                                Activity                                       FY 2005 Goal

         Complete the evaluation to determine the reasonableness of         Issue the report
   1     VBA rating decisions made on claims of current and former
         employees

         Conduct proactive CAP reviews of claims processing and             Conduct 12 benefit CAP reviews
   2     services provided to veterans and eligible beneficiaries at
         VARO s

         Prepare a summary report detailing systemic weaknesses,            Issue the report
   3     significant findings, and recommended actions needed to
         improve VARO operations

         Initiate audit of Systemic Technical Accuracy Review (STAR)        Start audit
   4
         program

         Initiate audit to determine accuracy of benefits processing at     Start audit
   5
         the Pension Maintenance Centers

         Review of Post Traumatic Stress Disorder (PTSD) disability         Start audit
   6
         claims

   7     Audit of VBA benefit payments to incompetent beneficiaries         Start audit


   8     Audit of VBA's VETSN ET system development initiative              Start audit



                                                         96
                   RELIABILITY OF FINANCIAL MANAGEMENT SYSTEMS

Office of Investigations


  N o.                               Activity                                            FY 2005 Goal

         Initiate investigations involving instances of fraud and               Evaluate referrals and initiate
   1     mismanagement occurring in VA's financial management                   appropriate financial investigations
         activities and systems

         Review computer generated records of VA purchase card                  Conduct a review
   2     transactions for suspicious acquisitions and initiate investigations
         as appropriate


Office of Audit


  N o.                               Activity                                            FY 2005 Goal

         Monitor the contractor audit of VA's FY 2004 enterprise fund           Ensure proper completion of the
   1
         financial statements                                                   required annual audit

         Monitor the contractor audit of the FY 2004 CFS as required            Ensure proper completion of the
   2     by the CFO Act of 1990 and the Government Management                   required annual audit
         Reform Act of 1996

   3     Complete audit of MCCF first party debts                               Issue the report

         Report on the promptness of VA's payments for water/sewer              Issue the report
   4
         services for VA's Washington, DC facilities

         Monitor the contractor audit of the FY 2004 CFS as required            Complete the audit
   5     by the CFO Act of 1990 and the Government Management
         Reform Act of 1996

         Monitor the contractor audit of VA's FY 2004 enterprise fund           Complete the audit
   6
         financial statements

   7     Monitor single audit requirements (A- 133) impacting VA                Conduct recurring reviews




                                                         97
              EFFICIENT AND ECONOMICAL PROCUREMENT PRACTICES

Office of Investigations


  N o.                               Activity                                        FY 2005 Goal

         Initiate investigations involving instances of fraud and           Evaluate referrals and initiate
         mismanagement in the procurement and delivery of services          appropriate investigations in these
   1     and materials, and the oversight of VA contracts, including        areas
         fraudulent acts involving credit card misuse, contracts, and
         procurement by VA employees or contract agents

         Initiate investigations involving instances of fraud in            Evaluate referrals and initiate
   2     construction                                                       appropriate investigations


Office of Audit


  N o.                               Activity                                        FY 2005 Goal

         Complete the audit to review the effectiveness and efficiency of   Issue the report
   1
         VHA's construction contract award and administration process

         Complete the review of the Department's implementation of the      Issue the report
   2     Zegato Travel Initiative

         Complete the audit evaluating contracting services provided        Issue the report
   3
         other Government agencies

         Complete the audit to assess VA's compliance with the              Issue the report
   4     N ational Energy Conservation Act of 1978 and Executive
         O rder 13123

         Conduct preaward and postaward contract reviews to assess          Complete 64 preaward and
         the accuracy and completeness of pricing and sales data as         postaward contract reviews
   5     required by federal supply service contracts, determine price
         reasonableness, identify contract over- charges, and ensure
         compliance with statutory pricing provisions

         Complete the review of vocational rehabilitation service           Issue the report
   6     contracts

         Complete the evaluation of VACO procurement activities             Issue the report
   7

         Complete the audit of VHA's acquisition of medical                 Issue the report
   8     transcription services

         Complete an audit of selected VACO IT contracts                    Issue the report
   9

         Complete evaluation of alleged mismanagement of N ational          Issue the report
   10    Longitudinal Study

         Evaluation of VA medical oxygen supply                             Issue the report
   11


                                                         98
                  EFFICIENT AND SECURE INFORMATION TECHNOLOGY

Office of Investigations


  N o.                              Activity                                        FY 2005 Goal

         Initiate investigations involving instances of fraud and          Evaluate referrals and initiate
   1     mismanagement involving VA computer systems or other              appropriate investigations in these
         computer- related crimes directed at the VA                       areas

         Conduct Computer Crime Investigator (CCI) capability              Conduct 5 briefings
         briefings for VA Information Security O fficers and VA O IG
         investigators to ensure personnel are cognizant of the CCI
   2
         program, its responsibilities, and the requirement and
         procedures for reporting criminal and administrative violations
         involving VA computer systems



Office of Audit


  N o.                              Activity                                        FY 2005 Goal

         Conduct the annual audit of the Department's implementation       Issue the report
   1
         of FISMA FY 2004

         Conduct the annual audit of the Department's implementation       Start audit
   2
         of FISMA FY 2005

   3     Conduct an audit of VA firewalls                                  Start audit

   4     Conduct an audit of VA system development lifecycle program       Start audit

   5     Perform penetration testing of VA systems                         Start audit




                                                      99
Blank Page




  100

                                                   APPENDIX E


                                        OIG OPERATIONS PHONE LIST


Investigations


Headquarters Investigations Washington, DC ...................................................... (202) 565-7702

Northeast Field Office (51NY) New York, NY ........................................................ (212) 951-6850

       Boston Resident Agency (51BN) Bedford, MA ..................................................... (781) 687-3665

       Newark Resident Agency (51NJ) Newark, NJ ..................................................... (973) 297-3338

       Pittsburgh Resident Agency (51PB) Pittsburgh, PA ................................................. (412) 784-3888

       Washington Resident Agency (51WA) Washington, DC .......................................... (202) 530-9191

Southeast Field Office (51SP) Bay Pines, FL ............................................................ (727) 319-1215

       Atlanta Resident Agency (51AT) Atlanta, GA ........................................................ (404) 929-5950

       Columbia Resident Agency (51CS) Columbia, SC .............................................. (803) 695-6707

       Nashville Resident Agency (51NV) Nashville, TN .............................................. (615) 695-6373

       West Palm Beach Resident Agency (51WP) West Palm Beach, FL ......................... (561) 308-6664

Central Field Office (51CH) Chicago, IL ................................................................... (708) 202-2676

       Denver Resident Agency (51DV) Denver, CO ................................................... (303) 331-7673

       Cleveland Resident Agency (51CL) Cleveland, OH ............................................... (216) 552-7606

       Kansas City Resident Agency (51KC) Kansas City, KS ......................................... (913) 551-1439

South Central Field Office (51DA) Dallas, TX .......................................................... (214) 253-3360

       Houston Resident Agency (51HU) Houston, TX .................................................... (713) 794-3652

       New Orleans Resident Agency (51NO) New Orleans, LA .................................. (504) 619-4340

Western Field Office (51LA) Los Angeles, CA ......................................................... (310) 268-4269

       Phoenix Resident Agency (51PX) Phoenix, AZ ...................................................... (602) 627-3251

       San Diego Resident Agency (51SD) San Diego, CA .............................................. (619) 400-5326

       San Francisco Resident Agency (51SF) Oakland, CA ......................................... (510) 637-6360

       Seattle Resident Agency (51SE) Seattle, WA ......................................... (206) 220-6654, ext 31





                                                             101

                                  OIG OPERATIONS PHONE LIST (CONT’D)


Healthcare Inspections


Central Office Operations Washington, DC ........................................................... (202) 565-8305

Healthcare Regional Office Washington (54DC) Washington, DC ...................... (202) 565-8452

Healthcare Regional Office Atlanta (54AT) Atlanta, GA ...................................... (404) 929-5961

Healthcare Regional Office Bedford (54BN) Bedford, MA ................................... (781) 687-2134

Healthcare Regional Office Chicago (54CH) Chicago, IL .................................... (708) 202-2672

Healthcare Regional Office Dallas (54DA) Dallas, TX .......................................... (214) 253-3330

Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA ..................... (310) 268-3005




Audit


Central Office Operations Washington, DC ........................................................... (202) 565-4625

Central Office Operations Division (52CO) Washington, DC ................................... (202) 565-4434

Contract Review and Evaluation Division (52C) Washington, DC ............................ (202) 565-4818

Financial Audit Division (52CF) Washington, DC ..................................................... (202) 565-7913

Information Technology Division (52IT) Washington, DC ........................................ (202) 565-5826

Veterans Health and Benefits Division (52VH) ........................................................ (202) 565-8447

Operations Division Atlanta (52AT) Atlanta, GA ...................................................... (404) 929-5921

Operations Division Bedford (52BN) Bedford, MA .................................................. (781) 687-3120

Operations Division Chicago (52CH) Chicago, IL .................................................... (708) 202-2667

Operations Division Dallas (52DA) Dallas, TX ........................................................ (214) 253-3300

        Austin Residence (52AU) Austin, TX .................................................................... (512) 326-6216

Operations Division Kansas City (52KC) Kansas City, MO .................................... (816) 426-7100

Operations Division Los Angeles (52LA) Los Angeles, CA ...................................... (310) 268-4335

Operations Division Seattle (52SE) Seattle, WA ....................................................... (206) 220-6654





                                                               102

                                APPENDIX F


                                  GLOSSARY


CAP       Combined Assessment Program
CMOP      Consolidated Mail Out Pharmacy
CoreFLS   Core Financial and Logistics System
DAS       Data Analysis Section
FBI       Federal Bureau of Investigation
FDA       Food and Drug Administration
FOIA/PA   Freedom of Information Act/Privacy Act
FSS       Federal Supply Schedule
FTE       Full Time Equivalent
FY        Fiscal Year
HUD       Department of Housing and Urban Development
I&T       Office of Information and Technology
IG        Inspector General
IRS       Internal Revenue Service
IT        Information Technology
MCI       Master Case Index
NCA       National Cemetery Administration
NCIC      National Crime Information Center
NLETS     National Law Enforcement Telecommunications System
OHI       Office of Healthcare Inspections
OIG       Office of Inspector General
OMB       Office of Management and Budget
OI&T      Office of Information and Technology
PCIE      President’s Council on Integrity and Efficiency
SSA       Social Security Administration
SSN       Social Security Number
U.S.      United States
VA        Department of Veterans Affairs
VAMC      Veterans Affairs Medical Center
VARO      VA Regional Office
VBA       Veterans Benefits Administration
VHA       Veterans Health Administration
VISN      Veterans Integrated Service Network
WCP       Workers’ Compensation Program




                                       103

    Copies of this report are available to the public. Written requests should be sent to:

             Office of the Inspector General (53B)

             Department of Veterans Affairs

             810 Vermont Avenue, NW

             Washington, DC 20420



    The report is also available on our website:

             http://www.va.gov/oig/53/semiann/reports.htm

    For further information regarding VA’s OIG, you may call 202 565-8620.




Cover photos courtesy of
U.S. Department of Defense




                                                    104
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                   (CALLER CAN REMAIN ANONYMOUS)




To Telephone:	          (800) 488-8244
                        (800) 488-VAIG
To FAX:	                (202) 565-7936

To Send
Correspondence:	        Department of Veterans Affairs
                        Inspector General Hotline (53E)
                        P.O. Box 50410
                        Washington, DC 20091-0410

Internet Homepage:	     http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:	        vaoighotline@mail.va.gov




                      Department of Veterans Affairs
                       Office of Inspector General
                     Semiannual Report to Congress

                    April 1, 2004 - September 30, 2004
